APPENDIX

1a
APPENDIX A
2019 WL 1591859
OPINION NOT REPORTED
(This is an unreported panel decision of
the Commonwealth Court. As such, it may be cited
for its persuasive value, but not as binding precedent.
See section 414 of the Commonwealth Court’s
internal operating procedures.
————
COMMONWEALTH COURT OF PENNSYLVANIA.
————
No. 439 C.D. 2018
————
ANTHONEE PATTERSON,
v.
KENNETH SHELTON,
Appellant
————
Submitted: December 28, 2018
Filed: April 15, 2019
————
BEFORE: HONORABLE RENÉE COHN JUBELIRER,
Judge, HONORABLE PATRICIA A. McCULLOUGH,
Judge, HONORABLE CHRISTINE FIZZANO CANNON,
Judge
OPINION
MEMORANDUM OPINION BY JUDGE PATRICIA
A. McCULLOUGH

2a
Kenneth Shelton (Shelton) appeals from the March
21, 2018 order of the Court of Common Pleas of
Philadelphia County (trial court) denying his petition
requesting that the trial court strike its prior orders
confirming an April 26, 2006 arbitration award and
refusing to vacate said award.
Facts and Procedural History
This case has a long and complicated history before
this Court and the trial court, most recently summarized in Patterson v. Shelton, 175 A.3d 442 (Pa.
Cmwlth. 2017). In our 2017 decision, we referred to a
2013 unpublished decision from this Court, Patterson
v. Shelton (Pa. Cmwlth., No. 2396 C.D. 2011, filed
March 6, 2013), appeal denied, 621 Pa. 705, 78 A.3d
1092 (Pa. 2013), wherein we provided the following
procedural history:
The key players involved in the present offshoot of
the controversy are: (1) the Church of the Lord Jesus
Christ of the Apostolic Faith (the “Church”), an unincorporated association, founded in 1919; (2) the
“Trustees of the General Assembly of the Church of the
Lord Jesus Christ of the Apostolic Faith, Inc.”, (the
“Corporate Trustee”), a Pennsylvania non-profit corporation formed in 1947 to act as the trustee and hold
property in trust for the Church; (3) Patterson, a lifelong member, elder, and minister of the Church; and
(4) Shelton, the current “Bishop” and/or “Overseer” of
the Church and “President” of the Corporate Trustee.
The dispute began in 1991 when then-Bishop S.
McDowall Shelton, died, leaving vacancies in the
offices of “Overseer” of the Church and “President” of
the Corporate Trustee. Immediately upon Bishop S.
McDowall Shelton’s death, Shelton and his “faction”
took control of the accounts, trusts and properties of

3a
the Church and Corporate Trustee. After extensive
litigation initiated by two other dissident factions
of the Church congregation over the leadership of
the Church and Corporate Trustee, the trial court
ultimately determined, and this Court later affirmed,
that Shelton and his Board of Trustees were in control.
...
On July 24, 1995, Patterson, as life-long member,
elder and minister of the Church, commenced an
action in equity against Shelton, in Shelton’s individual capacity and as the President of the Board of
Trustees of the Corporate Trustee. Patterson alleged
that since taking control of the Church and Corporate
Trustee in 1991, Shelton and his Board of Trustees
have misappropriated funds, “looted the Church’s assets,” paid themselves salaries in contravention of
Church By-Laws, and funded private expenditures,
lavish vacations, lingerie, cars, homes and other
personal incidentals with assets which were donated
and designated for Church religious and charitable
missions.
Patterson requested, inter alia: (1) the appointment
of a receiver to take control of the assets of the Church
held by the Corporate Trustee; (2) an order requiring
Shelton to issue annual financial reports for the years
1991, 1992, 1993, and 1994; and (3) an accounting.
The parties engaged in discovery. Patterson retained James A. Stavros, CPA (Stavros), a forensic
financial investigator, to analyze the finances and
expenditures of the Church and the Corporate Trustee. Stavros authored a report which detailed his
findings that Shelton and his Board of Trustees withdrew hundreds of thousands of dollars from Church
accounts with no accounting of where the funds went

4a
and that they expended Church funds on a significant
amount of “personal” items and expenditures that
appeared to be outside the normal course of business
and outside Church laws and customs. He concluded that Church accounts had declined by nearly $ 1
million under Shelton’s control.1
In January 2006, the parties agreed to submit to
binding arbitration. The Arbitrator concluded that
the credible evidence established that Shelton had
engaged in various acts of fraud, mismanagement,
conspiracy, breach of fiduciary responsibilities, violations of By-laws and the Articles of Incorporation
in seizing corporate funds and assets and depleting
bank accounts designated for Church-related purposes. The Arbitrator concluded that Shelton had diverted Church funds and assets to himself and others
for his and their benefit. The Arbitrator appointed a
receiver and directed Shelton to account for all Church
funds removed by him or those acting with him.
Shelton filed a motion to vacate the award which the
trial court denied.2 On appeal, this Court overturned
the arbitration award because the Arbitrator went
1

Patterson’s original complaint was stricken by the trial court
in 1996 for unknown reasons and reinstated upon Patterson’s
motion in 2004. However, during the interim, the trial court
determined that Shelton was the rightful General Overseer of the
Church and President of the Corporation. By decision dated April
10, 2001, this Court affirmed the trial court’s determination and
our Supreme Court denied separate petitions for allowance of
appeal. See Church of the Lord Jesus Christ of the Apostolic Faith
v. Shelton (Pa. Cmwlth., Nos. 376, 559 C.D. 2000, filed April 10,
2001), appeals denied, 567 Pa. 766, 790 A.2d 1019 (Pa. 2001), and
812 A.2d 1232 (Pa. 2001).
2

By order dated July 10, 2006, the trial court confirmed the
Arbitrator’s award in favor of Patterson and against Shelton and
entered judgment in conformity therewith.

5a
beyond the scope of his authority in fashioning relief.
See Shelton v. Patterson, 942 A.2d 967 (Pa. Cmwlth.
2008). This Court remanded the matter to the trial
court to determine whether Patterson was entitled to
relief under the [Pennsylvania Nonprofit Corporation
Law of 1988 (NCL), 15 Pa.C.S. §§ 5101-5998; 61016146].
On remand, Shelton moved for summary judgment
on the ground that Patterson lacked “statutory
standing” under Section 5782 of the NCL, 15 Pa.C.S.
§ 5782. Shelton argued that only an officer, director, or
member of a nonprofit corporation has “statutory
standing” to enforce a right of a nonprofit corporation
through a derivative action.
...
Shelton pointed to the Corporate Trustee’s Articles
of Incorporation which limited its membership in the
nonprofit corporation to its Board of Trustees. Shelton
asserted that because Patterson was never a member
of the Board of Trustees he was never a “member” of
the Corporate Trustee, and thus, he had no “statutory
standing” to bring claims that are derivative of the
Corporate Trustee’s rights.
The trial court agreed that under Section 5782 of the
NCL, Patterson could only bring suit if he was a
member of the Corporate Trustee at the time of the
alleged events outlined in the Complaint. The trial
court looked to Article IX of the Articles of Incorporation which states: “membership in the corporation
[Corporate Trustee] shall consist of those persons
serving as members of the Board of Trustees.” The
trial court concluded that because Patterson had never
been a member of the Board of Trustees he was not
a member of the Corporate Trustee. The trial court

6a
reasoned that because the NCL created the cause of
action and designated who may sue; standing was a
jurisdictional prerequisite to any action. Grom v.
Burgoon, 448 Pa.Super. 616, 672 A.2d 823 (Pa. Super.
1996). The trial court “finding no possible way to
affirm that [Patterson] has standing” granted the
motion for summary judgment and dismissed the case.
Id., slip op. at 1-6 (emphasis in original).
Our 2017 decision further summarized as follows:
On appeal, this Court reversed the order of the trial
court, concluding that Patterson, as a member of the
Church congregation, was “part of the beneficiary
class for which the Corporate Trustee held the
Church’s assets in trust,” and, as such, had “standing
to bring this action to enforce his own rights and the
rights commonly held by all beneficiaries to obtain
restoration to the Church of its full losses.” Id., slip op.
at 16-17. We remanded the matter to the trial court to
conduct a trial on the remaining factual and legal
issues raised by Patterson in his complaint.
On July 15, 2014, the trial court commenced a nonjury trial. During the course of the trial, an issue arose
as to whether the trial court had subject matter
jurisdiction over this dispute. Following argument, the
trial court concluded that it lacked such jurisdiction
because the matter requires interpretation of religious
doctrine and the same was prohibited by the First
Amendment. Hence, the trial court issued an order
granting a motion to dismiss filed by Shelton.
Patterson appealed to this Court, but we affirmed the
trial court’s order, concluding that the trial court ably
disposed of the subject matter jurisdiction issue in
its opinion. Patterson thereafter sought allowance of
appeal with the Pennsylvania Supreme Court, but
the same was denied. Patterson subsequently filed a

7a
petition for a writ of certiorari with the United States
Supreme Court, but the same was similarly denied.
On May 27, 2016, Patterson filed a motion with the
trial court to determine certain orders void based on
the lack of subject matter jurisdiction. In his motion,
Patterson sought an order from the trial court “declaring that the January 31, 2008 Commonwealth Court
Order, and all other post-July 10, 2006 rulings/orders
not consistent with the judgments on the binding common law arbitration award, are void . . . .”
Patterson alleged that the trial court “finally determined what [he] has been arguing all along – that
there was no subject matter jurisdiction as the parties
had agreed to resolve all of their disputes through
binding, common law arbitration.” In sum, Patterson
alleged that only the 2006 binding arbitration award
remained valid and asked the trial court to declare as
void all post-July 10, 2006 rulings/orders that were
inconsistent with that award because the courts lacked subject matter jurisdiction to alter the same.
By order dated July 14, 2016, the trial court denied
Patterson’s motion.3 Patterson filed a notice of appeal
with the trial court. The trial court thereafter issued
an opinion in support of its order explaining that
Patterson mischaracterizes its previous ruling regarding lack of subject matter jurisdiction. Contrary to
Patterson’s allegations, the trial court did not rule that
it lacked subject matter jurisdiction because of the
3

Shelton had filed a motion to strike Patterson’s motion as
moot, alleging that Patterson’s motion “defies logic and violates
bedrock principles of jurisdiction and substantive law.” In this
motion, Shelton also sought sanctions for Patterson’s alleged badfaith, frivolous motion. However, by separate order of the same
date, the trial court dismissed Shelton’s motion to strike as moot
in light of its order denying Patterson’s motion.

8a
parties’ agreement to litigate through binding arbitration; but rather, the trial court ruled that it lacked
such jurisdiction due “to the Deference Rule, which
prohibits courts from exercising jurisdiction over cases
that would require them to decide ecclesiastical questions.” In other words, the trial court explained that it
had no ability “to decide religious questions” and that
its prior opinion “never mentions the issue of jurisdiction as it relates to common law arbitration.” Further,
the trial court explained that it was “without jurisdiction to strike the Commonwealth Court’s January
2008 order vacating the Arbitration Award” and
lacked the authority to disturb an appellate court
ruling. Id. For the same reasons, the trial court noted
that it had no power to reinstate the arbitration award
which had been vacated on appeal. Patterson, 175 A.3d
at 446-47 (citations omitted).
Following an appeal by Patterson, this Court reversed the trial court’s July 14, 2016 order, concluding
as follows:
In this case, Patterson’s original complaint filed
with the trial court sought relief under the NCL. The
parties ultimately agreed to proceed to binding arbitration in November 2005, with no right to appeal, as
memorialized in an order from the trial court dated
January 10, 2006. This order also dismissed the case
from the trial court per agreement of the parties.
Nevertheless, after the Arbitrator ruled in Patterson’s
favor, Shelton filed a petition to vacate the arbitration
award with the trial court. While the trial court denied
Shelton’s petition, this Court reversed the trial court’s
decision, vacated the arbitration award, and remanded to the trial court for further proceedings
relating to these NCL claims. However, because this
Court affirmed the trial court’s decision concluding

9a
that it lacked subject matter jurisdiction over his
remaining NCL claims on the basis that resolution of
the same would require the trial court to interpret
religious doctrine, something it was prohibited from
doing under the First Amendment, any prior decisions
relating to the same are null and void. As a result, the
only valid, remaining determination in this case is the
binding arbitration award, as agreed to by the parties
in November 2005, and confirmed by the trial court.
As noted above, the trial court, by order dated July 10,
2006, confirmed the Arbitrator’s award and entered
judgment in favor of Patterson and against Shelton
in an order dated July 20, 2006. 4 Thus, Patterson's
remedy lies with enforcement of that judgment.
Patterson, 175 A.3d at 449-50.5
Shelton’s Most Recent Motion
On January 31, 2018, Shelton filed the present
motion with the trial court seeking to strike all prior
orders of the trial court as void for lack of subject
matter jurisdiction. In this motion, Shelton alleged
that “Pennsylvania courts do not have and never had
subject matter jurisdiction over this religious dispute”
4

A similar order was issued by the trial court on October 12,
2006, entering judgment in favor of Patterson. Additionally, the
final adjudication and decree of the Arbitrator was entered as an
order of the trial court on April 17, 2017. These orders, dated July
10 and 20, 2006, October 12, 2006, and April 17, 2017, collectively
represent the last valid judgments in this case.
5

Shelton subsequently filed a petition for allowance of appeal
from this Court’s 2017 decision with our Pennsylvania Supreme
Court, but the same was denied by order dated July 31, 2018.
Patterson v. Shelton, 190 A.3d 592 (Pa. 2018). Shelton filed a
petition for writ of certiorari with the United States Supreme
Court, but the same was recently denied by order dated February
19, 2019. Shelton v. Patterson, ––– U.S. ––––, 139 S.Ct. 1211, ––
– L.Ed.2d –––– (2019).

10a
and that “[t]herefore, [the trial court] must strike all
of its prior orders as void ab initio and decline to take
any further action in this matter.” (Reproduced Record
(R.R.) at 90.)6 Shelton also simultaneously filed a brief
in support of his motion.
Patterson filed a response asserting that Shelton’s
motion constituted an impermissible attack on this
Court’s prior orders dated November 29 and December
22, 2017. Patterson stated that said orders held that
the 2006 binding arbitration award was the only valid,
remaining determination in this case, referenced the
trial court’s confirmation of the award and entry of
judgment in his favor, and directed any attempts to
enforce this judgment to the trial court. Patterson
also contended that Shelton’s motion attempted to
resurrect legal arguments that had been previously
rejected by this Court and sought relief that wholly
contradicted our prior opinions and orders. In an
accompanying brief, Patterson noted that Shelton
understood the impact of this Court’s November 29,
2017 order, as evidenced by his filing of an application
for reargument providing that “[t]he apparent effect of
the panel’s decision is the retroactive validation of an
arbitration decision . . . .” (R.R. at 371.)
By order dated March 21, 2018, the trial court
denied Shelton’s motion. Shelton thereafter filed a
notice of appeal with this Court. The trial court
subsequently issued an opinion in support of its order.
The trial court noted that it had long ago denied a
petition from Shelton to vacate the arbitration award,
confirmed the award in favor of Patterson, and entered
judgment in his favor. The trial court also noted that
6

Shelton’s reproduced record does not contain the lowercase
“a” in the page number as required by Pa.R.A.P. 2173.

11a
this Court had recently declared the arbitration award
to be the last valid judgment in this matter. The trial
court explained that it was bound by this Court’s prior
decisions and had no authority to grant Shelton’s
motion.
Discussion
On appeal, Shelton reiterates his arguments that
the trial court was required to strike all of its prior
orders as void for lack of subject matter jurisdiction
and that no court can take any further action in this
matter. For the following reasons, we disagree.
In our prior decision and order dated November 29,
2017, this Court specifically held that:
[T]he only valid, remaining determination in
this case is the binding arbitration award, as
agreed to by the parties in November 2005,
and confirmed by the trial court. As noted
above, the trial court . . . confirmed the
Arbitrator’s award and entered judgment in
favor of Patterson and against Shelton in an
order dated July 20, 2006. Thus, Patterson’s
remedy lies with enforcement of that judgment.
Patterson, 175 A.3d at 450. In a subsequent clarification order dated December 22, 2017, this Court
identified the various dates on which the trial court
confirmed the Arbitrator’s award, entered judgment in
favor of Patterson, and, most importantly, directed
“[a]ny attempts to enforce these orders . . . to the trial
court.” (R.R. at 306.) In other words, this Court found
the trial court’s orders relating to the Arbitrator’s
award to be valid and enforceable against Shelton and
the trial court was bound by this Court’s prior orders.

12a
Moreover, as Patterson notes in his brief, Shelton’s
most recent attempt to relitigate the validity of the
trial court’s orders confirming the Arbitrator’s award
and entering judgment in Patterson’s favor is barred
by the doctrine of the “law of the case.” Our Supreme
Court has declared that the “law of the case” doctrine
prohibits an appellate court, upon a second appeal,
from altering “the resolution of a legal question previously decided by the appellate court in the matter.”
Commonwealth v. Starr, 541 Pa. 564, 664 A.2d 1326,
1331 (Pa. 1995); see also In re Pennsylvania Turnpike
Commission, 715 A.2d 1219, 1223 n.10 (Pa. Cmwlth.
1998) (“Issues decided by an appellate court on a prior
appeal between the same parties become the law of the
case and will not be considered on appeal.”) Further,
while Shelton is correct that our 2017 decision did not
expressly overrule this Court’s 2008 opinion (relating
to the arbitrator exceeding the scope of his authority),
the latter decision did in fact effectively overrule the
2008 opinion by holding that any prior decisions were
null and void and that the only valid, remaining
determination in this case was the binding arbitration
award.
Conclusion
Because Shelton’s current appeal challenges the
trial court’s prior orders in this case confirming the
arbitration award and entering judgment in favor of
Patterson, which we have previously ruled to be the
only valid, remaining determinations herein, thereby
precluding any further challenge under the “law
of the case” doctrine, the trial court did not err in
denying Shelton’s petition seeking once again to strike
these orders.
Accordingly, the order of the trial court is affirmed.

13a
ORDER
AND NOW, this 15th day of April, 2019, the order of
the Court of Common Pleas of Philadelphia County,
dated March 21, 2018, is hereby affirmed.

14a
APPENDIX B
IN THE COMMONWEALTH COURT OF
PENNSYLVANIA
—–———
No. 439 C.D. 2018
—–———
ANTHONEE PATTERSON
v.
KENNETH SHELTON,
Appellant.
—–———
ORDER
NOW, June 14, 2019, having considered appellant’s
application for reargument, the application is denied.
/s/ Mary Hannah Leavitt
MARY HANNAH LEAVITT
President Judge

15a
APPENDIX C
IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT
————
No. 362 EAL 2019
————
ANTHONEE PATTERSON,
Respondent,
v.
KENNETH SHELTON,
Petitioner.
————
Petition for Allowance of Appeal from the
Order of the Commonwealth Court
————
ORDER
PER CURIAM
AND NOW, this 26th day of November, 2019, the
Petition for Allowance of Appeal is DENIED.
A True Copy
As of 11/26/2019
Attest: /s/ John W. Person Jr.
John W. Person Jr., Esquire
Deputy Prothonotary
Supreme Court of Pennsylvania

16a
APPENDIX D
RULES AND BY-LAWS
of
THE GENERAL ASSEMBLY OF THE CHURCH OF
THE LORD JESUS CHRIST OF THE
APOSTOLIC FAITH
ARTICLE I
SECTION 1: Each annual session of this Body shall
be designated and called The General Assembly of The
Church of the Lord Jesus Christ of the Apostolic Faith.
Any session called by the General Overseer shall also
be designated as a general assembly, and shall have
all the rights and powers and authority of the annual
general assembly.
SECTION 2: The officers thereof shall consist of a
General Overseer and a General Secretary.
ARTICLE II
SECTION I: The Bishop and Apostle as President of
the Board of Trustees shall have the power to arrange
for the registration of this Corporation in all the states
of the United States in which there shall be a church
home, or shall arrange to incorporate anew in any of
the states or possessions of the United States, or any
foreign country.
SECTION 2: On and after the first day of
September, 1961, the General Overseer, His Holy
Apostolic Blessedness, Bishop S. McDowell Shelton is
given blanket authority to conduct all negotiations
and closings in the purchasing, selling, leasing, renting, or mortgaging of any property real or personal for
the General Assembly of The Church of the Lord Jesus
Christ of the Apostolic Faith. The title to any real
or personal property for the use and benefit of the

17a
General Assembly of the Church of the Lord Jesus
Christ of the Apostolic Faith shall be acquired and
held in the name of The Trustees of the General
Assembly of the Church of the Lord Jesus Christ, a
non-profit corporation incorporated under laws of the
Commonwealth of Pennsylvania.
The Trustees, by a majority vote, may vary the
method of acquiring property provided they first acknowledge that the property belongs to and is held for the
use and benefit of the General Assembly of The Church
of the Lord Jesus Christ of the Apostolic Faith.
No member of a local assembly of this Church
shall have any right, title or interest in any property
of the General Assembly or of the local assembly of
the Church. If a member withdraws from this Church,
they shall have no claim to the real or personal property of the General Assembly or of the local assembly
of the Church.
ARTICLE III
All motions of importance and resolutions must be
submitted in writing to the General Overseer or any.
Committee named and designated by him. The power
of submitting or not submitting a motion or resolution
to the General Assembly shall be left entirely to the
discretion of the General Overseer.
ARTICLE IV
The quorum for the transaction of business before
the General Assembly shall be fifty members voting
before matters. of the General Assembly. The presiding officers shall call for the yeas and nays, which shall
be recorded by the general secretary. A majority of
those present and voting shall determine such matters
of the General Assembly, except in the case of the

18a
election of officers, which is otherwise provided for
here in these By-Laws.
ARTICLE V
SECTION I: Elders and ministers desiring to hold
credentials with this Body must have the one baptism,
as prescribed in Acts 2:4, 2:38; 10:44-48; and 19:1-5,
and believe, teach and preach the same, and shall have
prescribed to such baptism for at least one year.
SECTION 2: He must be able to read and write.
SECTION 3: He must be able to conduct a religious
service when necessary.
SECTION 4: He must be able to officiate at a
Marriage Ceremony, Baptismal Service and the Lord’s
Supper.
SECTION 5: Any person desiring to be a licensed
worker in this Body, may obtain such license by
complying with the following requirements:
(a) Must have the one baptism as above set forth
(b) Believe the same
(c) Must have had some fruits of the Spirit in
their lives.
(d) Must have letter of recommendation from his
(or her) home assembly, wherein he (or she)
has been working showing fitness and ability
(e) Shall present such letter, with application to
the General Secretary, who shall thereupon
issue licenses to such worker; General Secretary
is to submit such letter to General Overseer.
SECTION 6: A written recommendation is required
from the State Elder over the state in which a minister

19a
lives when applying for his first papers with this Body.
Such a letter should be sent with the application.
SECTION 7: Any minister holding credentials with
this Body, who may be charged with sin by two or
three witnesses shall be tried by a Committee made up
of the General Overseer or his nominee, State Elder or
another man of good report among the saints designated by the General Oversee-.
SECTION 8: No minister or missionary shall be
allowed to hold credentials with this Body who teaches
against any of the doctrine of The Church of the Lord
Jesus Christ of the Apostolic Faith.
SECTION 9: After any member or officer has been
duly accused of an offense punishable by The Church,
his status in The Church shall be determined solely by
the General Overseer, until trial. Nevertheless, this
provision shall not be interpreted to, in any wise,
deprived. The General Overseer has the right to remove
any elder, minister, officer or member of The Church
from office or membership without accusation or trial
if he may deem it necessary for the good of the Church
of the Lord Jesus Christ of the Apostolic Faith.
ARTICLE VI
Ordination may be had and given by the consent of
the General Overseer or with the assistances of whoever
he may appoint.
ARTICLE VII
The General Overseer, His Holy Apostolic Blessedness,
Bishop S. McDowell Shelton shall continue to hold the
office of General Overseer, Trustee and President of
the Board of Trustees during his life time. The General
Secretary shall be elected for the term of one year.
The General Secretary is eligible to serve as many

20a
sucessive terms as he may be elected to by the General
Assembly. He shall hold office until his successor is
elcted and qualified. The General Secretary shall be
approved and nominated by the General Overseer and
will be elected upon receiving a majority vote of those
voting on the specific questions of his election at the
General Assembly.
ARTICLE VIII
The person offering a resolution or motion may open
and close the discussion thereon and such person
may take not more than fifteen minutes of time on any
motion, resolutions, or questions unless special permission for such purpose is given.
ARTICLE IX
The headquarters of The Church of the Lord Jesus
Christ of the Apostolic Faith is located on Apostolic
Square in Philadelphia, Pennsylvania. However, the
session of the Body may be held in any other city of the
United States or foreign country, should the General
Assembly or General Overseer or General Overseer
only so desires.
ARTICLE X
The General Overseer shall have full authority to
determine any question concerning parliamentary procedures and there shall be no appeal from the decision
of the General Overseer. The General Overseer in his
discretion may adopt the rules of procedure set forth
in Robert’s Rules of Order. The General Overseer shall
be the full arbitrator on all matters affecting the
interpretation doctrine appliciable to The Church of
the Lord Jesus Christ.

21a
ARTICLE XI
These rules, by-laws and regulations may be amended
at any session of the General Assembly, provided that
such proposed amendment is submitted in writing
on the day prior to action thereon to the General
Secretary. Any proposed amendment shall be first
submitted to the General Overseer’ who’s approval of
the proposed amendment shall be a condition presented
to the submission of the amendment to the General
Assembly. A majority vote of those voting on the specific proposed amendment shall be necessary before
this approval. This paragraph does not apply to any
change of By-Laws or regulations submitted by the
General Overseer, who may, at any time, present any
motions or resolutions.
ARTICLE XII
The elders and licensees shall be subject to the state
elders and in cases of insubordination and grievance
discord, shall be tried by a Committee. When an appeal
is taken from the decision of the state elder, or when
trial by Committee is proper, said Committee shall be
composed of the General Overseer or his nominee, the
state elder and another man of good report among the
saints chosen by the General Overseer may at any
time assume original jurisdiction, in any such matter
and the decision of the General Overseer shall be final
and binding on all persons. The General Overseer
shall have full power to suspend or expell any person
so tried from the General Assembly of The Church of
the Lord Jesus Christ from the local assembly thereof.
ARTICLE XIII
In case of majority complaint against an elder or
officer, or member, the General Overseer shall appoint
an investigating committee to investigate the complaint.

22a
The said Committee will report any violations of the
doctrine, rules, regulations or moral laws and the
General Overseer shall thereupon take such action as
he may deem warranted. A final appeal may be taken
to the General Overseer and the General Overseer
may at anytime assume original jurisdiction, in any
such matter and the decision of the General Overseer
shall be binding on all persons.. The General Overseer
shall have full power to suspend or expell any person
so tried from the General Assembly of the Church or
from any local assembly thereof.
ARTICLE XIV
The affairs of the General Assembly shall be managed by a Board of Trustees. The General Overseer, by
virtue of his office, shall always be a Trustee and the
President of the Board of Trustees. The other trustees
shall be elected by the General Assembly annually
and shall serve for a term of one year or until their
successors are qualified and elected. Every trustee is
eligible for re-election for as many terms as the
General Assembly may elect him. The General Assembly
may elect only to the office of trustee, a person first
approved and nominated by the General Overseer.
ARTICLE XV
Any conflict existing in the rules, regulations and
by-laws of the General Assembly of The Church of the
Lord Jesus Christ of the Apostolic Faith, or any
matters not covered by the rules and regulations shall
be determined by the General Overseer and his ruling
thereon shall be final.
ARTICLE XVI
SECTION 1: The General Secretary shall succeed
temporarily to the office of the General Overseer, upon

23a
the death of the General Overseer or by the appointment by the General Overseer and shall hold office
only until the next General Assembly elects him or a
successor. A statement of the Divine Apostolic Authority
of the General Overseer is to appoint his successor
with vote of the General Assembly.
SECTION 2: However, an ordained elder shall be
eligible regardless of the time of his ordination or the
length of his service as elder.
ARTICLE IXVII
All officers local, state, national or international of
The Church of the Lord Jesus Christ are appointed by
the General Overseer and are holding office at his will
and pleasure and can therefore can be removed by
him.
ARTICLE IXVIII
All money raised or collected by any individual member, local church, agency or auxiliary of The Church of
the Lord Jesus Christ must be sent within one week of
its receipt to the President of the Board of Trustees to
Headquarters on Apostolic Square, Philadelphia, PA;
19146, as funds of the general assembly of The Church
of the Lord Jesus Christ of the Apostolic Faith. The
tithes and offering of whatever kind, nature or collection by any elder, local minister, any other officer or
member, is the property of the General Elder. Although
all tithes and love offerings are the personal property
of the General Overseer, the present General Overseer
does not, at this time assert his discretion to have these
tithes, and love offerings set aside as his personal
property.

24a
ARTICLE XX XIX
All churches established or affiliated with the General
Assembly of The Church of the Lord Jesus Christ is
under the control of the General Elder and is subject
to the Doctrine expressed and initiated by him. The
General Overseer, by his reason of office, has blanket
authority in directing the mood of religious worship,
all affiliations of The Church of the Lord Jesus Christ
of The Apostolic Faith, as well as broadcasting and any
phase of publication.
ARTICLE XXI XX
Qualifications and membership shall be judged by
the following:
(a) Tithe paying
(b) Life being consistent with the doctrine of
The Church of the Lord Jesus Christ of the
Apostolic standard
(c) Regular attendance except when this is for
the reason of long sickness or physical impossibilities; at such time the member is required
to remain in contact with the General Overseer
at regular intervals to explain reason of absence;
as well as to one in charge of local assembly.

25a
BY-LAWS
BE IT RESOLVED THAT:
1. All doctrinal controversies shall come before the
General Overseer for consideration and final settlement.
2. All payments of tithes by elders, licensees, ministers and members as commanded in Malachi 3:9 is
basic to our doctrinal salvation and necessary for the
growth and advancement of The Church.
3. All churches and auxiliary functions of this body
are to report every convention. This includes all ministers, elders, licensees, missionary and any other officer.
4. The WHOLE TRUTH magazine which was established in May, 1948 shall be the official church organ
and it has been decided that His Holy Apostolic
Blessedness be Editor-in-Chief.
5. All churches in this body must report to their
state or district overseer on their activities and he, in
turn, must send his report along with the church
report once a month to the General Overseer accompanied by the finance raised.

26a
APPENDIX E
THE TRUSTEES OF THE GENERAL ASSEMBLY
OF THE CHURCH OF THE LORD JESUS CHRIST
OF THE APOSTOLIC FAITH, INC.
Court of Common Pleas
March Term, 1947
No. 2175
ARTICLES OF INCORPORATION
To the Honorable, the judges of the said court:
WHEREAS it is the desire of the undersigned
to have incorporated an organization known as THE
TRUSTEES OF THE GENERAL ASSEMBLY OF
THE CHURCH OF THE LORD JESUS CHRIST OF
THE APOSTOLIC FAITH, in accordance with the act
of Assembly of May 5, 1933, P.L. 289, as amended, and
known as the Non-profit Corporation Law.
NOW, THEREFORE, We, the subscribers and incorporators, being of full age, residents of the Commonwealth
of Pennsylvania and citizens of the United States, do
declare the following to be the purpose and conditions
of the proposed corporation, for and upon which they
desire to be incorporated.
I. The name of the proposed corporation shall be the
Trustees of THE GENERAL ASSEMBLY OF THE
CHURCH OF THE LORD JESUS CHRIST OF THE
APOSTOLIC FAITH, INC.
II. The location and post office address of it’s initial
registered office in this commonwealth shall be 22nd
and Montgomery Avenue, Philadelphia 21, Pennsylvania.
III. The purpose for which is to be formed are:
To take, receive, have, hold and manage real and
personal property in trust for the uses and purposes

27a
specified by the General Assembly of the Church of the
Lord Jesus Christ of the Apostolic Faith or by the will
of deed of the donors, with power to convey the same
free and discharged of all trusts. The said purposes do
not contemplate Pecuniary gain or profit, incidental or
otherwise, to it’s members.
IV. The corporations shall exist perpetually.
V. The name, place of residence and post office
address of each of the incorporators are as follows:
Bishop Sherrod C. Johnson
1748 N. Twenty Second St. Phila.
Carey S. Bolling
3939 Aspen Street, Philadelphia,
Matthew Roundtree
2121 Berks Street, Philadelphia,
Andrew Henry
2424 W. Turner Street, Phila.
James McDowell
1802 N. 26th Street, Phila.
VI. Legal title to all property and the temporal
interest of the corporation shall be vested in and managed by six trustees constituting a board of trustees,
subject to the right of the corporation from time to
time, to increase or decrease their number, as permitted by law, in such manner as may be provided by the
by-laws.
2. Trustees shall be elected by the ballot by members of the General Assembly of the Church of the Lord
Jesus Christ of the Apostolic Faith at annual, regular
or special meetings held for that purpose at the times,
for the terms, in the manner and qualifications provided

28a
by the by-laws and shall hold office until their successors are elected.
3. The following shall hold office as Trustees until
their successors are elected:
Bishop Sherrod G. Johnson
Matthew Roundtree
Andrew Henry

Carey S. Bolling
Wallace E. Young
James McDowell

VII. The Corporation shall be organized upon a nonstock basis.
VIII. The Corporation shall begin business with
assets in the amount of approximately Sixty-five thousand ($65,000.00) Dollars which the corporation will
have to start it’s corporate function.
IX. Membership in the corporation shall consist of
those persons serving as members of the Board of
Trustees, Members shall be subject to such rules and
regulations as may be provided in the by-laws.
X. By-laws shall be adopted and from time to time
may be amended by a majority of members of the
Board of Trustees present at any annual, regular or
special meeting of the board of Trustees duly convened
after notice to the members of such purpose.
XI. Any amendment or amendments to these Articles
of Incorporation should be proposed at any annual,
regular, or special meeting called for the purpose,
which shall shall specify the proposed amendment or
amendments and written notices thereof shall be
mailed to each member at his known address at least
Ten (10) days before such meeting, and if the proposed
amendment or amendments be agreed upon by a
majority of the members, such proposed amendment
or amendments shall be considered approved.

29a
APPENDIX F
TELEPHONE (215) 735-8982
FAX (215) 735-4287
Church of the Lord Jesus Christ of the Apostolic Faith
BISHOP KENNETH N. SHELTON (BISHOP OMEGA) PASTOR AND GENERAL OVERSEER
HEADQUARTERS: 701 SOUTH 22ND STREET
(22ND & BAINBRIDGE STREETS)
POST OFFICE BOX 3880 PHILADELPHIA, PA 19146-0180, U.S.A.
COUNCIL OF PRIESTS
PROCLAMATION
We the members of the Council of Priests, an ecclesiastical body within the Church of the Lord Jesus Christ
of the Apostolic Faith and a Religious Judicatory empowered to determine. matters of ecclesial nature take
exception to the findings of an Arbitrator in regard to
the Patterson vs. Shelton Arbitration and find his
adjudication unreasonable, inequitable and an impermissible intrusion into the doctrinal realm of Church
governance. Further, the stated intention to place nonmembers in positions of authority within the Church
organization is not acceptable and contrary to our
doctrine, by-laws, customs and practices.
We therefore Proclaim that we will not accept
Anthonee Patterson or any of those who aid, abet
or associate with him as members or officers of this
Church, as they have demonstrated that they hold
religious and doctrinal views contrary to our own.
8-31-06

30a
APPENDIX G
COURT OF COMMON PLEAS
CIVIL DIVISION
————
No. 2945
Term: July 1995
————
ANTHONEE’ PATTERSON,
Plaintiff(s),
vs.
KENNETH SHELTON and ERIK SHELTON
————
JOHN W. MORRIS, Esquire
Attorney I.D. No. 04125
One Penn Square West
Suite 1300
Philadelphia, Pa 19102
(215) 569-5154
LEK DOMNI, Esquire
Attorney I.D. No.
1429 Walnut Street
Suite 1001
Philadelphia, Pa 19102
(215) 665-9967
NOTICE
You have been sued in court. If you wish to defend
against the claims set forth in the following pages. you
must take action within twenty (20) days after this
complaint and notice are served, by entering a written
appearance personally or by attorney and filing in

31a
writing with the court your defenses or objections to
the claims set forth against you. You are warned that
if you fail to do so the case may proceed without you
and a judgment may be entered against you by the
court without further notice for any money claimed in
the complaint or for any other claim or relief requested
by the plaintiff. You may lose money or property or
other rights important to you.
YOU SHOULD TAKE THIS PAPER TO YOUR LAWYER AT ONCE. IF YOU DO NOT HAVE A LAWYER
OR CANNOT AFFORD ONE, GO TO OR TELEPHONE THE OFFICE SET FORTH BELOW TO
FIND OUT WHERE YOU CAN GET LEGAL HELP.
Lawyer Reference Service
One Reading Center
Philadelphia, Pennsylvania 19107
Telephone: 238-1701
————
JOHN W. MORRIS, Esquire
Attorney I.D. No. 04125
One Penn Square West
Suite 1300
Philadelphia, PA 19102
(215) 569-5154
LEK DOMNI, Esquire
Attorney I.D. No. 45751
1429 Walnut Street
Suite 1001 Philadelphia, PA 19102
(215) 665-9967
Attorneys for Plaintiff Anthonee’ Patterson
THIS IS NOT AN ABITRATION CASE AN ASSESSMENT OF DAMAGES HEARING IS NOT REQUIRED

32a
COURT OF COMMON PLEAS
PHILADELPHIA COUNTY
————
No. 2945
July 1995 Term,
————
ANTHONEE’ PATTERSON
1544 W. 25th Street Jacksonville, FL 32209
v.
KENNETH SHELTON,
701 S. 22nd Street
Philadelphia, PA 19146
and
ERIK SHELTON
701 S. 22nd Street
Philadelphia, PA 19146
————
COMPLAINT
CODE 26070 MISCELLANEOUS: ACCOUNTING
(NON PROFIT CORPORATION)
1. Plaintiff, Anthonee’ Patterson, resides at 1544 W.
25th Street, Jacksonville, Florida.
2. Plaintiff Patterson is a life-long member of the
Church of the Lord Jesus Christ of the Apostolic Faith.
He is an Elder, Minister and Bishop of the Church and
the active leader of congregations in Florida and
Pennsylvania and throughout the United States and
foreign countries.
3. Defendants Kenneth Shelton and Erik Shelton
are also members of the Church and, since on or about

33a
October 17, 1991, have exercised de facto control over
the Church, its related nonprofit Corporation, its property and accounts.
4. The Church of the Lord Jesus Christ of the
Apostolic Faith is a religious society whose governance
and property are controlled and held by a domestic
nonprofit corporation entitled The Trustees of the
General Assembly of the Church of the Lord Jesus
Christ of the Apostolic Faith, Inc.
5. On or about December 10, 1947, The Trustees of
the General Assembly of The Church of the Lord Jesus
Christ of the Apostolic Faith, Inc. was duly incorporated according to the laws governing Pennsylvania
corporations in the Commonwealth of Pennsylvania.
Its present corporate offices are located at 6 North 9th
Street, Suite 200, Darby, Pennsylvania.
6. The chief officer of the corporation is known as
the President and General Overseer, whose election
according to the bylaws of the corporation, is confirmed by a vote of The General Assembly.
7. On or about October 13, 1991, the President and
General Overseer of the Corporation, Bishop S.
McDowell Shelton, died. Immediately thereafter
Kenneth and Erik Shelton took physical control of various accounts, trusts and property of the Corporation.
8. On May 28, 1994, after due notice and upon
a quorum of The General Assembly, Anthonee’ J.
Patterson was duly confirmed as General Overseer
and President of the Corporation.
9. Despite the election of Anthonee’ J. Patterson as
General Overseer and President of the Corporation,
defendants Kenneth and Erik Shelton have refused
to relinquish control of the various accounts, trusts

34a
and properties of the Corporation. On the contrary,
Kenneth Shelton has assumed for himself the office of
General Overseer and President.
10. Although defendants Kenneth and Erik Shelton
have taken de facto control of the Corporation and its
property and have thereafter attempted to install
various corporate officers, they have operated the
Corporation in total disregard of the interests of the
members and requirements of law. Specifically, the
defendants have failed for the past five years to
present an annual report of financial affairs and activities as required by 15 Pa.C.S.A. §5553. Similarly, the
defendants have failed to file tax returns as required
by federal and state law. Nor have the defendants
accounted to the Treasurer or General Assembly for
the monies which they have controlled.
11. Throughout the period of de facto corporate
control, defendants Kenneth and Erik Shelton have
routinely and flagrantly violated the Bylaws of the
Corporation as well as the Articles of Incorporation.
These violations include, but are not limited to, the
following:
a) By calling an unauthorized meeting without
due notice of The General Assembly on December
29, 1991 for the purpose of assuming illegal control
of the Church corporation and all of its assets for
their own personal wealth; (violates I, Sec. I.)
b) By failing to call regular and scheduled meetings of The General Assembly;
c) By passing improper resolutions at the
December 29, 1991 meeting of The General Assembly and thereafter without submitting those resolutions in writing to the rightful President and

35a
General Overseer of the corporation for approval as
required; (violates Art. III.)
d) By unilaterally ordaining Church officials
without the consent of the President and General
Overseer of the Church corporation;
e) By improperly appointing their allies as
Trustees and as other officials without regard to
the legal procedures for nominating such officers
and without submitting such nominations to The
General Assembly for confirmation;
f) By intentionally disregarding the President
and General Overseer’s sole authority to determine
parliamentary procedure at corporate Trustee
meetings;
g) By creating and filling unauthorized offices
and positions of power of the corporation;
h) By ousting and ignoring proper Trustee members all contrary to due process and the Bylaws.
12. Throughout the period of corporate control,
defendants Kenneth and Erik Shelton have systematically looted the corporation’s accounts and trusts as
well as the regular Church collections. Although the
defendants have resisted discovery concerning these
financial transactions and have made no regular
reports, certain misappropriations have been discovered.
a) In February and March of 1992, Kenneth
Shelton personally drove to numerous churches
throughout the eastern United States, took physical possession of cash offerings, deposited said
offerings into the trunk of his car and converted
them to his own use. On the following occasions, he

36a
converted money offerings designated for the
Church and failed to account therefore:
1) Tuesday, February 4, 1992, in Woodford,
Virginia;
2) Thursday, February 6, 1992, in Richmond,
Virginia;
3) Sunday, February 9, 1992, in Elizabeth
City, North Carolina;
4) Friday, February 11, 1992, in Suffolk,
Virginia;
5) Thursday, February 13, 1992, in Newport
News, Virginia;
6) Sunday, February 16, 1992, in Norfolk,
Virginia;
7) Friday, February 21, 1992, in Baltimore,
Maryland;
8) Sunday, February 23, 1992, in Philadelphia,
Pennsylvania;
9) Sunday, March 1, 1992, in Baltimore,
Maryland;
10) Sunday, March 8, 1992, in Newark, New
Jersey;
11) Sunday, March 15, 1992, in Ellendale,
Delaware.
b) The defendants have depleted The Gresham
Trust, a fund held for the benefit of Church members in need of social services. On February 28,
1994, the trust account totaled $111,537.78. Thereafter, the defendants have made the following
unexplained and unauthorized withdrawals:

37a
1) March 24, 1994 - cash withdrawal of
$25,000.00;
2) March 29, 1994 - withdrawal of $8,900.00;
3) April 12, 1994 - withdrawal of $7,685.00;
4) April 15, 1994 - withdrawal of $3,952.78;
5) April 20, 1994 - cash withdrawal of
$45,000.00;
6) May, 1994 - cash withdrawal of
$20,000.00.
As a result of these unauthorized withdrawals, the
Trust has now been depleted without any
accounting therefor.
c) The Church maintained a bank account at
Fidelity Bank, account no. 1656222, which showed
an average monthly balance between $132,000.00
and $160,000.00 from 1991 to Second Quarter
1992. This account was designated as the Church’s
“Trustees’ General Account” which purpose was to
pay bills incurred by the Church. Defendants,
however, made the following withdrawals from this
Church account contrary to the purpose for which
these monies were intended:
1) July 8, 1992 - withdrawal of $40,000.00;
2) January 15, 1993 - withdrawal of
$7,000.00;
3) January 20, 1993 - withdrawal of
$29,700.00;
4) January 22, 1993 - withdrawal of
$3,500.00;
5) February 3, 1993 - withdrawal of
$1,500.00;

38a
6) February 11, 1993 - withdrawal of
$5,200.00;
7) February 16, 1993 - withdrawal of
$4,800.00;
8) February 24, 1993 - withdrawal of
$19,833.60.
d) In January 1991, the Church maintained a
“Bus Rally Money Account” at Fidelity Bank,
account no. 02984052, which at that time had a
balance of $10,585.05. The monies in this account
were designated for the purpose of purchasing a
Church bus. On February 22, 1993, this account
was closed with a zero balance and no Church bus
was purchased with this money.
e) The Church maintained two accounts at
Midlantic Bank (formerly Continental Bank),
account nos. 0192879583 and 0007964711. On or
about December 31, 1992, account no. 0192879583
had a balance of $1,608.75. On or about October 25,
1993, account no. 0007964711 had a balance of
$7,574.18. The monies in these accounts were
derived from donations by Church members and
designated for the purpose of financially assisting
the Church’s international missions. Defendants
have failed to use these funds for their intended
purpose.
f) The defendants have depleted approximately
$64,000.00 from an account at Commonwealth
Federal Savings & Loan which funds were
dedicated for youth studies. No accounting for
these funds has ever been made.
13. As a result of the foregoing acts of the
defendants, the corporation has become the personal

39a
instrument of the defendants, its assets have been
depleted, it has been disabled in its religious and charitable missions, and its members have become disenfranchised.
14. Only through full discovery and an accounting
will it be possible to determine the full extent of these
misappropriations.
WHEREFORE, plaintiff requests relief, including
relief pursuant to 42 Pa.C.S.A. §5793(b), including:
a) the appointment of a receiver to take control
of the property, accounts and records of the corporation;
b) an order requiring the defendants, or alternatively the receiver, to issue annual financial
reports for the years 1991, 1992, 1993 and 1994;
c) an accounting of all funds removed from corporate or Church accounts or trusts by Kenneth
Shelton, Erik Shelton and any persons acting in
combination with them;
d) an order confirming Anthonee’ Patterson as
General Overseer;
e) following the foregoing relief and dissemination of reports to The General Assembly, an order
commanding that elections be held for such offices
as the Court finds to be vacant;
f) such other relief as may be deemed appropriate following full discovery of the facts. This matter
exceeds $50,000.00.
JOHN W. MORRIS, Esquire
LEK DOMNI, Esquire
Date: July 17, 1995

40a
By: /s/ John W. Morris
John W. Morris, Esquire
Attorney I.D. No. 04125
One Penn Square West
Suite 1300
Philadelphia, PA 19102
(215) 569-5154
————
VERIFICATION
I, Anthonee’ Patterson, verify that the statements
made in the foregoing Complaint are true and correct
to the best of my knowledge, information, and belief. I
make these statements subject to the provisions of 18
Pa.C.S.A. § 4904, relating to unsworn falsifications to
authorities.
/s/ Anthonee’ Patterson
Anthonee’ Patterson

41a
APPENDIX H
IN THE COURT OF COMMON PLEAS
OF PHILADELPHIA COUNTY
CIVIL TRIAL DIVISION
[Docketed Complex Lit Center]
[Jan. 9, 2006, J. Stewart]
————
No. 2945
July Term, 1995
————
ANTHONEE PATTERSON
vs.
KENNETH SHELTON and ERIK SHELTON
————
ORDER
AND NOW this 10th day of January, 2006, this
Order is a memoralization of the agreement of the parties contained in the court record on Wednesday,
November 30, 2005 and Friday, December 2, 2005.
Parties agree that Erik Shelton is dismissed as a party
in the arbitration of this matter. Accordingly, this
matter will be presented as Anthonee Patterson vs.
Kenneth Shelton.
All evidentiary rulings will be made by the arbitrator as well as all issuing of subpoenas of persons
and documents. By agreement of the parties, the parties will request Judge Nathons at ADR Options as the
arbitrator in this matter. If for some reason Judge
Nathons declines and the parties cannot agree to an
arbitrator within ten (10) days thereafter, this court

42a
will appoint an arbitrator. The parties have agreed
that the following six (6) individuals will each participate in the arbitration, three (3) each representing the
parties. The six (6) individuals are:
1) Elder Samuel Green, Sr.
2) Elder George Washington
3) Brother George Newsome
4) A. Woodward Reagan
5) Minister Otis Hunter
6) Minister James Brown
Both parties are going to share the costs and fees of
the arbitrator and all costs and fees must be paid in a
timely manner. This arbitration will be binding on
both parties with no right to appeal. The request to
have Judge Nathons serve shall be made by both
parties within ten (10) days of the date of this Order.
Further by agreement of the parties, both parties
are waiving procedural argument such as standing.
Accordingly this case is dismissed from the Court of
Common Pleas by agreement of both parties.
BY THE COURT:
/s/ James Murray Lynn, J.
JAMES MURRAY LYNN, J.

43a
APPENDIX I
ADR OPTIONS
Settling Cases Since 1993
Two Commerce Square, Suite 1100
2001 Market Street
Philadelphia, PA 19103-7044
(215) 564-1775 Main
(800) 364-6098 Toll Free
(215) 564-1822 Fax
adroptions.com
————
ADJUDICATION
————
No. 2945
————
ANTHONEE PATTERSON,
Plaintiff
v.
KENNETH SHELTON,
Defendant
————
July Term, 1995
————
ARBITRATION
The Arbitrator having been duly appointed on
December 2, 2005 by the Honorable James Murray
Lynn of the Court of Common Pleas following the
dismissal of the above action, sets forth his adjudication of the matter.

44a
Because Plaintiff seeks in his July 24, 1995, Complaint for an accounting of all funds removed from the
corporate or church accounts by Kenneth Shelton and
persons acting in combination with him and the
appointment of a receiver to take control of the property, accounts and records of the corporation, the Arbitrator’s jurisdiction is that of a Chancellor in Equity.
The powers of a chancellor are very broad and it is
his duty to grant such relief if warranted, and any
relief afforded by decree must conform to the case as
made by the pleadings and consistent with the relief
prayed for and proofs. Christian v. Johnstown Police
Pension Fund, 421 Pa 240 218 A.2d 746 (1966).
The counterclaim filed by Defendant as pars of his
answer to the Complaint seeks $500,000 in damages
as well as an undisclosed sum of punitive damages for
alleged criminal acts by Plaintiff in his converting
lawful property of the Church Corporation for his own
use.
A. LIABILITY FINDINGS:
1. The application for Charter of the Trustees
of the General Assembly of the Church of the
Lord Jesus Christ of the Apostolic Faith was
set forth in the Articles of Incorporation in
accordance with the Act of Assembly of May
5, 1933, P. L. 289, as amended, and known
as the Non-Profit Corporation Law.
2. The incorporators and subscribers attended
a hearing before the Court appointed Master
on May 2, 1947. The two most significant
points established were: (1) that the real and
personal property was to be held in trust for
the uses and purposes specified by the General Assembly of the Church by the will or

45a
deed of the donors with power to convey
same free and discharged of all trusts, as
well as the “purposes do not contemplate pecuniary gain or profit, incidental or otherwise
to its members.” (2) The application further
stated that none of the officers were going to
receive a salary and serve without pay - only
tithes. When asked by Mr. Griffiths whether
any pecuniary gain or profit incidental or
otherwise would come to any of the members
of the corporation, Bishop Johnson stated
that no profit would come to any individual.
(N.T. P. 6).
3. Bridget Black, who handled the payroll for
the entire church for three years since 1992,
prepared checks for signature and indicated
without any opposing evidence that Kenneth
Shelton was the Bishop and President of
the Trustees and was paid a salary as both
President and Bishop. (N.T. 46) Whereas
Bishop Shelton testified that he was paid
$250,000 per year for minister income only.
The receiving of this salary did not comport
with the Articles of Incorporation as set
forth by Bishop Johnson. When Bishop
Shelton became a Trustee he had no
knowledge of any salary being voted upon in
any trustee meeting. Being a trustee since
1976 he never recalled anyone voting on a
salary and had no knowledge of how his
father supported him.
4. The Court of Common Pleas in an opinion by
the Honorable John Milton Younge dated
June 12, 2000, found that Kenneth Shelton
was elected General Overseer and President

46a
of the Trustees of the General Assembly.
Prior to the September 1992 General Assembly, Kenneth Shelton and Erik Shelton
elected themselves as Trustees at an invalid
assembly and trustees meeting on December
28, 1991 and December 29, 1991 and again
elected themselves as trustees at an invalid
assembly and trustees meeting on May 23,
1992 and May 24, 1992 respectively.
5. Between October 13, 1991, and September
1992, Defendant Kenneth Shelton held de
facto control over the corporation and its
property.
6. Throughout the period of de facto control,
Defendant violated the bylaws of the corporation as well as the Articles of Incorporation by accumulating pecuniary gain and
profit by systematically reducing the corporation’s accounts and trusts as well as the
regular church collections, without making
any regular reports regarding the misappropriation of the funds.
7. Defendant and his General Administrator,
Elder Thomas, have depleted the Gresham.
Trust, a fund held for the benefit of church
members in need of social services. On
February 28, 1994, the trust account totaled
$111,537.38. Thereafter the Defendant, and
his administration made unexplained and
unauthorized withdrawals:

March 24, 1994.
March 29, .1994
April 12, 1994
April IS, 1994
April 20, 1994
May 1994

47a
Cash Withdrawal
Withdrawal
Withdrawal
Withdrawal
Cash Withdrawal
Cash Withdrawal

$25,000.00
$ 8,900.00
$ 7,685.00
$ 3,952.78
$45,000.00
$20,000.00

As a result of these unauthorized withdrawals the trust has been depleted without any
accounting therefor.
8. Pennsylvania law sanctions courts in equity
to order an accounting of officers of church
corporations as to church assets where diversion of church assets from uses to which
property was initially dedicated Archbishop
Most Reverend Metropolitan Ambrose
Sensyshn v, Karlak, 462 Pa 348, 341 A.2d
114 (1975); St. John Chrysostom Greek
Catholic Church of Pittsburgh v. Elko, 436
Pa. 243, 259 A.2d 419 (1969) cert. Denied
399 U.S. 920 (1970); Schnorr’s appeal, 67 Pa.
138 (1870)
The Arbitrator finds that no evidence has
been offered at any hearing that Anthony
Patterson stole any of the Gresham Funds,
nor that counsel took any funds. All the
withdrawals were signed by Bishop Shelton
and John Thomas. Moreover, Bishop Shelton
could not recall whether or not the board of
Trustees enacted a resolution for the withdrawals. No records are available as to what
he and Thomas did with the funds. Bishop
Shelton acknowledged that one of his duties
is to “protect the interest of the church,” that
he only places people in position, but as

48a
President of the Board “he did nothing”
pertaining to records, and used his judgment
but relied on others as President of the
Board.
The same explanations were given regarding
the Beneficiary Fund with Bishop Shelton
having no recollection of writing letters to all
the churches- to send all of their money
except $100 to Philadelphia. No accounting
was recalled, but he trusted others to be
accurate. He never received a quarterly or
annual report of finances.
Regarding the National Account, Bishop
Shelton was unaware that the purpose of the
account was to “pay bills,” and was not
aware that it was the primary duty of the
trustees.
9. Between the years 1991 to 1998 no accounting has ever been given to the General
Assembly. At the meeting of the Board of
Trustees on September 1, 1992. no mention
of any accounting is noted as well as on
September 1, 1994, no accounting was provided to the General Assembly. The last public accounting shown in the exhibit was to
the General Assembly Convention in 1973.
10. Unexplained checks have been given to various
persons connected to the Church:
1. Ernest Miller ~ June and July 1993 - $1,800
signed by Defendant
2. Robin Duckett $4,500 ~ June 1993.
3. John C. Thomas (General Administrator)
$5,000 - June 7, 1993 for PAR (Private Apostolic

49a
Residence) who does not reside on church
property.
4. Check to Mrs. Shelton ~ $1,000.
5. Robin Duckett Carachi $4,000 trip (not church
related).
6. Porsche automobile, Judah Jamison ~ $8,800
payable to Nathaniel Bailey.
7. Arthur Shelton ~ $3,000 -rent (1995).
8. Ernest Miller ~ rent ~ $1,832.
9. Patricia Russell ~ $4,000 ~ (personal use).
10. Judah Jamison ~ 1994 Volvo ~ $8,942.
11. October 20, 1995 payable to cash ~ endorsed by
Judah Jamison $1,500 and $3,000 with no
accounting to church members.
12. June 11. 1996 ~ Judah Jamison ~ $2,000 for
turkey.

13. Four checks to Judah Jamison between 1996 ~
1998.

14. PAR checks (3) to Stephen Campbell for “myriad of things” ($4,900).
15. PAR checks to Judah Jamison ~ $4,500 ~ June
1994 and July 1994.
16. Judah Jamison ~ $2,500 ~ Florida trip expense.
17. Rent for Bishop Shelton’s Conshohocken Apartment - September 1, 1995 ~ check payable to
cash out of church account in the sum of $2,280
notwithstanding his salary of $250,000.
18. John W. Young ~ $1,500 and $1,750 for PAR.
19. March 1, 1996 ~ Judah Jamison ~ $2,000 PAR.

50a
20. October 29, 1994 – cash $3,300 to Judah
Jamison.
The use of the code PAR on checks has not been
fully explained by any of the witnesses for the
defendant and the inference taken is that it was
used as a “catchall for all unauthorized expenses.”
11. John Thomas, Chief Administrator, oversees the
church organization business operation including
all financial transactions. The supervisor of employees handling checks and cash in 1994, Dale
Courtney Brown, embezzled $250,000. Elder
Thomas made no investigation until informed by
the bank. Elder Thomas stated that no trustee was
designated to watch finances and bank accounts
but he did at times, and was solely responsible for
all accounts. He acknowledged that it was his duty
to make certain that church finances were protected.
Elder Thomas whose signature and identification
appeared on the withdrawal forms for the
Gresham Fund had no idea of the purpose of the
fund and could not state with any degree of certainty what was done with the money taken.
Two vehicles were purchased, and he did not know
in whose name they were titled even though the
bylaws require that any purchase be named in the
name of the Trustees of the Church of the Lord
Jesus Christ of the Apostolic Faith. The $8.800 for
the Porsche auto payable to Nathaniel Bailey may
or may not have been used for church business.
On June 20, 1994, Elder Thomas withdrew $7,000
from the Church Account #2E846373760 which
was not his personal account presenting church
identification and employee identification. On

51a
August 23, 1994, a withdrawal of $30,000 was
made as well as a $4,000 withdrawal on September
7, 1998, and on April 19, 1994, $5,000 with the
identification of Church of the Lord and Thomas’
operator’s license.
May 10, 1995 withdrawal $1,240.
May 25. 1997 13,800 with Elder Thomas’ name
printed on the form.
May 20, 1998 – $550 withdrawal. July 19, 1995 ~
$1,000 withdrawal.
12. The Arbitrator, sitting as Chancellor in Equity,
finds that there have been violations of the Articles
of Incorporation. The General Overseer, President
and Bishop Sharod C. Johnson testified that he
does not receive any salary but was maintained by
Tythes, and none of the officers were to receive any
salary, were to serve without pay with no fixed
amount, “only tythes” and that no members were
to acquire any pecuniary gain or profit incidental
or otherwise to any members of the corporation.
Because Bishop Shelton and Elder John Thomas
have been receiving salaries not in accord with the
Articles of Incorporation, they are in violation of
the Charter unless and until the Articles of Incorporation are formally amended. Bishop Patterson
is to be granted all rights and privileges in determining whether salaries should be included in the
amended articles because as the Court stated in
Schnoor’s Appeal 67 Pa. 138, 148 (1870):
“a majority of a church congregation may
direct and control. in church matters consistently with the particular and general
laws of the organization or denomination
to which it belongs, but not in violation of

52a
them, and that in church organizations
those who adhere and submit to the regular order of the church, local and general,
though a minority are the true congregation and corporation, if incorporated”.
(Emphasis added)
Any efforts by the Defendant or the majority to
impede of raise any obstacles, legal or otherwise to
Plaintiff and his counsel fully participating in this
amendment process could result in the suspension
of salaries being received. See, Delta Star, Inc. v.
Aschew W. Patten, Civil Action 96-2183 (W. D. Pa.
1999).
THE DECLINE IN BANK BALANCES
AND THE AMERICAN EXPRESS CHARGES
The report of CPA James Stavros on February 11,
1999, as a financial expert is treated as any other
expert as defined by Pennsylvania Law. In determining the weight to be given to any opinion we
consider the qualifications and reliability of the
witness and the reasons given for the opinion. The
Chancellor is not bound by the witness’ opinion. It
can be accepted or rejected as in the case of other
witnesses. We give it the weight, if any, to which
we deem it entitled.
Mr. Stavros did not have the typical and customary financial and business documents front the
church, (i.e„ tax returns, financial statements,
accounting records, bank statements, etc. Any
documents he examined were from subpoena and
his opinion was based only on examination of
31 accounts and summary of American Express
expenditures and payroll listing of 1990 employees
and Gresham Fund disbursement analysis.

53a
The Chancellor notes that the defense did not
retain an accountant to counter Mr. Stavros on any
area, so that his analysis stands uncontradicted.
From September 1, 1991 through 1998, the balance in all 31 accounts declined from a high of
$1,047,662 in September 1992 when Bishop
Shelton was declared the General Overseer, President and Lawful Bishop by the Court, to a low of
$78,585 in December 1998. There does not appear
any persuasive evidence that this decline was
related totally to Church activities and business
commitments.
The total American Express charges from
February 1992 when Plaintiff and his followers
were forcibly removed from the headquarters
at 20th & Bainbridge, amount to $3,478,107. The
expert attributed 77% to personal charges or
$2,663,542 and 23% to business or $812,884
unclassified charges amounted to $1,682. The
Chancellor, when reviewing all the charges made
by numerous members, employees and officers
finds these allocations appropriate when the
charges are specifically reviewed. Examples
inspected:
August 26, 1997 Hotel Martinez
$52,203.27
Cannes France
(one night)
May 16, 1995
Noga Hilton Intern $40,255.74
Geneva,
Switzerland (one
night)
Dec. 26, 1992
Boca Raton Resort $31,784.02
& Club Florida
(one week)

Dec. 26, 1993

54a
Ocean. Grand Palm $9,536.39
Beach, FL (for N.
S. Bailey as well as
$45,000 in cash
charges for 12/26
and 12/27)

Nine separate purchases at Victoria’s Secret
appear as well as a trip to Walt Disney World on
January 26, 1994 for $4,966.
In the related Court Action in Common Pleas, July
Term 1994, No. 0914, Defendants sought a Temporary Restraining Order to restrain Plaintiff from
interfering with assets, credit cards of the trustees
for the church. Judge Gafni entered a Consent
Order where the Plaintiff agreed to return control
of the assets to Defendant, Bishop Shelton which
was done
Paragraph 6 of the Order however, reads that all
—credit cards — shall only be used in the ordinary
course of business of the Church. The records cited
above demonstrate that Defendant was not in
compliance with the Consent Order when charges
were thereafter made for non-business ventures.
It is contended that all of these listed charges
cannot be considered by the Chancellor because
they were determined by Judge Dembe on March
12, 1998 when a Motion for Civil Contempt and
increase in bond was denied as there has been no
significant change in the practices and customs
and financial patterns of the corporation and
church officials since the entry of the August 1994
Orders.
Res Judicata cannot be employed here. In this
1995 action, the parties are different from the 1994

55a
and 1992 actions. The issues are totally distinct,
because the evidence produced in this case is widely different from Judge Dembe’s hearing. And the
parties stipulated that all Pre-Trial Motions and
procedural issues would be waived before the arbitration. (N.T. P.10, 15) Judge Lynn - December 2,
2005.
However, pursuant to the doctrine of res judicata,
a final judgment on the merits will bar any future
suit between the parties or their privies in connection with the same cause of action. This has not
occurred prior to the hearings before this Chancellor Collateral estoppel applies when the issue
decided in the prior adjudication was identical
with the one presented in the later action, there
was a final judgment on the merits and the party
against whom it is asserted has had a full and fair
opportunity to litigate the issue in question in the
prior adjudication. That did not occur until the
seven- (7) day hearing before this Chancellor. In re
Julo, 564 Pa. 205, 210, 766 A.2d 33S (2001);
Safeguard Mut. Ins. Co. v. Williams, 463 Pa. 567,
574, 345 A.2d 664, 668 (1975). In the instant
matter the requirement of final, judgment on the
merits is not met. The argument from the defense
that an unfavorable inference should be drawn
because the expert did not appear at the hearing
to testify is not accepted. The rules of ADR Options
expressly allow reports of experts to be submitted
in lieu of their appearing to testify. In addition, the
expert did testify before Judge Dembe and was
fully examined by defense counsel. Finally, if
Defendant felt it necessary to recall Mr. Stavros,
subpoenas should have been prepared for the
Arbitrator’s signature and would have been
allowed without any question.

56a
Elder Brown has testified that records of reimbursement for the personal expenditures incurred
on the American Express Credit Cards were kept,
and some were made available to the Plaintiff or
produced for the Arbitrator at the hearings. These
records will be part of the accounting to be ordered
in the Final Decree.
13. Pursuant to the Articles of Incorporation and
Charter, all property purchased by the trustees
was to be held in trust for the uses and purposes
specified by the General Assembly, and placed in
the name of the corporation. However. Bishop
Shelton, while President of the Corporation, and
with income of $250,000 paid to him as President
and Bishop purchased a home on September 6,
1996, for and in consideration of the sum of
$395,000 titled in his name and that of his wife.
Thus the Articles of Incorporation and Charter
may have been violated as it prohibits the President of the Corporation from receiving any pecuniary gain from the sale or purchase of property.
14. The Defendant has sold at least two pieces of real
estate. The funds for these two and any additional
properties have not been accounted for, or if they
have, were not produced at the hearings conducted
before the Arbitrator. The total cash holdings of 24
million dollars since 1991, according to Bishop
Shelton may or may not have diminished. He
relies on Elder Thomas who had no idea of whether
there was a decline from this sum alleged.
15. On August 11, 1994, the First Fidelity Bank issued
an official check #61-027189804-6 for balance to
close the account of the Trustees of the General
Assembly of the Church of the Lord Jesus Christ.
The account number is 3015755048 and the check

57a
amount was $50,389.21. Minister John C. Shelton
Thomas signed the authorization. No evidence has
been offered as to how the funds were spent or
whether they were properly deposited into the
Trustees of Church accounts.
THE DEFENSE OF LACHES
It is settled law that a party asserting laches as a
defensive bar must establish: (1) inexcusable delay
in bringing the action and (2) prejudice. In re
Mushroom Traps. co., 382 F.3d 325 (3d Cir. )Pa.
2004). To establish prejudice of the kind required
to support a laches claim. the party must demonstrate that delay caused it a disadvantage in
asserting and establishing a claimed right or
defense; mere loss of what one would have otherwise kept does not establish prejudice.
The action was commenced on July 24, 1995, and
an answer and counterclaim filed on May 24, 1896.
Mr. Morris, Plaintiff’s prior counsel, advised the
Court that the matter was essentially the same as
the consolidated actions and was removed from the
non-jury trial list. But on March 13, 1996 he
advised the Court, “I believe the case should be
relisted, but to await disposition of the related
cases by the Commonwealth Court.” This is not a
waiver of the right to proceed with the case. It was
merely a request to await the Commonwealth
determination of the related actions.
The docket entries show the case being stricken by
Judge Moss on February 22, 1996, but reinstated
by the Court on February 11, 2005, as a result of
the Court correcting removal of the notation of
February 22, 1998, to wit: Stricken by Calendar
Judge.” (Hon. Sandra Mazer Moss) There was no

58a
delay by Plaintiff or his counsel in pursuing this
action. The delay was caused by misinterpreting
Mr. Morris’ statements and the Court’s haste in
striking the case in February 1996. Moreover, no
prejudice has been suffered by Defendant since he
has been given notice of the claims herein with the
prior actions that are similar to the instant action,
all of which have been continuously ongoing
between 1995 and 2005.
B. THE COUNTERCLAIM AGAINST
ANTHONEE’ PATTERSON:
To properly assess the merits of this claim, it
becomes necessary to view the history of how
Bishop Shelton ascended to General Overseer, and
the subsequent actions by Plaintiff.
On December 28, 1991, the Board of Trustees
meeting elected themselves as Trustees, an invalid
action, under the by-laws as well as the election of
Elder Omega Shelton and Elder A. Woodward
Regan as co-Presidents, also an invalid action
under the by-laws. Shortly thereafter, on February
23, 1992, Elder Nehemiah and his supporters were
physically removed from the premises of the
church at 20’h and Bainbridge Streets. Prior to
this removal, and before the December 28 meeting,
Elder Nehemiah filed suit in Common Pleas on
November 20, 1991, seeking relief to become
General Overseer following the death of Bishop
McDowell Shelton on October 13, 1991. This was a
meritorious suit because Article 16 of the by-laws
as amended in 1962, the General Secretary
becomes a General Overseer temporarily to hold
office until the next General Assembly elects him
or a successor. Elder Nehemiah was the undisputed General Secretary on October 13, 1991,

59a
when the action came before Judge Gafni with
Elder Nehemiah’s counsel seeking Injunctive
Relief. The Court never ruled on the merits of his
claim that he was the Overseer until September
1992, but rather denied relief believing that the
Court was without jurisdiction to involve itself in
a “doctrinal matter.” This ruling was in error as
the decided case authorities allow the Courts to
decide these exact issues. Archbishop Most Reverend Metropolitan Ambrose Senyshyn v. Karlak
462 Pa 348, 341 A2d 114 (1975); Gabster v.
Mesaros, 422 Pa 116,220 A2d 639 (1966); Schnorr’s
Appeal 67 Pa 138 (1870).
The withdrawal of the action by counsel on
November 25,1991, was done without prejudice,
which clearly indicated that Elder Nehemiah did
not relinquish his claim as General Overseer.
When he was physically removed with his followers on February 23, 1992, he had an equal claim to
the title of General Overseer, as the election of
Bishop Shelton upon a special meeting of the
General Assembly on May 24, 1992, was invalid.
Elder Nehemiah, rather than contest his removal
from the church in a court proceeding assembled
his supporters in Darby, Pennsylvania and in
August or September 1992, with the General
Assembly meeting was confirmed by those present
as General Overseer. Bishop Shelton’s election in
September 1992 as Bishop and President of the
Board of Trustees created two General Overseers
with no Court at that time ruling that Elder
Nehemiah was not validly elected pursuant to
Article 16 of the By-Laws.
It was only on June 12,:2000, after all of the acts
by Plaintiff in attempting to take control of assets

60a
on behalf of the Trustees in July 1994 after he was
elected General Overseer in May 1994, that Judge
Younge entered the order that Elder Nehemiah
“never was validly confirmed General Overseer by
the General Assembly, that Anthonee Patterson
was never validly elected Bishop and that Kenneth
Shelton was in control of the corporation by way of
election in September 1992.”
The Chancellor cannot condone the actions of
Fincourt Shelton, and Plaintiff in withdrawing
funds from the account for the Church of the Lord
Jesus Christ of the Apostolic Faith on July 28,
1994, the document to the post office to halt
deliveries to the post office box of Bishop Shelton,
the cancellation of the credit cards of Bishop
Shelton and others while in Chicago and other
accounts where monies were withdrawn. However,
with no court order in effect at that time declaring
that only Bishop Shelton was duly elected General
Overseer and no injunction informing Plaintiffs
counsel to cease all activities of this nature, they
had very legitimate reasons to feel that Anthonee
Patterson was duly appointed and elected General
Overseer for the Church with full power to act on
behalf of the church. Bishop Patterson was accurate in stating to the First Union Bank that his
election was occasioned by the death of the former
General Overseer Bishop Nehemiah, who succeeded Bishop S. McDowell Shelton after October
13,1991. The claim by Bishop Shelton that Elder
Nehemiah had been absent from the church for 12
years and therefore not entitled to be elevated to
General Secretary in 1991, was shown to be not
accurate, as Plaintiff produced a Resolution signed
by Elder Nehemiah on February 18,1988, and
signed a Resolution at the National Convention of

61a
the General Assembly in August 1991, as well as
his being recognized as Secretary General at the
October 14th meeting of the Trustees following
Bishop McDowell Shelton’s death on October 13,
1991.
The Chancellor finds Bishop Patterson to be credible when he testified that the charges in the counterclaim that he “stole money from the Church”
are all false; that he came into possession of the
money from the banks as “Trustee and deposited
all money as Trustees because he didn’t recognize
Bishop Shelton’s authority prior to 1999, and that
he accounted for funds taken, gave and released all
money to Bishop Shelton’s control.”
The Chancellor does not -find any unlawful criminal conduct by Plaintiff, his trustees, members or
his counsel. His acts, while disturbing and causing
inconvenience, embarrassment and undocumented expenses does not warrant an award of
$500,000 in damages. Under all the circumstances
an award of $15,000 is decreed payable to the
Trustees of the General Assembly within 30 days
of the date of the Final Decree. The damage to the
real estate in Jacksonville, Florida as demonstrated by the photographs introduced by defense
counsel discloses minor interior disorder of files,
chairs and windows. But because no estimate or
appraisal has been offered the Chancellor would be
speculating on the damage done. Property damage
must be proven with particularity which, of course,
differs from personal injury matters.

62a
C. CONCLUSIONS OF LAW:
1. The preponderance of the credible evidence both
direct, and circumstantial, demonstrates various acts of fraud, mismanagement, conspiracy,
breach of fiduciary responsibilities, violations of
Bylaws and the Articles of incorporation in
seizing Corporate funds and assets, depletion of
corporate bank accounts, by Defendant.
2. Unlawful diversions of bank funds by Bishop
Shelton to himself and to others named herein
for his or their benefit were and are continuing
breaches of Defendant’s fiduciary responsibility
to the Corporation.
3. Defendants have reduced the value of the
corporation’s equity interest to the collective
detriment of all the members of the General
Assembly of the Church of the Lord Jesus
Christ of the Apostolic Faith.
A Court of Equity cannot decide ecclesiastical
questions unless property rights are involved
and then only insofar as is necessary to adjudicate the property rights. But, where there is a
division in a congregation and the battle to its
property comes into question, it is the duty of a
Court of Equity to determine in which faction
title to its property rests. Under the law of
Pennsylvania it is clear that property rests in
that faction whether majority or minority,
which continues to act in harmony with the
laws, usages and customs accepted by the body
before the dispute and dissension arose. And
THAT faction is the true congregation and
THAT corporation, it incorporated: First

63a
Church of Brethren of Lewistown, et al. v.
Snider 367 Pa 78, 79 A2d 422 (1950).
The preponderance of evidence is in favor of
Plaintiff who has been shown to have acted in
harmony with the laws, usages and customs
accepted by General Assembly before the dispute and dissension arose. Nevertheless, before
any property can vest in Plaintiff’s minority, an
accounting of all funds removed from Corporate
Church accounts or trusts by Bishop Shelton
and any persons acting in combination with
him, shall be undertaken with full discovery to
determine the amounts of misappropriations,
within 30 days.
It is further ordered that counsel for both parties shall undertake action to find a person or
persons mutually satisfactory to act as receiver
to take control of the property, accounts and
records.
Any elections for the offices of General Overseer
and President of the Board of the Trustees shall
await the final results of the receiver’s report
and accounting.
Any award requiring payment of funds to be
paid by Kenneth Shelton and the members of
the Board of Trustees under his administration
shall await the results of the accounting of all
funds described.
A suit for an accounting is in practical effect not
one, but two actions providing for two distinct
judgments, where the factfinder in the first
action is required to determine whether a
defendant is liable to account, and if such
liability is established, then a second factfinder

64a
may settle the accounts. The subsequent proceeding on the accounting is to determine the
amount due the injured party. Standard
Pennsylvania Practice 2d sec 81:20, Damirgian
v. Damirgian 262 Pa Super 463, 396 A2d 1263
(1978): Hudak v. Walter G. O’Connor Co., IPa
D&C 3d 317, 1975 WL 98.
The equitable remedies fashioned by the Chancellor suit the circumstances of this 15-year old
litigation in numerous courthouses and before
10-12 different jurists. The Chancellor has
devised remedies to fit the circumstances and
relations of the parties. See Pennsylvania Human
Relations Commission v. School District of
Pennsylvania 667 A2d 1173, appeal quashed
671 A2d 1223, Vacated 732 a2d 578 (1995)
(Comwlth Pa)
ARBITRATOR NAME

Honorable Edwin E.
Naythons, United
States Magistrate
Judge (Ret.)
SIGNATURE /s/ Edwin E. Naythons
DATE
April 26, 2006

65a
APPENDIX J
SUPPLEMENT ADJUDICATION
————
No. 2845
————
ANTHONEE PATTERSON
Plaintiff,
v.
KENNETH SHELTON
Defendant.
————
July Term, 1995
————
ARBITRATION
In the April 26, 2006 Adjudication, the Chancellor,
sitting as Arbitrator with equitable powers, ordered
that “before any property can vest in Plaintiff’s minority, an accounting for ALL FUNDS removed from
corporate church accounts or trusts by Bishop Shelton
and any persons acting in corroboration with him shall
be undertaken with full discovery to determine the
amounts of misappropriations within 30 days.”
(Emphasis added)
Because counsel for Defendant has not recommended any person to act as Receiver, the Chancellor
is accepting the Plaintiff’s choice of “Glass Ratner” to
act as Receiver commencing on the date of the
issuance of the Order that follows.
It has been brought to the attention of the Chancellor that newly retained counsel for the Defendant and

66a
the Church have sought to collaterally attack the final
judgment on the merits of this fifteen (16) year old
litigation by asserting an argument that the Church
was not named as a party in the Complaint and hence
there is a Fourteenth Amendment violation of taking
property without due process.
The Chancellor finds that this collateral attack is
without any lawful merit as it is in violation of the
Arbitration Agreement entered into by the parties
hereto and their counsel that reads in relevant part.
“The undersigned parties also agree that the
arbitration will, be final, binding and conducted under the current ADR Options, Inc.
Rules of Procedure.” This Agreement to arbitrate is an agreement for common law arbitration unless the patio* agree expressly in
writing for arbitration pursuant to the
Uniform Arbitration Act a similar statute or
other contractual terms.”
More compelling was the statement of Judge
Murray Lynn, in his January 10, 2008 Order:
The Arbitration will be binding on both parties with no right to appeal. Further by agreement of the parties, both parties are waiving
procedural argument such as standing.
Accordingly, this case is dismissed from the
Court of Common Pleas by agreement of both
parties.
Moreover, all procedural arguments including
standing and failure to Join indispensable parties
were expressly waived prior to the commencement of
the hearings before the Chancellor. It was formally
stipulated by counsel for the parties that only the
merits of the long standing controversy were at issue,

67a
and the procedure issues that were set froth in
Defendant’s new matter were to be considered waived.
In any event even were the corporation added as a
party Defendant as counsel is asserting, the result
would inevitably be the same as the “corporate veil”
would be pierced, since the Chancellor has found that
failure to adhere to corporate formalities is a factor to
be considered in determining to pierce the corporate
veil as well as evidence of intermingling of corporate
and personal affairs.
Banks v. Hanoverian, 2008 WL 1022 012 at *1NI
CCP, Philadelphia, 8/23/05; Lomax Indus, 669 Aid
898, Banks, 2008 WL 1522012 at MI.
ARBITRATOR NAME

Hnorable Edwin E.
Naythons, United
States Magistrate
Judge (Ret.)
SIGNATURE /s/ Edwin E. Naythons
DATE
May 8. 2008

68a
APPENDIX K
IN THE COURT OF COMMON PLEAS
OF PHILADELPHIA COUNTY
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
TRIAL DIVISION – CIVIL SECTION
————
No.: 2945
Control No’s. 052941; 060306
————
ANTHONEE PATTERSON,
Plaintiff,
v.
KENNETH SHELTON AND ERIK SHELTON,
Defendant.
————
July Term, 1995
————
MEMORANDUM AND ORDER
Dych, J.

July, 2006

Before me for adjudication, are petitions to Confirm
Arbitration Award, Vacate Arbitration Award, and
Vacate Supplemental Adjudication Award Orders of
Arbitrator. This long and acrimonious litigation dates
back to July 1995 and has produced a docket in the
Court of Common Pleas running 36 pages.
It is uncontroverted that on January 10, 2006, the
Honorable James Murray Lynn of this Court entered
an Order dismissing the case from the Court of Common
Pleas by agreement and submitting the matter to
Arbitration before the Honorable Edwin E. Nythons,

69a
United States Magistrate Judge (Ret.). All evidentiary
rulings were to be made by the arbitrator and the
arbitration was to be binding on both parties with no
right of appeal. The parties also waived procedural
arguments such as standing. (A copy of Judge Lynn’s
Order is attached hereto and made a part hereof by
reference). On April 26, 2006, Judge Nythons issued a
comprehensive and scholarly Adjudication followed by
a Supplemental Adjudication dated May 8, 2006.
(copies of both Adjudications are attached hereto and
made a part hereof by reference).
It is clear that a common law arbitration award is
binding and may not be set aside absent a clear showing that a party was denied a hearing or that fraud,
misconduct, corruption or other irregularity caused
rendition of an unjust and equitable or unconscionable
award. 42 P.A.C.S.A. § 7341. Furthermore, the parties
explicitly waived any right to appeal (see Judge Lynn’s
Order and Judge Nythons’ Supplementary Adjudication).
I find after a review of the Petitions and Responses
as well as Judge Nythons’ Adjudications that the
Petitions to Vacate are nothing but disingenuous
attempts to collaterally attack and evade the Award,
since the arbitrator clearly did not misbehave nor
render an unconscionable decision.
Accordingly, the following Order is entered:

70a
IN THE COURT OF COMMON PLEAS
OF PHILADELPHIA COUNTY
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
TRIAL DIVISION – CIVIL SECTION
————
No.: 2945
Control No’s. 052941; 060306
————
ANTHONEE PATTERSON,
Plaintiff,
v.
KENNETH SHELTON AND ERIK SHELTON,
Defendant.
————
July Term, 1995
————
ORDER
AND NOW, this 10 day, of July, 2006, after consideration, defendants petition and supplemental petition
to vacate are DENIED and the Arbitration Award is
CONFIRMED.
BY THE COURT:
/s/ Dych, J.
DYCH, J.

71a
APPENDIX L
OFFICE OF THE PROTHONOTARY
COURT OF COMMON PLEAS
Room 284. City Hall
Philadelphia PA 19107
JOSEPH H. EVERS
Prothonotary
To: Kenneth Shelton
444 Darlington Road
Media, PA 19063
COURT OF COMMON PLEAS
(Philadelphia County)
————
No. 2945
————
ANTHONEE PATTERSON,
Plaintiff,
vs.
KENNETH SHELTON,
Defendant.
————
July Term, 1995
————
Notice
Pursuant to Rule 236 of the Supreme Court of
Pennsylvania, you are hereby notified that a Judgment
has been entered against you in the above proceeding
as indicated below.
JOSEPH H. EVERS
Prothonotary









72a
Judgment by Default
Money Judgment
Judgment in Replevin
Judgment for Possession
Judgment on Award of Arbitration
Judgment on Verdict
Judgment on Court Findings

If you have any questions concerning this notice,
please call:
Attorney Fincourt B. Shelton
(Insert Attorney’s Name)
at this telephone number: 610-532-5550.

, Esquire

73a
ATTORNEY FOR PLAINTIFF
FINCOURT B. SHELTON & ASSOC., P.C.
By: Fincourt B. Shelton, Esquire
Identification No.: 31598
504 Main Street, Suite 100
Darby, Pennsylvania 19023
(610) 532-5550
COURT OF COMMON PLEAS
PHILADELPHIA COUNTY
————
No. 2945
————
ANTHONEÉ PATTERSON
Plaintiff,
vs
KENNETH SHELTON
Defendant.
————
July Term, 1995
————
PRAECIPE TO ENTER JUDGMENT
ON ARBITRATION AWARD
TO THE PROTHONOTARY:
Please enter judgment on the attached binding arbitration award in favor of the Plaintiff, ANTHONEE
PATTERSON, against Defendant, KENNENTH
SHELTON.
/s/ Fincourt B. Shelton
Fincourt B. Shelton, Esquire
Attorney for Plaintiff

74a
APPENDIX M
ADR OPTIONS
Settling Cases Since 1993
Two Commerce Square, Suite 1100
2001 Market Street
Philadelphia, PA 19103-7044
(215) 564-1775 Main
(800) 364-6098 Toll Free
(215) 564-1822 Fax
adroptions.com
Fax
To: See Below
From: Receptionist
Fax:
Pages:16
Re: Patterson v. Shelton
Date: 10/03/08
 Urgent
 For Review
 Plasm Comment
 Rene Reply
 Please Recycle
Comments:
Fincourt Shelton, Esq. – 610-832-8888
Andre Donnie, Esq. – 218-884-8120

75a
Memorandum and Order
RE: Anthonee Patterson vs. Kenneth Shelton
By virtue of the Decree of the Honorable John W.
Herron, dated September 20, 2006, the substance of
which Ordered and Decreed that any and all pleadings
on the Arbitrator’s behalf by his retained counsel,
be stricken thereby denying the Arbitrator to his
guaranteed right to counsel in the above action, the
following Order is hereby entered:
1. The agreement between Andre Dennis, Esquire
and William Winning, Esquire delaying the Final
Adjudication Decree on the motion for Recusal of
the Arbitrator as a result of threats to do bodily harm
posted over the internet on May 6, 2006, is now
rendered moot and without validity. Having been
declared by Judge Herron that the Arbitrator who
served in a quasi-judicial capacity is not a party in the
proceedings”, the Arbitrator without any prior notice,
or an opportunity to appear and be heard has been
deprived of legal standing to contest or appeal any
recusal order that could be forthcoming.
2. The August 23, 2006, letter from Attorney Dennis
to Judge Herron objecting to the Arbitrator’s right to
counsel cites no authority for his position, but invites
the Arbitrator to make a response in Memorandum
and Opinion. The Arbitator, in accepting this invitation is compelled to inform counsel that only in the
most extreme cases of bias or prejudice is disqualification of a judge constitutionally required. Aetna Life
Insurance Company v, Lavoie, 487 U.S.. 813, 821
(1988) and there is as much obligation upon a judge
not to recuse himself when there is not occasion for
him to do so when there is. Wofson v. Palmieri, 396
F2d 121, 124 (2d Cir 1888); Smith v. Danyo, 441 F

76a
Supp 171, 176 M.D. Pa 1977, AFFD 588 F2d 83 (3d Cir
1877).
3. At no stage of these proceedings has any party or
counsel leveled a charge of bias, prejudice or partiality
against the Arbitrator, until the Internet threat was
learned on July 27, 2006, subsequent to the completion
of the Final Adjudication and Decree. It follows that
the motion for recusal that has been placed under seal
is an abuse of discretion by the Court and the motion
lacks any merit for further consideration by the Court.
BY: THE ARBITRATOR
/s/ Edwin E. Naythons
Edwin E. Naythons (USMJ) (Ret.)
October 3, 2006

77a
Final Adjudication and Decree
RE: Anthonee Patterson vs. Kenneth Shelton
The Arbitrator is currently in possession of the
report from the Receiver, Glass Ratner Management
and Realty Advisors LLC (appointed on May 8, 2006)
dated July 17, 2006.
Final action is thus required following the Order of
July 10, 2006 entered by the Honorable Joseph Dych,
denying Defendant’s petition and supplemental petition
to vacate the Arbitrator’s Adjudication and Supplemental Adjudication and Orders, and confirming his
Award.
The Order of Judge Dych in part reads:
“I find after a review of the Petitions and
Responses as well as Judge Naythons’ Adjudications that the Petitions to vacate are
nothing but disingenuous attempts to collaterally attack and evade the Award, since the
Arbitrator clearly did not misbehave nor
render an unconscionable decision.”
Counsel for the Church, who was retained following
the Binding Arbitration Decision nevertheless continues
to collaterally attack the Adjudication by submitting a
memorandum in support of its Preliminary Objections
that argues, “The First Amendment rights of a private
organization like the Church are infringed where it is
forced to accept members like Mr. Patterson, whose
views are contrary to those of the organization.” (P. 2)
The argument again is an attempt to attack collaterally an issue that was expressly determined in the
Adjudication when the Arbitrator stated at 14 “The
preponderance of evidence is in favor of the Plaintiff
who has been shown to have acted in harmony with

78a
the laws, usage and customs accepted by [the] General
Assembly before the dispute and dissension arose.”
(Emphasis added)
Where, as in the instant case, it is clearly evident
from the trial on the right to an accounting that the
Plaintiff, as the party awarded the accounting, is
entitled to certain and appropriate equitable remedies, the Arbitrator need not hold a second hearing on
the issue of the amount due that party. The Chancellor
has the option of telescoping the entire procedure into
one step. Damirgian v. Damirgian, 396 A 2d 1283 (Pa
Super 1978)
In Plaintiff’s complaint for an accounting the Arbitrator’s interlocutory decree defined the subject matter
of the accounting, but left open the precise liability,
which is to now be determined by the Chancellor on
the basis of its examination of the accounts. Moyer v.
Geyer, 67 Montg 351 (Pa Corn. PL 1951).
In addressing the report on the accounting the
Arbitrator takes note that in Poesnecker v. Ricchio,
168 Pa Commw 489, 831 A2d 1097 (1993), Cert Denied
– U.S – 115 S.0 t 727, 130 L. Ed 632 (1998) the court
recognized that a Civil Court may resolve disputes
involving religious organizations that do not require a
determination of Ecclesiastical issues, 158 Pa Commw
At 573, 631 A2d 1104. These matters that the Arbitrator
may address involve property, contracts and financial
dealings. Therefore, the Arbitrator shall consistently
apply the statutes governing Pennsylvania nonprofit
corporations to the corporate arm of the Church.
The Arbitrator adopts the following results of the
limited forensic Accounting investigation of the appointed
Receiver.

79a
1. Kenneth N. Shelton and his family members
receive approximately $637,152 per year in salaries,
housing allowances and stipends (Based on 2005 and
2006 information). These salaries are in direct conflict
with the Articles of Incorporation in accordance with
the Non-Profit Corporation Law. The application for
Charter of the Trustees of the General Assembly of the
Church of Jesus Christ of the Apostolic Faith stated
that none of the officers were going to receive a salary
and serve without pay - only Tithes.
2. The Church does not devise and maintain a
system of internal accounting controls sufficient to
provide reasonable assurances that transactions are
recorded as necessary to permit preparation of financial statements in conformity with generally accepted
accounting principles and to maintain accountability
for assets.
3. The Church has real property in over 100
locations in the United States valued in excess of
$100,000,000.
4. The Church does not keep books, records, and
accounts, which in reasonable detail, accurately and
fairly reflect the transactions and disposition of assets
of the Church.
5. Based on the analysis by the Receiver of American
Express charges during the period of July 1999 to May
2006 there was approximately $3,244,854 in expenditures during this period. Based on a sample of
$1,894,614 or 58% of the total charges considered that
approximately $1,708,409 or 52.68% of the total charges
could be classified as questionable. No written policies
or procedures as to the use of corporate credit cards
are in place. As per John C. S. Thomas on 6/22/06 the
use of corporate cards is based on an oral understanding

80a
of the business nature of the expenses and based on a
code of honor. On 6/22/06 Arnica Jamison, (Bookkeeper
and Payroll Department) explained that Mr. John
C. S. Thomas authorizes and approves the use of
American Express cards. Ms. Jamison explained
that original invoices and employee expense reports
backing up the American Express bill ARE NOT kept
by the Church, therefore no details of the charges are
available (i.e. business lunch, airfare and hotel bills
associated with business travel, etc.).
6. Church members have been traveling to places
such as London, Switzerland, France, Toronto, Montreal,
Amelia Island, Chicago, etc. and incurred large expenditures which may be categorized as questionable or not
in the ordinary course of business as noted:

81a
Table 7
Table of Largest Vendors and Locations
Vendor
Hotel Martinez

Location
Cannes, France

Peninsula Hotel New York

Amount
$ 131,958.29
108,626.45

Oak Brook

Brook, IL

82,858.99

Hotel Carlton

Cannes, France

78,135.46

US Air

Airfare

60,321.57

The Peabody
Hotel

Memphis, TN

54,900A4

Ocean Club

Bahamas

50,981.74

The Ritz Carlton Amelia Island &
Chicago

47,542.84

Westin Hotels

Atlanta & Rio

47,505.02

Four Seasons
Hotel

Chicago & Miami

88,954,51

Ramada Inn

Rosemont, IL

78,231.5B

British Airways Airfare

35,138,20

US Airways

Airfare

34,525.99

Dorchester
Hotel

London, England

34,460,69

St Regis Hotel

New York

34,293.97

Hotel Des
Bergues

Geneva, Switzerland

32,381.75

As can be observed, some of the hotels can be
classified as luxurious accommodations.
Please refer to Schedule 8.1 for a detailed listing
of international airfare and lodging. Total overseas
travel expenses amount to $592,661 or 31.20% of the
total expenditures analyzed.

82a
For charges relating to airfare we have been able to
extract passenger namesith a Shelton or Thomas last
name. A total of $125,721.41 appears to be related to
Bishop Kenneth Shelton, John C. S. Thomas and their
family members.
7. Expenditures:
The Church is paying stipends and no employment
taxes are being reported to the Internal Revenue
Service. As per the IRS, a stipend is defined as a fixed
sum of money paid periodically for services to defray
expenses. The fact that Renumeration is termed a
“fee” or “stipend” rather than salary or wages is
immaterial. Wages are generally subject to employment taxes and should be reported on Form W-2
Annual ADP Stipends as per:
2008 ADP Payroll
ADP Gross Payroll
ADP Housing Allowance
Total

$561,272
$1,048,804
$140,615

32.06%
58.90%
8.03%

$1,750,492

100%

8. There are approximately 29 employees in the
ADP payroll (three receiving housing allowances).
Additionally there are 49 persons receiving stipends of
which eleven receive ADP payroll as well. The highest
paid employees are as follows:

83a
Kenneth N. Shelton
$213,900 Gross Earnings
$75,000 Housing
Allowance
Total $288,900
John C. S. Thomas

Total
Johnny R. Brown

Total

$99,199 Gross Earnings
$82,615 Housing
Allowance
$151,814
$41,574 Gross Earnings
$13,000 Housing
Allowance
$13,000 Stipends
$67,574

Total Gross Earnings
$354,673
Total Housing Allowance $140,618
Total Stipends
$13,000
Total

$508,288

84a
Table 6
Table of Additional Payroll to Family Member

9. Bank Accounts:
The Church has provided a listing with 170 bank
accounts. One of the accounts is a Swiss Bank account
that Mr. Brown explained that when former Bishop
McDowell Shelton died on 10/13/91 as Executor of the
Estate was appointed (Day IMS. MAYIM) and the
Estate retained an attorney. James Michael Cleary,
Esquire who has kept the accounting of the funds for
the alleged $4 million Swiss account located at Banque
Cantonale Vaudoise, Seige Regional Montreux, Grand
Rue 50 Depot 648.405.59019.
10. Late fees and interest on 2008 delinquent property taxes: $2,020. Late fees and interest on 2005
delinquent property taxes: $1,662. Late fees and interest on seriously delinquent property taxes (4 properties,
2 in Florida and Rhode Island, and one in Suffolk
Virginia, for years 2003, 2004 and 2005: $1,978.
11. Use of Church funds in violation of Receiver’s
Order:
On July 13, 2006, the Receiver pursuant to his
authority was successful in freezing four (4) bank
accounts at Wilminton Trust Bank. At that time, he

85a
received a signature card and bank records showing
that 28 checks had been written on one of the accounts
between June 15 and July 10, 2006 totaling $92,819.42.
Check amounts ranged from $60.00 to $9,866.19. The
signature card bears the signatures of Bishop Kenneth
N. Shelton, President and Treasurer, John C. S.
Thomas, Vice President and Chief Administrator,
Johnny Brown, Secretary and Leon Bligen, Trustee.
12. Late fees on special assessments, $4,118.00. The
Church owns two condominium units 21A4 and 21A5
at the Philadelphian located at 2401 Pennsylvania
Avenue in Philadelphia, Pennsylvania. On December
5, 2005, the Owners’ Association levied special assessments of $47,673 and $45,335 respectively. Late fees
on this special assessment include: NSF charges, late
fees and collection costs as of June 13, 2006.
13. Transfers in the amount of $101,729 to Coyns
LLC, a company made up of Church employees/
members for the construction of a summer camp in
New Jersey took place immediately after the binding
arbitration April 26, 2006.
Check #1007
Check #1009

4/30/06
4/30/06

$50,000.00
$51,728.93
Total

$101,728.93

1. Pennsylvania law is clear that Title to the properties rests in that faction, whether majority or
minority which continues to act in harmony with laws,
usage and customs accepted by the body before the
dispute and dismissal arose.
2. That faction is the congregation of Bishop Anthonee
Patterson, as a result of the failure of the Defendant
and his officers and trustees to act within the purposes
of the Church and the laws of the Commonwealth.

86a
3. As General Overseer, Trustee and President of
the Board of Trustees Bishop Omega Kenneth N.
Shelton has not acted in good faith as it has been
demonstrated by the findings of the Receiver that he
has and had actual knowledge of the diversion of funds
for uses other than for the benefit of the members of
the General Assembly, (15 Pa C.S. sec 5712 b) (c)
4. Officers Thomas and Johnny Brown have failed
to perform their duties as officers in good faith in a
manner they reasonably believed to be in the best
interest of the Church and with such care, including
reasonable inquiry, skill and diligence as a person of
ordinary prudence would use under similar circumstances. (sec 5712 c)
5. In this Matter of the Church of the Lord Jesus
Christ of the Apostolic Faith its corporate bylaws
designating in Article Seven (VII) Omega Kenneth W.
Shelton the spiritual leader of the religious organization as the predetermined temporal leader of the
nonprofit corporation that manages the organization’s
business affairs lack constitutional status and therefore will not be enforced, Beverly Hall Corp. v. Ricchio,
689 A2d 600. Although under the Church’s religious
law Kenneth Shelton is the same individual to head
its religious and corporate functions, the Appellate
Courts conclude that Canon Law does not dictate
corporate governance; ‘religious leader maintains
ecclesiastical supremacy’, but Bishop Shelton is
hereby removed from his corporate leadership.
6. Where, as here, the Church has formed a nonprofit corporation to manage its business and secular
affairs, the Canon Law of the Church cannot displace
civil statutory authority on matters regarding director
liability, fiduciary obligations, and proper fiscal oversight of the property and assets of the corporation.

87a
7. The Officers, (and the Trustees) Kenneth Shelton,
John C. S. Thomas and Johnny R. Brown, stand in a
fiduciary relation to the corporation. 15 Pa C.S.A. sec
5712. In the instant matter there were no reports and
no financial controls. They are personally liable for
monetary damages where they have failed to perform
their fiduciary duties and where the breach or failure
to perform constitutes self-dealing, willful misconduct
or recklessness. 15 Pa C.S.A sec 5713 (a). Here where
the trustees and officers have paid themselves allowances, salaries, stipends, obtained financial benefits
for themselves and families or used Church funds for
non-clerical purposes, constitutes the kind of willful
misconduct and self dealing that gives rise to personal
liability.
8. The Receiver has found that a substantial percentage of the assets of the Church Corporation are
received as Tithes and offerings in the form of donations and checks. The Church has no accounting
methods or financial statements to identify these
contributions. The Church has utilized approximately
one-hundred and eighty bank accounts for VAST real
estate holdings on which it owed delinquent taxes,
fines, late fees, interest, loan repayments and other
assessments.
In some instances, Defendants were so delinquent
in making these payments that Church properties had
been scheduled for Sheriffs sale. Other asset dissipation identified by the Receiver included American
Express charges incurred on behalf of various individuals, none of whom were required to file expense
reports or produce original invoices. By way of
example, the Receiver identified over two hundred
thousand dollars ($200,000) that had been charged
on American Express cards at two hotels in Cannes,

88a
Prance. American Express charges averaged almost
forty thousand dollars ($40,000) per month. There
were no written policies governing the use of corporate
credit cards. Use of the Church’s twenty-seven gas
credit cards was similarly unmonitored with monthly
gas card expenditures in excess of fifty-five hundred
dollars ($5,500).
It is, therefore, clearly demonstrated that property
committed to charitable purposes has been diverted
from the object to which it was donated contrary to the
1947 Article of Incorporation where it was stated “the
purposes do not contemplate pecuniary gain or profit,
incidental or otherwise to its members”. 15 Pa C.S.A.
sec 5547 (b), 20 Pa C.S.A. sec 6110. The Directors, here
Trustees, of the nonprofit corporation are charged to
apply assets received in trust to the purposes specified
in the trust instrument. The Trustees and/or Directors
also have the statutory obligation “to keep accurate
accounts of all trust funds, separate and apart from
the assets of the corporation”. 15 Pa C.S.A. sec 5548
(b). Unexplained depletion of trust funds may be found
in direct violation of the law governing the use and
management of these funds.
Similarly the Church could not distribute any
income or profit to its members, officers or directors.
The Church may offer benefits except where the
corporation is insolvent, would be made insolvent
or rendered unable to carry on its corporate purpose.
16 Pa C.S.A. 5581 (c), See Davis v. Giovanazzo
Construction v. Heritage Village, 2005 Phila Ct. Com.
Pleas Lexis 380 (inability to pay debts as they come
due is one kind of insolvency). Here, it is determined
that the officers and trustees continued to pay themselves housing allowances and other benefits when the
corporation could not pay its bills as they came due.

89a
Any benefits so conferred is unlawful under the
nonprofit corporation code.
9. A director may be removed from office upon
petition of any member in the case of fraudulent or
dishonest acts, gross abuse of authority or for any
other proper cause. Any director so removed may be
banned from office for a period of time prescribed by
the Court. 15 Pa C.S.A. sec 5726 (c) See Storox Focus
on Renewal Neighborhood Association v. King, 398
A2d 241 Pa. Commw 1978). (expulsion of Plaintiff from
membership in defendant nonprofit corporation does
not eliminate Plaintiff’s right to review corporate
records for financial mismanagement.).
AND NOW THIS 25TH DAY OF JULY IT IS
HEREBY DECREED
1. All present officers, and trustees of the General
Assembly of the Church of the Lord Jesus Christ of
the Apostolic Faith located at 701 South 22nd Street
Philadelphia, PA 19146 suspended from their offices
following formal petition and on or before October 15,
2006.
2. Bishop (Omega) Kenneth N. Shelton shall not be
dismissed as presiding Bishop unless and until a
meeting of the Church corporation shall be called and
notice of such meeting given and the qualifications of
the voters determined only according to the bylaws,
regulations, practice, discipline, rules and usage of the
Church.
3. All property of the Church of the Lord Jesus
Christ of the Apostolic Faith heretofore held by the
trustees of the General Assembly of the Church of the
Lord Jesus Christ of the Apostolic Faith, Inc. Overseen
by Kenneth N. Shelton, President and those trustees
serving with him be and is hereby DECREED

90a
transferred to the Trustees and the General Assembly
of the Lord Jesus Christ of the Apostolic Faith, Inc.,
under President Patterson’s control and responsibility
as receiver.
4. All salaries, stipends and housing allowances
received by the officers, trustees or their agents acting
on their behalf for the years 1991 through 1998 shall
be repaid to the Trustees of the General Assembly of
the Lord Jesus Christ of the Apostolic Faith under the
supervision of Bishop Patterson’s Designated Receiver.
5. The present officers and trustees of the Church
shall be barred from holding office for a period of five
(5) years.
6. Any interference, acts of violence, or threats of
violence by any member of the General Assembly
present trustee, or officer of the Church of the Lord
Jesus Christ of the Apostolic Faith upon Plaintiff or
his trustees, officers or members of his Assembly
shall be deemed in CONTEMPT OF THE WITHIN
DECREE WITH REMEDIES PROVIDED BY THE
APPROPRIATE COMMON PLEAS COURT, AND/OR
BE CONSIDERED FOR CRIMINAL PROSECUTION.
Defendant and General Administrator, Elder Thomas
shall reimburse the depleted Gresham Trust, a fund
held for the benefit of Church members in need of
social services in the sum of $111,537.38, as a result of
six withdrawals between March 24 and May 1994.
The Defendant and all officers jointly and severally
shall reimburse the Church for the $52,203.27 stay for
one night at the Hotel Martinez, Cannes, France,
$40,253.74 for one night at the No. 6A Hilton Intern,
Geneva, Switzerland and $45,000.00 for cash charges
on December 26 and December 27, 1993 at the Ocean
Grand, Palm Beach, Florida.

91a
Elder Thomas shall reimburse the Church for
funds withdrawn from account number 2E845373760
between April 19, 1994 and September 7, 1998 as set
forth in the Adjudication of April 26, 2006 at 6 - 7.
All property real and personal presently titled in the
names of individual officers and trustees shall within
twenty (20) clays be conveyed to the Church of the
Lord Jesus Christ of the Apostolic Faith, Inc. if it is
determined that the properties were purchased from
salaries received during the period 1991 to 1998.
Glass Ratner Management and Realty Advisors
LLC has completed its duties and functions as Receiver
between June 16 and July 11, 2006. The Receiver has
collected, held and preserved monies generated from
the Church, pay from the revenues of the Church the
ordinary and necessary expenses of operating and
maintaining the Philadelphia property, employed
legal counsel to assist the Receiver in performance
of his duties, taking possession of bank accounts
containing funds associated with all property of the
Church and taking possession of P. 0. Box 3880 and all
incoming mail and correspondence of any nature.
So as to continue the allow for the smooth transition
of all property (real and personal) to Anthonee Patterson
and his officers, the Arbitrator sees no alternative but
to appoint an Interim Receiver Pennsylvania resident
chosen by Anthonee Patterson, who shall be charged
with the day to day operations of the Church, including but not limited to auditing the books of the Church,
rendering an accounting of the same, arranging
for services, safekeeping and overseeing the Church
building, renovations thereto and programs conducted
therein. The Receiver shall commence his/her duties
on or before October 15, 2006 for a period of one (1)
year.

92a
Article Two (II) of the bylaws of the General
Assembly of the Church of the Lord Jesus Christ of the
Apostolic Faith reads in relevant part that “the officers
of the corporation shall serve exclusively in a secular
capacity, and shall have no ecclesiastical functions,
duties, powers or authority.” Specifically, the President
of the Church Corporation is not synonymous with,
and is different office from that of the Overseer.
(Amended July 2006).
This Article as well as Article One (I), three was
amended, during the period that was two (2) months
subsequent to the Arbitrator’s Adjudication wherein it
was declared that the clear, precise and convincing
evidence both direct and circumstantial demonstrates
various acts of fraud, mismanagement, conspiracy,
breach of fiduciary responsibilities, violations of bylaws
and the Articles of Incorporation in seizing corporate
funds and assets, depletion of corporate bank accounts
by Defendant, and further that the unlawful diversions of bank funds by Bishop Shelton to himself and
to others named herein for his or their benefit were
and are continuing breaches of Defendant’s fiduciary
responsibility to the corporation.
The July amendments having been made without
affording Anthonee Patterson and his officers and
trustees the opportunity to participate in their being
promulgated constitutes an invalid and improper
abuse of authority and is in direct conflict with the
Chancellor’s Conclusions and Decree.
Assuming, however, that the amendments were
appropriately enacted, the removal of Bishop Shelton
form his corporate positions under the Nonprofit
Corporation Law is well within the Chancellor’s
authority, while deferring from removing him from his

93a
position of General Overseer. Poesnecker v. Ricchio,
158 Pa Commw 459, 831 A2d 1097 (1993).
Since the issuance of the Arbitrator’s Adjudication
on April 26, 2006, there have been filed in both the
Court of Common Pleas and United States District
Court a plethora of motions, all of which have been
denied. The motions seek to restrain the Arbitrator
from issuing a FINAL DECREE following the Receiver’s
analysis and study. Constitutional issues have been
raised along with jurisdictional questions that were
never noted prior or during the hearing on the merits
of the 16-year-old controversy. The parties agreed in
open court and in ADR Options common law agreement that the decision of the Arbitrator was binding
with no appeals from the AWARD, and only the merits
of the controversy were to be considered.
The decision of the U.S. Court of Appeals for the
Eleventh Circuit is worth noting. In B.L. Harbert
Intl. LLC v. Hercules Steel Co., 441 F3d 905 (11th Cir.
2006), the Court, weary of receiving groundless appeals
from Arbitration Awards, declared that the appellant’s
position “did not come within shouting distance of any
basis to vacate the award, and threatened to sanction
future appellants who attempt to salvage arbitration
losses through litigation that has no sound basis in
law applicable to arbitration awards”. The Eleventh
Circuit made it very obvious, as has our Pennsylvania
Appellate Tribunals, that when parties agree to a final
and binding resolution of a dispute, that is what it is,
final and binding, and that’s with very few exceptions
none of which are herein applicable.
The Arbitrator decrees that the report of the
Receiver Adjudicating the facts found as a result of
his lengthy investigation and accounting is binding
and conclusive as no substantial objection has been

94a
offered, nor should it be set aside except for plain
mistake established by the party excepting by affirmative evidence, where not apparent on the face of the
report, APPEAL OF CHEW, 45 Pa 228 (1863).
Plaintiff together with his officers and assembly
shall have immediate access to the church and its
corporate facilities and conduct elections pursuant to
the Bylaws existing prior to April 2008. Entrance to
the Church, if needed, shall be secured by the Sheriff
of Philadelphia, his Deputies and any other agency
necessary to preserve peace, tranquility among the
members of the General Assemblies for both majority
and minority.
NAME Judge Edwin E. Navthons (Ret.)
ARBITRATOR
SIGNATURE /s/ Edwin E. Naythons
DATE July 25, 2006

95a
APPENDIX N
FINCOURT B. SHELTON & ASSOC., P.C.
By: Fincourt B. Shelton, Esquire
Identification No.: 31598
504 Main Street, Suite 100
Darby, Pennsylvania 19023
(610) 532-5550
Attorney for Plaintiff
————
COURT OF COMMON PLEAS
————
No. 2945
————
ANTHONEE PATTERSON,
Plaintiff,
vs.
KENNETH SHELTON,
————

Defendant.

July Term, 1995
————
PRAECIPE TO ENTER THE FINAL
ADJUDICATION AND DECREE
TO THE PROTHONOTARY:
Please enter the text of the attached Final
Adjudication and Decree from binding common law
arbitration upon the record.
/s/ Fincourt B. Shelton
Fincourt B. Shelton, Esquire
Attorney for Plaintiff

96a
FINCOURT B. SHELTON & ASSOC., P.C.
By: Fincourt B. Shelton, Esquire
Identification No.: 31598
504 Main Street, Suite 100
Darby, Pennsylvania 19023
(610) 532-5550
Attorney for Plaintiff
————
COURT OF COMMON PLEAS
————
No. 2945
————
ANTHONEE PATTERSON,
Plaintiff,
vs.
KENNETH SHELTON,
Defendant.
————
July Term, 1995
————
PRAECIPE TO ENTER THE ARBITRATION
AWARD UPON THE DOCKET
TO THE PROTHONOTARY:
Please enter the text of the attached adjudications
and orders from binding common law arbitration upon
the record as these have been confirmed by the
Honorable Judge Dych on July 10th, 2006:
1. Adjudication dated April 26, 2006;

97a
2. Order to appoint GlassRatner as Receiver,
dated May 5, 2006;
3. Supplemental Adjudication dated May 8, 2006;
4. Order to Appoint A Receiver, dated May 8,
2006; and
5. Amendment to the Adjudication dated May 16,
2006.
/s/ Fincourt B. Shelton, Esquire
Fincourt B. Shelton, Esquire
Attorney for Plaintiff

98a
APPENDIX O
2008 WL 9401359
Only the Westlaw citation is currently available.
THIS IS AN UNREPORTED PANEL DECISION
OF THE COMMONWEALTH COURT. AS SUCH,
IT MAY BE CITED FOR ITS PERSUASIVE
VALUE, BUT NOT AS BINDING PRECEDENT.
SEE SECTION 414 OF THE COMMONWEALTH
COURT’S INTERNAL OPERATING PROCEDURES.
————
COMMONWEALTH COURT OF PENNSYLVANIA
————
Nos. 1967 C.D.2006, 1968 C.D.2006
————
ANTHONEÉ J. PATTERSON
v.
KENNETH SHELTON, Appellant.
————
ANTHONEE PATTERSON
v.
KENNETH SHELTON.
————
Appeal of Bishop Roddy J. Shelton, II.
————
Argued Dec. 10, 2007
Decided Jan. 31, 2008
————

99a
BEFORE: McGINLEY, Judge, and PELLEGRINI,
Judge, and KELLEY, Senior Judge.
MEMORANDUM OPINION
KELLEY, Senior Judge.
In these consolidated appeals, Kenneth Shelton
appeals from the July 10, 2006 order of the Court of
Common Pleas of Philadelphia County (trial court)
denying his petitions to vacate arbitration award
and a supplemental adjudication and confirming the
arbitration award in the matter of Anthoneé J.
Patterson v. Kenneth Shelton, July Term 1995, No.
2945. Bishop Roddy J. Shelton (Roddy Shelton)
appeals from the July 19, 2006 order of the trial court
denying his petition to intervene in the matter of
Anthoneé J. Patterson v. Kenneth Shelton, July Term
1995, No. 2945.
In his appeal, Kenneth Shelton raises the issue of
whether the trial court erred in confirming the April
26, 2006 arbitration award and denying Kenneth
Shelton’s petitions to vacate the arbitration award and
the May 8, 2006 supplemental award. In his appeal,
Roddy Shelton raises the issue of whether the trial
court abused its discretion in denying his petition to
intervene in light of the fact that the underlying
litigation is ongoing and the determination of such
may affect any legally enforceable interest of Roddy
Shelton whether or not he may be bound by the
judgment in the action.
The Church of the Lord Jesus Christ (Church) was
founded in 1919 by Bishop S.C. Johnson and located
at 22nd and Bainbridge Streets (also referred to as
“Apostolic Square”) in Philadelphia, Pennsylvania.
The Trustees of the General Assembly of the Church
of the Lord Jesus Christ of the Apostolic Faith, Inc.

100a
(Corporation) is the secular arm of the Church and
was established as a nonprofit corporation in 1947.
The Corporation is governed by Pennsylvania’s Nonprofit Corporation Law of 1988 (Nonprofit Corporation
Law), 15 Pa .C.S. §§ 5101–5997, the articles of incorporation, and corporate bylaws. The Corporation is the
legal owner of all property of the Church.
The affairs of the Church are managed by the General Overseer/Bishop. The Corporation and all assets
are managed by the President and the Board of
Trustees. Whoever serves as the General Overseer of
the Church also serves as the President of the Board
of Trustees of the Corporation. The office of General
Overseer is a life term.
Bishop S. McDowell Shelton served as General
Overseer of the Church and President of the Corporation from 1961 until his death on October 13, 1991.
Upon Bishop S. McDowell Shelton’s death, a bitter
dispute arose over who was the rightful General
Overseer and President with the legal right to control
the Church and the Corporation and the assets
thereof.
These appeals are round two in the continuous
litigation between the parties in these cases over the
control of the Church and the Corporation. Round one
ended on April 10, 2001, when this Court affirmed the
trial court’s determination that as a result of the valid
action taken at the annual session of the General
Assembly1 in September 1992, specifically, confirming
Kenneth Shelton as General Overseer and President,
Kenneth Shelton is the rightful General Overseer of
the Church and President of the Corporation. See
1

The General Assembly is the annual session of the Church
congregation.

101a
Church of the Lord Jesus Christ of the Apostolic Faith,
Inc., (Pa.Cmwlth., Nos. 376 CD 2000, 559 CD 2000,
filed April 10, 2001), petition for allowance of appeal
denied, 567 Pa. 766, 790 A.2d 1019 (2001). Hence,
Patterson v. Shelton, Not Reported in A.2d (2008)
since September 1992, Kenneth Shelton has been
lawfully in control of the Corporation.
The action at issue in these consolidated appeals
began on or about July 24, 1995, when Anthoneé J.
Patterson (Patterson), as a member of the Church,
filed a complaint against Kenneth Shelton and Erik
Shelton, as members of the Church and as de facto
controllers of the Church and the Corporation and its
assets. Therein, Patterson alleged that on May 28,
1994, after due notice and upon a quorum of the
General Assembly, Patterson was duly confirmed as
General Overseer and President of the Corporation.
Patterson alleged further that despite the election of
Patterson as General Overseer and President of the
Corporation, Kenneth Shelton and Erik Shelton have
refused to relinquish control of the various accounts,
trusts and properties of the Corporation and that
Kenneth Shelton has assumed for himself the office of
General Overseer and President. Patterson alleged
further that Kenneth Shelton and Erik Shelton have
taken de facto control of the Corporation and its
property and have operated the same in total disregard of the interests of the members and requirements
of law.
Patterson alleged that Kenneth Shelton and Erik
Shelton have failed to present an annual report of
financial affairs and activities as required by Section
5553 of the Nonprofit Corporation Law,2 for the years
2

15 Pa.C.S. § 5553. Section 5553 provides that the board of
directors shall present annually to the members a report for the

102a
1991 through 1994. Patterson alleged that Kenneth
Shelton and Erik Shelton have systematically looted
the Corporation’s accounts and trusts as well as the
regular Church collections.
Therefore, Patterson requested the following relief
pursuant to Section 5793(b) of the Nonprofit Corporation Law: 3 (1) the appointment of a receiver to take
control of the property, accounts and records of the
Corporation; (2) an order requiring Kenneth Shelton
and Erik Shelton, or alternatively the receiver, to
issue annual financial reports for the years 1991,
1992, 1993 and 1994; (3) an accounting of all funds
fiscal year immediately preceding the date of the report detailing:
(1) the assets and liabilities of the corporation; (2) the principal
changes in assets and liabilities of the corporation; (3) the
revenue or receipts of the corporation; (4) the expenses or disbursements of the corporation; and (4) the number of the members of the corporation as of the date of the report.
3

15 Pa.C.S. § 5793(b). Section 5793 governs review of contested corporate action and provides as follows:
(a) GENERAL RULE.—Upon petition of any person
whose status as, or whose rights or duties as, a member,
director, member of an other body, officer or otherwise of
a nonprofit corporation are or may be affected by any
corporate action, the court may hear and determine the
validity of such corporate action.
(b) POWERS AND PROCEDURES.—The court may
make such orders in any such case as may be just and
proper, with power to enforce the production of any books,
papers and records of the corporation and other relevant
evidence which may relate to the issue. The court shall
provide for notice of the pendency of the proceedings under
this section to all persons affected thereby. If it is determined that no valid corporate action has been taken, the
court may order a meeting to be held in accordance with
section 5792 (relating to proceedings prior to corporate
action).

103a
removed from corporate or Church accounts or trusts
by Kenneth Shelton, Erik Shelton, and any persons
acting in combination with them; (4) an order confirming Patterson as General Overseer; and (5) an order
commanding that elections be held for such offices as
the court finds to be vacant.
After the filing of preliminary objections, answers,
and new matters, the matter was stricken by the
calendar judge on February 22, 1996. 4 In the meantime, as set forth above, it was finally determined by
this Court on April 10, 2001, that Kenneth Shelton
is the rightful General Overseer of the Church and
President of the Corporation.5

4
5

It is unclear from the record why the matter was stricken.

This Court’s April 10, 2001 decision involved three separate
equity actions which involved the fundamental question of who
had the legal right to control the Corporation and the property.
The three actions docketed in the trial court were: (1) Fincourt B.
Shelton, as Minister Asher Ben Judah, Treasurer of the General
Assembly of the Church of the Apostolic Faith, Inc. and Fincourt
B. Shelton, Individually and on behalf of All Members of the
Church Aggrieved By the Actions of Kenneth Shelton and Erik
Shelton v. Kenneth Shelton, Erik Shelton and Trustees of the
General Assembly (June Term 1992, No. 1887, Court of Common
Pleas of Philadelphia County); (2) Church of the Lord Jesus
Christ of the Apostolic Faith, Inc., and the Trustees of the General
Assembly of the Church of the Lord Jesus Christ of the Apostolic
Faith, Inc. v. Fincourt Shelton and Anthoneé J. Patterson and
George E. Patterson, Sr. and A. Leah Gregory (July Term 1994,
No. 0914, Court of Common Pleas of Philadelphia County); and
(3) Church of the Lord Jesus Christ of the Apostolic Faith and
Roddy J. Nelson Shelton, I, General Overseer, and Roddy J.
Nelson Shelton, II, Trustee, and Frank Matthews, Trustee v.
Kenneth Shelton and Erik Shelton and Alonzo Woodard Reagan
and John Carlton Thomas and Daniel Bowens and George
Brown, Individually and As Trustees of the Church of the Lord

104a
On December 7, 2004, Patterson filed a motion to
reinstate his action with the trial court.6 On December
27, 2004, Kenneth Shelton filed an answer to the
motion for reinstatement. 7 Thereafter, an order was
Jesus Christ of Apostolic Faith, Inc. (August Term 1994, No. 3654,
Court of Common Pleas of Philadelphia County).
In the actions docketed at numbers 1887 and 3654, Roddy
Shelton, Anthoneé Patterson and Fincourt Shelton contested
the validity of elections which were held in 1991 and 1992, and
alleged, inter alia, that Kenneth Shelton and the Trustees
violated the corporate bylaws, failed to provide proper notice of
the meetings and elections, and illegally seized control by
removing a trustee and forcibly expelling members of the
congregation. In the action docketed at No. 0914, Kenneth
Shelton and the Trustees sought to prevent Anthoneé
Patterson and Fincourt Shelton from claiming control and
interfering with the assets of the Church and the Corporation.
By order dated November 3, 2004, Judge Younge: (1) dismissed
the action at number 3654 based on an agreement between all
parties in that action to withdraw all claims and cross claims;
(2) dismissed the action at number 1887 based on an agreement between the parties in that action to withdraw all claims
and cross claims; and (3) dismissed the action at number 0914
because the plaintiff agreed to withdraw all claims if all other
litigation was terminated.
6

Patterson requested reinstatement on the basis that he had
not received notice from the trial court scheduling the matter for
conference, that through some unknown clerical error, the docket
was noted that the matter was stricken on February 22, 1996,
and that no notice of said action was afforded any party to the
action.
7

In his answer, Kenneth Shelton denied the material
allegations of Patterson’s motion to reinstate. In his new matter,
Kenneth Shelton averred that Patterson’s complaint in this
action involved issues that were identical to the three consolidated actions at numbers 1887, 0914 and 3654 which had been
disposed of by the trial court. Kenneth Shelton averred further
that Patterson’s counsel, by letter dated March 13, 1996 to the
trial court, acknowledged: (1) that this action had been listed as

105a
entered on February 12, 2005 reinstating the action
and removing the notation from the docket that the
matter had been stricken on February 22, 1996.8
On November 30, 2005, Erik Shelton was voluntarily dismissed by Patterson as a defendant and the
matter proceeded solely against Kenneth Shelton.
On that same date, Patterson and Kenneth Shelton
agreed to proceed to binding arbitration with no right
of appeal and the same was memorialized in a written
order dated January 10, 2006. The January 10, 2006
order also stated that the case was dismissed from the
trial court by agreement of both parties. As such, the
matter proceeded to arbitration.
The arbitrator rendered his initial decision in this
matter on April 26, 2006. Therein, the arbitrator
determined that Kenneth Shelton held de facto control
over the Corporation and its property between October
13, 1991 until September 1992 when he was elected
General Overseer and President. The arbitrator determined that throughout the period of de facto control,
Kenneth Shelton violated the bylaws and articles of
a non-jury matter; (2) that the matter had been removed from the
trial list on the ground that it had been assigned to Judge Sabo
along with the three other related Church cases but was never
consolidated or any action taken thereon; and (3) that the matter
should be relisted but that as a practical matter, it would be best
to await disposition of the three related equity actions currently
on appeal to this Court. Therefore, Kenneth Shelton requested
that the trial court denying Patterson’s motion to reinstate based
upon: (1) the doctrine of waiver and res judicata; (2) the doctrine
of unclean hands because Patterson was attempting to have the
trial court re-list a case based upon a misrepresentation of the
record; and (3) the doctrine of laches because Patterson waited a
period of 8 years to request reinstatement to the prejudice of
Kenneth Shelton.
8

This order was entered by Judge Mazer Moss.

106a
the Corporation by accumulating pecuniary gain and
profit by systematically reducing the Corporation’s
accounts and trusts as well as the regular Church
collections, without making any regular reports
regarding the misappropriation of funds. The arbitrator found further that no accounting has ever been
given to the General Assembly since 1973.
Accordingly, the arbitrator determined that title to
the Corporation’s property rested with the faction who
acted in harmony with the laws, usages and customs
accepted by the body before the dispute and dissension
arose. The arbitrator found that Patterson was the
one who acted in harmony with the laws, usages and
customs accepted by the General Assembly before
the dispute and dissension arose but that before any
property could vest in Patterson’s faction, an accounting of all funds removed from the Corporate Church’s
accounts or trusts by Kenneth Shelton and any
persons acting in combination with him had to be
undertaken within thirty days with full discovery to
determine the amounts of misappropriations. The
arbitrator further ordered counsel for both parties to
undertake action to find a person or persons mutually
satisfactory to act as receiver to take control of the
property, accounts and records. The arbitrator further
ordered any elections for offices of General Overseer
and President shall await the final results of the
receiver’s report and accounting. Finally, the arbitrator ordered that any award requiring payment of
funds to be paid by Kenneth Shelton and the members
of the Board of Trustees under his administration
shall await the results of the accounting of all funds
described.
On May 8, 2006, the arbitrator issued a supplemental adjudication wherein he accepted Patterson’s

107a
recommendation of GlassRatner Management and
Realty Company (GlassRatner) to act as receiver
commencing immediately. Therein, the arbitrator
rejected Kenneth Shelton’s attack on his April 26,
2006 decision on the basis that the Church was not
named as a party in the initial complaint filed by
Patterson and hence there is a 14th Amendment
violation of taking property without due process. The
arbitrator determined that the attack was collateral
and in violation of the parties’ arbitration agreement.
The arbitrator stated that all procedural arguments
including standing and failure to join an indispensable
party were expressly waived prior to the commencement of the hearings before the arbitrator. The
arbitrator stated further that in any event even if the
Corporation were added as a party defendant, the
result would inevitably be the same as the corporate
veil would be pierced since the arbitrator has found
that failure to adhere to corporate formalities is a
factor to be considered in determining to pierce the
corporate veil as well as evidence of intermingling
of corporate and personal affairs. Thereafter, the
arbitrator issued an order on May 8, 2006 appointing
GlassRatner as receiver for the purpose of taking
control of the assets of the Church which are held by
the Trustees of the Corporation and setting forth the
receiver’s powers.
By order entered May 10, 2006, the trial court
confirmed the arbitrator’s April 26, 2006 decision in
favor of Patterson and against Kenneth Shelton and
entered judgment in conformity therewith. On May
12, 2006, judgment was entered on the binding
arbitration in favor of Patterson and against Kenneth
Shelton. On May 19, 2006, the trial court vacated the
order entered May 10, 2006 and directed Patterson to
file a motion to confirm the award no later than May

108a
27, 2006. On May 26, 2006, Kenneth Shelton filed a
petition to vacate the April 26, 2006 arbitration award.
On June 5, 2006, Kenneth Shelton filed a supplemental petition to vacate the arbitrator’s May 8,
2006 supplemental adjudication. On June 6, 2006,
Patterson filed an emergency petition to confirm the
arbitration award. Answers to the various petitions/
motions were filed.
By order dated July 10, 2006, the trial court denied
Kenneth Shelton’s petitions to vacate and confirmed
the arbitration award pursuant to Section 7341 of the
Judicial Code, 42 Pa.C.S. § 7341, on the basis that
the arbitration was binding with no right of appeal.
On July 20, 2006, judgment was entered in favor of
Patterson and against Kenneth Shelton.
On July 13, 2006, Roddy Shelton filed a petition to
intervene on the basis that according to the Church’s/
Corporation’s customs, practices, bylaws, etc., he is the
rightful successor as leader of the Church/Corporation
as he is the rightful successor to Bishop S. McDowell
Shelton and is the only party with “clean hands.” By
order of July 19, 2006, the trial court dismissed Roddy
Shelton’s petition to intervene as moot in light of the
trial court’s July 10, 2006 order.
On July 26, 2006, Kenneth Shelton appealed
the trial court’s July 10, 2006 order to the Superior
Court which transferred the matter to this Court on
September 22, 2006.9 Roddy Shelton appealed the trial
9

On October 12, 2006, a praceipe to enter judgment in favor of
Patterson and against the Trustees of the Corporation and the
Church headed by Kenneth Shelton was filed with the trial court.
On November 2, 2006, a motion to intervene was filed with the
trial court by the Trustees. The motion to intervene was denied
by order of November 17, 2006 and entered November 21, 2006.
The trial court determined that the Trustees waited too long to

109a
court’s July 19, 2006 order to this Court and the two
appeals were consolidated for disposition by this
Court. 10 We will first address Kenneth Shelton’s
appeal.
Kenneth Shelton contends that the trial court erred
in confirming the arbitrator’s award because the April
26, 2006 award was not final, the award is an irregularity that has led to an unconscionable result, and the
arbitrator exceeded the scope of the arbitration by
deciding doctrinal issues and by going beyond the 1991
to 1994 time period expressed in the complaint.
As recently stated by this Court in Jefferson
Woodlands Partners, L.P. v. Jefferson Hills Borough,
881 A.2d 44, 48– 49 (Pa.Cmwlth.2005):
Pursuant to Section 7341 [of the Judicial Code], 42
Pa.C.S. § 7341, common law arbitrations are “binding and may not be vacated or modified unless it is
clearly shown that a party was denied a hearing or
that fraud, misconduct, corruption or other irregularity caused the rendition of an unjust, inequitable
or unconscionable award.” An “irregularity refers
to the process employed in reaching the result of
the arbitration, not to the result itself.” Gargano v.
Terminix Internat’l Co., L.P., 784 A.2d 188, 193 (Pa.
Super.2001). It is well-settled that a common law
arbitration award is not reviewable on the basis of
an error of law or fact. Borgia [v. Prudential Ins. Co.,
request intervention. The Trustees appealed to this Court from
that order on December 15, 2006, which is docketed in this Court
at 2338 C.D.2006.
10

This matter is appealable as of right to the Commonwealth
Court pursuant to our not-for-profit corporation jurisdiction
under Section 762(a)(5) of the Judicial Code, 42 Pa.C.S.
§ 762(a)(5).

110a
561 Pa. [434,] 440, 750 A.2d [843,] 846 [ (2000) ];
Hade v. Nationwide Ins. Co., 519 Pa. 227, 546 A.2d
615 (1988). Finally, an award may also be corrected
if the arbitrator exceeds the scope of his authority.
Gargano; Ginther v. United States Fid. & Guar. Co.,
632 A.2d 333 (Pa.Super.1993). See also Sley Sys.
Garages v. Transport Workers Union of America,
406 Pa. 370, 178 A.2d 560 (1962).
With the foregoing in mind, our review of the
arbitrator’s April 26, 2006 decision in this matter
leads us to the conclusion that the arbitrator clearly
went beyond the scope of his authority. As stated
previously herein, this action began in July 1995 when
Patterson filed a complaint against Kenneth Shelton
and Erik Shelton. Therein, Patterson challenged
Kenneth Shelton’s status as General Overseer and
President of the Corporation and alleged, inter alia,
that he was the rightful General Overseer and
President of the Corporation and that despite this fact,
Kenneth Shelton refused to relinquish control of
the various accounts, trusts and properties of the
Corporation. Patterson alleged further that Kenneth
Shelton had taken de facto control of the Corporation
and its property and had operated the same in total
disregard of the interests of the members and
requirements of law. Patterson also alleged that
Kenneth Shelton failed to present an annual report of
financial affairs and activities as required by Section
5553 of the Nonprofit Corporation Law, 15 Pa.C.S.
§ 5553, for the years 1991 through 1994.
Therefore, Patterson requested certain relief pursuant to Section 5793(b) of the Nonprofit Corporation
Law including the appointment of a receiver to take
control of the property, accounts and records of the
corporation, an order requiring Kenneth Shelton, or

111a
alternatively the receiver, to issue annual financial
reports for the years 1991, 1992, 1993 and 1994, an
accounting of all funds removed from Corporate or
Church accounts or trusts by Kenneth Shelton or
others acting with him, an order confirming Patterson
as General Overseer, and an order commanding that
elections be held for such offices as the court finds to
be vacant.
Also, as stated previously herein, after the action
brought by Patterson was stricken by the calendar
judge on February 22, 1996, Patterson filed a motion
to reinstate his action on December 7, 2004. An order
was entered on February 12, 2005 reinstating the
action and removing the notation from the docket that
the matter had been stricken. As the record reflects,
the motion to reinstate and the grant of the same
occurred well after this Court’s determination by
opinion and order dated April 10, 2001, which determined that Kenneth Shelton is the rightful General
Overseer of the Church and President of the Corporation, and shortly after the trial court dismissed, based
upon agreement of the parties, the three equity actions
underlying our decision.
Accordingly, the only relief remaining that was
obtainable, if Patterson prevailed, when this matter
was reinstated was the relief he sought pursuant to
Sections 5553 and 5793(b) of the Nonprofit Corporation Law. Specifically, the only relief available is an
accounting of the Corporation’s financial dealings for
the years 1991, 1992, 1993 and 1994, and a determination as to whether Kenneth Shelton had misappropriated assets during that time period and an order
requiring Kenneth Shelton to issue annual financial

112a
reports for the years 1991, 1992, 1993 and 1994. 11
Therefore, when the trial court ordered, by agreement
of the parties, that this matter be submitted to
arbitration, the foregoing were the only issues before
the arbitrator. The remaining issues had already been
settled between the initial filing of Patterson’s action
in July 1995 and the reinstatement of the same in
February 2005.12 However, in rendering a decision the
arbitrator clearly went beyond this scope in more than
one respect.
The arbitrator first exceeded the scope of the
arbitration in his April 26, 2006 decision by going
beyond the 1991 to 1994 time period. The arbitrator’s
decision clearly covers the time period 1991 to 1998.
See Decision of Arbitrator dated April 26, 2006.
The arbitrator next exceeded the scope of the
arbitration by deciding the issue of who should be in
control of the Church’s property. The arbitrator opined
that because there was a division in the Church’s
congregation and a battle as to its property rights, it
was his duty as a court of equity to determine in which
faction title to the Church property rests. Id. at 15–16.
The arbitrator found that the preponderance of the
11

We note that Patterson’s July 1, 2005 motion to file an
amended complaint changing the scope of the relief sought to the
time period 1991 to the present was denied by order entered July
8, 2005.
12

It is clear from the record in this matter that the trial court
should have been aware, before it granted Patterson’s motion for
reinstatement, of the three related equity actions decided by
Judge Younge determining that Kenneth Shelton was in rightful
control as the General Overseer and President of the Corporation
as of September 1992. See Certified Record, Petition/Motion
Cover Sheet Accompanying Kenneth Shelton’s Answer to
Patterson’s Motion to Reinstate Case to Trial List.

113a
evidence was in favor of Patterson and determined
that the property owned by the Church and the
Corporation should vest in Patterson’s minority
faction because Patterson was able to show that he
acted in harmony with the laws, usage and customs
accepted by the General Assembly before the dispute
and dissension arose. Id. at 16. To effectuate this
“vesting”, the arbitrator ordered that an accounting of
all funds removed from the “Corporate Church’s”
accounts or trust by Kenneth Shelton or any persons
acting in combination with him should be undertaken
with full discovery to determine the amounts of
misappropriations within 30 days and that the parties
undertake action to find a person or persons to act as
a receiver to take control of the property, accounts and
records. Id. The arbitrator further ordered that any
elections for the offices of General Overseer and
President of the Corporation await the final results of
the receiver’s report and accounting. Id.
By ordering the foregoing actions, the arbitrator
clearly went beyond the scope of the arbitration, which
was to determine whether Patterson was entitled to
relief under the Nonprofit Corporation Law. In
essence, the arbitrator ordered the removal of the
control of the assets and property of the Corporation
and the Church from the Trustees and Kenneth
Shelton, as the rightful General Overseer and
President of the Corporation, and placed the same into
the hands of Patterson through the appointment of a
receiver chosen by Patterson.

114a
This not only violates the Corporation’s bylaws13 but
also does not comply with the Nonprofit Corporation
Law.
Section 5764 of The Nonprofit Corporation Law permits a member of a corporation to make an application
to the court for the appointment of a custodian of a
corporation on deadlock or other cause including if any
of the conditions specified in Section 5981, which
13

As pointed out by this Court in our April 10, 2001 decision,
the Corporation’s bylaws provide that the General Overseer, by
virtue of the office, shall always be a Trustee and the President
of the Board of Trustees and shall continue to hold these offices
during his lifetime. The bylaws provide further that upon the
death of the General Overseer, the General Assembly shall elect
a successor. The “General Assembly” is the annual session of the
Church congregation. Article I of the Bylaws. “Any session called
by the General Overseer shall also be designated as a general
assembly and shall have all the rights and powers and authority
of the annual general assembly.” Id. The bylaws further provide
that the “quorum for the transaction of business before the
General Assembly shall be fifty members voting before matters
of the General Assembly.” Article IV of the Bylaws. “A majority
of those present and voting shall determine such matters of the
General Assembly, except in the case of the election of officers,
which is otherwise provided for here in these By-laws.” Id.
In our April 10, 2001 decision we affirmed the trial court’s
finding that a valid meeting of the General Assembly was
held in September 1992 at Apostolic Square. The testimony
revealed that approximately 5,000 members were in attendance. We held that according to the bylaws, this constituted a
quorum for the transaction of business. A majority of those
present and voting unanimously elected Kenneth Shelton as
the General Overseer. We held that the trial court properly
found that Kenneth Shelton, having been confirmed as
General Overseer, automatically became President of the
Corporation according to the bylaws. Based upon our review of
the record, we determined that the trial court’s findings were
supported by substantial evidence and were not in violation of
the law or corporate bylaws.

115a
relates to proceedings upon petition of any member,
exist with respect to the corporation. 14 A review of
14

Section 5764 provides in pertinent part as follows:

(a) General Rule.—The court, upon application of any member,
may appoint one or more persons to be custodians of and for
any nonprofit corporation when it is made to appear:
(1) That at any meeting for the election of directors the
members are so divided that they have failed to elect
successors to directors whose terms have expired or
would have expired upon the qualification of their
successors; or
(2) that any of the conditions specified in section 5981
(relating to proceedings upon petition of any member,
etc.) exists with respect to the corporation.
15 Pa.C.S. § 5764.
Section 5981 reads in pertinent part:
The court may, upon petition filed by a member or director of
a nonprofit corporation, entertain proceedings for the involuntary
winding up and dissolution of the corporation, when any of the
following are made to appear:
(1) That the objects of the corporation have wholly failed; or
are entirely abandoned, or that their accomplishment is
impracticable.
(2) That the acts of the directors, or those in control of the
corporation, are illegal, oppressive, or fraudulent, and
that it is beneficial to the interests of the members that
the corporation be wound up and dissolved.
(3) That the corporate assets are being misapplied or
wasted, and that it is beneficial to the interest of the
members that the corporation be wound up and
dissolved.
(4) That the directors or other body are deadlocked in the
management of the corporate affairs and the members
are unable to break the deadlock, and that irreparable
injury to the corporation is being suffered or is
threatened by reason thereof.
15 Pa.C.S. § 5981.

116a
Patterson’s allegations contained in his complaint
reveal that he is not requesting that a custodian/
receiver be appointed for any of the reasons permitted
in the Nonprofit Corporation Law. The allegations
of the complaint clearly show that Patterson is
not seeking dissolution of the Corporation due to the
alleged misapplication or wasting of the Corporation’s
assets/property but is only in fact seeking to replace
Kenneth Shelton as General Overseer and take control
himself of the Church and the Corporation.
This is evidenced further by the arbitrator’s May
8, 2006 “Order to Appoint a Receiver” wherein the
arbitrator states that “the evidence adduced during
arbitration that [Patterson] representing the minority
faction is entitled to the appointment of a receiver for
the purpose of taking control of the assets of the
Church of the Lord Jesus Christ which are held by the
Trustees of the General Assembly of the Church of
the Lord Jesus Christ of the Apostolic Faith, Inc.,
currently headed by [Kenneth Shelton].” See May 8,
2006 Order. The arbitrator in the May 8, 2006 order
appointed GlassRatner, an entity chosen by Patterson,
to act as receiver and to take control of all of the
Church’s and the Corporation’s assets and property.
Id. The arbitrator also ordered that, during the
receiver’s period of control of the “church property”
and prior to returning the same to “Bishop Patterson”,
Kenneth Shelton and the Trustees were enjoined from,
inter alia, possessing or managing the property and
from interfering in any way with possession or
management of the property by the receiver. Id.
Accordingly, the arbitrator went well beyond the
scope of his authority by deciding who was to be
in control and possession of Church property and
ordering that the assets of the Church/Corporation be

117a
first turned over to a receiver for an accounting prior
to being returned to Patterson. Again, the arbitrator
was only authorized to determine if Kenneth Shelton
had misappropriated the Corporation’s assets/funds
and if so, whether Patterson was entitled to an
accounting of the Corporation’s assets for the time
period 1991 to 1994. As such, the trial court erred by
confirming the arbitrator’s April 26, 2006 and May 8,
2006 decisions and orders.
Therefore, the trial court’s July 10, 2006 order
denying Kenneth Shelton’s petition and supplemental
petition to vacate and confirming the arbitrator’s
award is reversed. In addition, this matter is
remanded to the trial court with instructions to vacate
the arbitrator’s April 26, 2006 decision and any decisions rendered by the arbitrator after that date and for
the trial court to conduct the proper proceedings
consistent with this opinion to determine whether
Patterson is entitled to relief pursuant to Sections
5553 and 5793(b) of the Pennsylvania Nonprofit
Corporation Law as alleged in his complaint filed July
24, 1995.
We now turn to Roddy J. Shelton’s appeal from
the July 19, 2006 order of the trial court denying his
petition to intervene as moot in light of the trial court’s
July 10, 2006 order confirming the arbitration
award. 15 The gist of Roddy Shelton’s argument that
15

The Pennsylvania Rules of Civil Procedure which apply to
interventions are set forth at Pa.R.C.P. Nos. 2326–2350. One
wishing to intervene is required to file a petition to intervene,
“setting forth the ground on which intervention is sought and a
statement of relief or defense which the petitioner desires to
demand or assert.” Pa.R.C.P. No. 2328. Whether or not to grant
a petition is within the discretion of the trial court. Stanbro v.

118a
the trial court erroneously denied his petition to
intervene is based on his position that he is the
rightful General Overseer and President. Notwithstanding the fact that this issue was finally decided by
this Court on April 10, 2001 as set forth above, the
trial court did not abuse its discretion by denying the
petition to intervene. Bishop Roddy J. Shelton did not
seek to intervene in this matter until July 13, 2006,
which was more than a year after Patterson’s action
was reinstated by the trial court and three days after
the trial court issued its order confirming the
arbitration award. Accordingly, the trial court’s July
19, 2006 order is affirmed.
ORDER
AND NOW, this 31st day of January, 2008, it is
hereby ordered as follows:
1. The order of the Court of Common Pleas of
Philadelphia County, at No. 2945 July Term, 1995,
dated July 19, 2006, denying the petition to intervene
filed by Bishop Roddy J. Shelton, II, is affirmed.
2. The order of the Court of Common Pleas of
Philadelphia County, at No. 2945 July Term, 1995,
dated July 10, 2006, vacating Kenneth Shelton’s
petition and supplemental petition to vacate and
confirming the arbitration award, is reversed.
3. This matter is remanded with instructions to
vacate the arbitrator’s April 26, 2006 award/decision
and any decisions rendered by the arbitrator after that
date and for the trial court to conduct the proper
proceedings consistent with the foregoing opinion to
Zoning Hearing Board of Cranberry Township, 566 A.2d 1285
(Pa.Cmwlth.1989), petition for allowance of appeal denied, 526
Pa. 644, 584 A.2d 325 (1990).

119a
determine whether Anthoneé J. Patterson is entitled
to relief pursuant to the Pennsylvania Nonprofit
Corporation Law.
4. Jurisdiction relinquished.

120a
APPENDIX P
2015 WL 9260536
Only the Westlaw citation is currently available.
THIS IS AN UNREPORTED PANEL DECISION
OF THE COMMONWEALTH COURT. AS SUCH,
IT MAY BE CITED FOR ITS PERSUASIVE
VALUE, BUT NOT AS BINDING PRECEDENT.
SEE SECTION 414 OF THE COMMONWEALTH
COURT’S INTERNAL OPERATING PROCEDURES.
COMMONWEALTH COURT OF PENNSYLVANIA
————
No. 2147 C.D.2014.
————
ANTHONEE PATTERSON,
Appellant
v.
KENNETH SHELTON, individually and in his capacity
as President of the Board Of Trustees, of the Church
of the Lord Jesus Christ of the Apostolic Faith, Inc.
————
Submitted July 2, 2015
Filed Dec. 18, 2015
————
MEMORANDUM OPINION
BEFORE: BERNARD L. McGINLEY, Judge, and
PATRICIA A. McCULLOUGH, Judge, and JAMES
GARDNER COLINS, Senior Judge.
McGINLEY, Judge.

121a
Anthonee Patterson (Patterson) appeals from the
order of the Court of Common Pleas of Philadelphia
County (trial court) which granted Bishop Kenneth
Shelton’s (Shelton) motion to dismiss on the trial
court’s determination that it lacked subject matter
jurisdiction.
I. Factual and Procedural Background
This procedural and factual history is recounted in
this Court’s memorandum opinion in the case of
Patterson v. Shelton, (Pa.Cmwlth., No. 2396 C.D.2011,
filed March 6, 2013), slip opinion, appeal denied, 78
A.3d 1092 (Pa.2013).
This marks the [fifth] time this Court has been
called upon to review action by the [trial court] in the
underlying tangle of controversies involving a religious schism which has spanned over two decades. In
all, seven lawsuits were instituted by various parties
against a church, its corporate trustee and various
officials in the Court of Common Pleas of Philadelphia
County, Court of Common Pleas of Delaware County,
and United States District Court for the Eastern
District of Pennsylvania.1
1

These lawsuits are recounted in more detail in this Court’s
previous opinion in Church of the Lord Jesus Christ of the
Apostolic Faith, Inc. v. Shelton, (Pa.Cmwlth. Nos. 376 C.D.2000
and 559 C.D.2000, filed April 10, 2001). See also Church of the
Lord Jesus Christ of the Apostolic Faith, Inc., et al, v. Roddy
Shelton, II, 740 A.2d 751 (Pa.Cmwlth.1999), for an insightful
history of this complex and protracted dispute. See also Joseph
Askew v. Trustees of the General Assembly of the Church of the
Lord Jesus Christ of the Apostolic Faith, Inc., 644 F.Supp.2d
584 (E.D.Pa.2009) (“Askew I “) and Joseph Askew v. Trustees of
the General Assembly of the Church of the Lord Jesus Christ
of the Apostolic Faith, Inc., 776 F.Supp.2d 25 (E.D.Pa.2011)
(“Askew II”).

122a
The key players involved in the present offshoot of
the controversy are: (1) the Church of the Lord Jesus
Christ of the Apostolic Faith (the “Church”), an unincorporated association, founded in 1919; (2) the “Trustees of the General Assembly of the Church of the Lord
Jesus Christ of the Apostolic Faith, Inc.”, (the “Corporate Trustee”), a Pennsylvania nonprofit corporation
formed in 1947 to act as the trustee and hold property
in trust for the Church2; (3) Patterson, a life-long member, elder, and minister of the Church; and (4) Shelton,
the current “Bishop” and/or “Overseer” of the Church
and “President” of the Corporate Trustee.
The dispute began in 1991 when then-Bishop S.
McDowall Shelton, died, leaving vacancies in the
offices of “Overseer” of the Church and “President” of
the Corporate Trustee. Immediately upon Bishop S.
McDowall Shelton’s death, Shelton and his “faction”
took control of the accounts, trusts and properties of
the Church and Corporate Trustee. After extensive
litigation initiated by two other dissident factions of
the Church congregation [3] over the leadership of the
Church and Corporate Trustee, the trial court ultimately determined, and this Court later affirmed, that
Shelton and his Board of Trustees were in control.4
2

The Corporate Trustee’s Charter provided that the purpose
for which it was formed was to “take, receive, have and hold and
manage real and personal property in trust for the uses and
purposes specified by the General Assembly of the Church” and
that said purposes did “not contemplate pecuniary gain or profit
incidental or otherwise to its members.” Charter, June 27, 1947,
at 1; Reproduced Record (R.R.) at 266a.
3
4

Patterson was the leader of one such faction.

See Church of the Lord Jesus Christ of the Apostolic Faith,
Inc. v. Shelton, (Pa.Cmwlth. Nos. 376 C.D.2000 and 559
C.D.2000, filed April 10, 2001).

123a
[II. Patterson’s Prior Appeal To This Court]
On July 24, 1995, Patterson, as life-long member,
elder and minister of the Church, commenced an
action in equity against Shelton, in Shelton’s individual capacity and as the President of the Board of
Trustees of the Corporate
Trustee.5 Patterson alleged that since taking control
of the Church and Corporate Trustee in 1991, Shelton
and his Board of Trustees have misappropriated funds,
“looted the Church’s assets,” paid themselves salaries
in contravention of Church By–Laws, and funded
private expenditures, lavish vacations, lingerie, cars,
homes and other personal incidentals with assets
which were donated and designated for Church religious and charitable missions.6
Patterson requested, inter alia: (1) the appointment
of a receiver to take control of the assets of the Church
held by the Corporate Trustee; (2) an order requiring

5

Erik Shelton was also named as a Defendant but on
November 30, 2005, he was voluntarily dismissed from the
lawsuit.
6

Specifically, Patterson alleged that Shelton took physical
possession of cash offerings designated for the Church from
churches throughout the Eastern United States and converted
them to his own use; converted $111,537 from the Gresham
Trust, a fund held for the benefit of Church members in need of
social services; converted $111,533 from a Church account held
at Fidelity National Bank; converted $10,585 from the Church’s
“Bus Rally Money Account;” converted $64,000 from a Church
account at Commonwealth Federal and Loan which was dedicated for youth studies; and converted $8,000 from two accounts
at Mid Atlantic Bank donated by Church members for the purpose of financially assisting the Church’s international missions.
Complaint, ¶¶ 12(a)-(f) at 5–7; R.R. at 127a–129a.

124a
Shelton to issue annual financial reports for the years
1991, 1992, 1993, and 1994; and (3) an accounting.
The parties engaged in discovery. Patterson
retained James A. Stavros, CPA (Stavros), a forensic
financial investigator, to analyze the finances and
expenditures of the Church and the Corporate
Trustee. Stavros authored a report which detailed
his findings that Shelton and his Board of Trustees
withdrew hundreds of thousands of dollars from
Church accounts with no accounting of where the
funds went and that they expended Church funds
on a significant amount of “personal” items and
expenditures that appeared to be outside the normal
course of business and outside Church laws and
customs. 7 He concluded that Church accounts had
declined by nearly $1 million under Shelton’s
control.8
In January 2006, the parties agreed to submit to
binding arbitration. The Arbitrator concluded that
the credible evidence established that Shelton had
engaged in various acts of fraud, mismanagement,
conspiracy, breach of fiduciary responsibilities, [and]
violations of By-laws and the Articles of Incorporation
in seizing corporate funds and assets and depleting
bank accounts designated for Church-related purposes. The Arbitrator concluded that Shelton had
diverted Church funds and assets to himself and
others for his and their benefit. The Arbitrator
appointed a receiver and directed Shelton to account
7

This included vacations all over the world including, but not
limited to: Cannes, France, Disney World, Switzerland, and
purchases from stores such as Victoria’s Secret.
8

Shelton did not retain a financial expert to counter
Patterson’s report.

125a
for all Church funds removed by him or those acting
with him.
Shelton filed a motion to vacate the award which the
trial court denied. On appeal, this Court overturned
the arbitration award because the arbitrator went
beyond the scope of his authority in fashioning
relief. See Shelton v. Patterson, 942 A.2d 967
(Pa.Cmwlth.2008). This Court remanded the matter
to the trial court to determine whether Patterson
was entitled to relief under the [Nonprofit Corporation Law of 1988, 15 Pa.C.S. §§ 5101–5997] NCL.
On remand, Shelton moved for summary judgment
on the ground that Patterson lacked “statutory
standing” under Section 5782 of the NCL, 15 Pa.C.S.
§ 5782. Shelton argued that only an officer, director,
or member of a nonprofit corporation has “statutory
standing” to enforce a right of a nonprofit corporation through a derivative action. Section 5782 of the
NCL, 15 Pa.C.S. § 5782, which is contained in Subchapter F governing “derivative actions,” provides:
Actions against directors, members of an other body
and officers
(a) General rule—Except as provided in subsection
(b), in any action or proceeding brought to enforce a
secondary right on the part of one or more members
of a nonprofit corporation against any present or
former officer, director or member of an other body
of the corporation because the corporation refuses to
enforce rights that may properly be asserted by it,
each plaintiff must aver and it must be made to
appear that each plaintiff was a member of the
corporation at the time of the transaction of which
he complains. (Emphasis added.)
15 Pa.C.S. § 5782.

126a
Shelton pointed to the Corporate Trustee’s Articles
of Incorporation which limited its membership in
the nonprofit corporation to its Board of Trustees.
Shelton asserted that because Patterson was never
a member of the Board of Trustees he was never a
“member” of the Corporate Trustee, and thus, he
had no “statutory standing” to bring claims that are
derivative of the Corporate Trustee’s rights.
The trial court agreed that under Section 5782 of the
NCL, Patterson could only bring suit if he was a
member of the Corporate Trustee at the time of the
alleged events outlined in the Complaint. The trial
court looked to Article IX of the Articles of Incorporation which states: “membership in the corporation [Corporate Trustee] shall consist of those persons serving as members of the Board of Trustees.”
The trial court concluded that because Patterson
had never been a member of the Board of Trustees
he was not a member of the Corporate Trustee.
The trial court reasoned that because the NCL
created the cause of action and designated who may
sue; standing was a jurisdictional prerequisite
to any action. Grom v. Burgoon, 672 A.2d 823
(Pa.Super.1996). The trial court “finding no possible
way to affirm that [Patterson] has standing”
granted the motion for summary judgment and
dismissed the case. Trial Court Opinion, January
25, 2012, at 3.
Patterson, slip opinion at 1–6.
III. This Court’s Analysis And
Disposition Of Patterson’s Prior Appeal
[This Court rationalized in Patterson]:
An example of derivative claims previously asserted
against the Corporate Trustee and Shelton (and

127a
others) is found in the related case commenced by
Joseph Askew (Askew) in the United States District
Court for the Eastern District of Pennsylvania in
2009. See footnote 1
In Askew I, Askew, who claimed to be a member
of the Church, brought an eight-count complaint
against Shelton, the Corporate Trustee and the
other managers of the Corporate Trustee (collectively “Defendants”). In Count II, Askew alleged
breach of fiduciary duty owed to the Corporate
Trustee. In Count IV, Askew alleged that the Board
of Trustees failed to present the members of the
Corporate Trustee with an annual report containing
specific financial information under Section 5553 of
the NCL. In Count V, Askew sought the removal of
Shelton as President of the Corporate Trustee.
Defendants moved to dismiss these counts because
Askew lacked standing under the NCL to bring
derivative claims.
The [United States] District Court agreed that these
claims were derivative because any alleged failure
to satisfy a supposed duty of loyalty and care owed
to the Corporate Trustee would “injure [ ] only that
corporation.” Askew I, 644 F.Supp.2d at 590. The
United States District Court determined Count IV
was also a derivative claim because that section
guarantees a nonprofit corporation “the right to selfknowledge” and that “[a]ny right that Section 5553
may confer is a right of the corporation, and a claim
to encore [sic] this section necessarily falls within
the ambit of Section 5782.” Askew I, 644 F.Supp
2d at 590 (Emphasis added.) As for Count V, the
[United States] District Court found that under
Section 5726 of the NCL, a court is only empowered

128a
to remove a director “upon petition of any member
or director” of the nonprofit corporation. Id.
....
The [United States] District [C]ourt concluded that
since Askew was not a member or director of the
Corporate Trustee, he did not have “statutory standing” to seek these kinds of relief.
Even though the [United States] District Court
found that Counts II, IV and V were derivative
claims, the [United States] District Court explained
that Askew’s claims in Counts I and VI for breach of
fiduciary duty to the Church and unjust enrichment
for misappropriation of Church funds were not
derivative of the Corporate Trustee’s rights. Therefore, they were not claims “that only the Corporation’s [Corporate Trustee] members directors or
officers can bring.” Askew I, 644 F.Supp. at 590.
....
Similarly, in Askew I, the [United States] District
Court determined, and this Court concurs, that the
members of a Church’s congregation suffer injury
when the Church’s assets, which were held in trust,
are misused. Askew I, 644 F.Supp.2d at 591. The
[United States] District Court clarified that only
through Askew’s membership in the Church was he
qualified to bring an action on behalf of the Church
under Fed.R.Civ.P. 23.1 (governing standing to
bring derivative actions on behalf of unincorporated
associations).[ 9 ]

9

In Askew II, the District Court went on to find that Askew
was not a “member” of the Church because he was expelled
through the procedures in Article XIII of the Church’s By–Laws.

129a
Here, there is no question that Patterson was a
member of the Church when he instituted the
action.[ 10 ] As a member of the Church congregation,
Patterson was part of the beneficiary class for which
the Corporate Trustee held the Church’s assets in
trust. As such, he has standing to bring this action
to enforce his own rights and the rights commonly
held by all beneficiaries to obtain restoration to the
Church of its full losses. Thus, the action should not
have been dismissed due to lack of standing under
the NCL.
As noted, the Church is an unincorporated association. This Court notes that its conclusion that
Patterson has standing is also wholly consistent
with principles governing standing to sue on behalf
of an unincorporated association. See Pa.R.C.P. No.
2152 (action by unincorporated association must be
brought in name of member as trustee ad litem).[ 11 ]
Patterson, slip opinion at 9–10 and 16–17.
This court reversed the order of the trial court
and remanded to the trial court to conduct a trial on
the remaining factual and legal issues raised in
Patterson’s complaint.

10

Shelton argues that Patterson was not a member of the
Church congregation because he “abandoned” the Church. However, the record demonstrates that the Church never took any
action to remove Patterson. Article XIII of the Church By-laws
provided a method for the expulsion or suspension of members.
The Church could have used those procedures to remove
Patterson who Shelton alleges abandoned the Church, but it did
not do so.
11

To hold otherwise would, as a practical matter, insulate
these most serious allegations from judicial review.

130a
IV. Patterson’s Present Appeal
On July 15, 2014, the trial court commenced a nonjury trial. Patterson offered the following proof
regarding Rita Bolognese’s (Bolognese) testimony, a
senior paralegal and records custodian for BNY
Mellon. “She will testify to bank records which we
have in our possession, that they’re authentic, and
that from there, certain transactions we will be
questioning with other witnesses once we’ve
established that they are true and correct copies of
those records.” Trial Transcript, July 15, 2014, (T.T.
7/15/14) at 29; Reproduced Record (R.R.) at 694a. The
trial court responded “[s]o your argument is that she
is going to testify about these records ... [a]nd I assume
it’s the operative time of 91 to 94?” T.T. 7/15/14 at 30;
R.R. at 695a. Patterson’s attorney 12 responded
“[t]hat’s correct.” T.T. 7/15/14 at 30; R.R. at 695a.
Bolognese recounted that she was authorized to
serve as records custodian for the bank. T.T. 7/15/14 at
34; R.R. at 699a. Bolognese was provided with an
affidavit from Susan McGivern, her supervisor, as to
the scope of what she could testify to as custodian of
records for BNY Mellon. T.T. 7/15/14 at 35–36; R.R. at
700a–71a. Following a lunch break, the trial court
stated that “[t]his case has a real problem in that
plaintiff’s attorney [Patterson] has not produced all
of the records recently to the defendant [Shelton]. This
is a 20– year–old case. This case is going slowly.” T.T.
7/15/14 at 40–41; R.R. 705a–06a. The trial court
adjourned for the day and ordered the parties “to

12

In order to avoid confusion between Bishop Kenneth Shelton
and Fincourt B. Shelton, this Court will refer to Fincourt B.
Shelton as Patterson’s attorney.

131a
provide to the other side copies of every single document that party intends to introduce into evidence, as
well as a list of every single witness that attorney
intends to call in this case. Failure to provide copies of
the document today to opposing counsel will result in
my precluding the document from being introduced
into evidence.” T.T. 7/15/14 at 41; R.R. at 706a.
On July 16, 2014, before the commencement of
Bolognese’s testimony, the trial court issued the
following order, “I’m denying the motion to deem the
admissions admitted for a variety of reasons, including
the fact that . . . [y]ou [Patterson’s attorney] did not
include in this motion even what the request for
admissions of the third set were, you included the
second set.” Trial Transcript, July 16, 2014, (T.T.
7/16/14) at 12; R.R. at 720a. At that time, Bolognese
again took the stand and stated that “[w]hen we [took]
over the bank [Mellon PSFS], we took over the records
of PSFS . . . [a]nd in course of . . . changing over the
accounts, we had possession of the PSFS documents.”
T.T. 7/16/14 at 23; R.R. at 23a. In response to the trial
court’s query, Bolognese admitted that she was unable
to testify that “this document was prepared in the
course of business of PSFS.” T.T. 7/16/14 at 24; R.R. at
732a.
On cross-examination, defense counsel, Danielle
Banks (Banks) asked the following question:
Q: So with regard to this particular document—
A: Right.
Q: This particular document was not—you don’t
have knowledge yourself that it was kept in the
normal course, correct?
A: No.

132a
Q: And did someone else tell you that it was kept, in
the normal course?
A: Well, it would be someone from legal support
that would tell me. Someone did tell me, yes.
T.T. 7/16/14 at 41–42; R.R. at 749a–50a.
At the conclusion of Bolognese’s testimony, the trial
court ruled:
And everyone is in agreement that the testimony from
Mrs. Bolognese would be that she does not have any
direct knowledge regarding how these documents
were made or whether the record was made at or near
the time or from information transmitted by someone
with knowledge. So based on her inability to provide
that testimony, I’m sustaining the objection to any
questions or the introduction into evidence of those
documents. (Emphasis added.)
T.T. 7/16/14 at 76–77; R.R. at 784a–85a.
Joseph Sweeny (Sweeny), an employee of Firstrust
Bank, testified that he was familiar with financial
transactions at Firstrust Bank. Sweeny stated that
the withdrawal process for removal of funds from an
account “would be where an individual or individuals
would sign a withdrawal order and it would be
processed at the teller station and they would either
get cash or a check.” T.T. at 86; R.R. at 794a.
On cross-examination, Sweeny testified that he had
personal knowledge concerning Exhibit B “because my
initials are on there.” T.T. 7/16/14 at 90; R.R. at 798a.
The trial court ruled that “I’m going to allow the
document [Exhibit 9 was ‘copies of two withdrawals,
two different account numbers’] to be introduced into
evidence. It’s not relevant for him to read what’s in
there. It’s already into evidence.” T.T. 7/16/14 at 93–

133a
95; R.R. at 801a–03a. At the conclusion of Sweeny’s
testimony, the trial court directed Patterson’s attorney
to proceed with his next witness. Patterson’s attorney
was unable to call his next witness because none of his
witnesses responded to the subpoenas. The trial court
adjourned for the day and stated that “[s]o what we’re
going to do tomorrow, we’ll start court at 10:15 . . . [a]nd
Mr. Shelton you’ll tell us who your next witnesses
are .” T.T. 7/16/14 at 121–22; R.R. at 829a–30a.
On July 17, 2014, Patterson’s attorney called Bishop
Kenneth Shelton to the stand. At that time, Banks
stated to the trial court that “I have two objections . . .
[o]ne a procedural argument, and one a Constitutional
one.” Trial Transcript, July 17, 2014, (T .T. 7/17/14) at
3; R.R. at 832a. More specifically, Banks stated that
Pa. R.C.P. No. 234.2 “says the notice shall be served
reasonably in advance of the date upon which attendance is required.” T.T. 7/17/14 at 4; R.R. at 832a. “And
here, Your Honor, when we have posed a subject
matter jurisdiction challenge to the Bishop being
here—this is not just any trial. This is about a church
and the goings-on in the church.” T.T. 7/17/14 at 4–5;
R.R. at 832a–33a. The trial court responded that “[a]s
an initial matter, I need to make a decision whether or
not I have subject matter jurisdiction in this case . . . .”
(Emphasis added.) T.T. 7/17/14 at 25; R.R. at 838a.
Again, the trial court adjourned and reiterated “let me
just say this one more time. We’ll get an e-mail from
[Patterson’s attorney] by 7:00 tonight whether or not
he’ll be calling any factual witnesses to establish
subject matter jurisdiction.” (Emphasis added.) T.T.
7/17/14 at 33; R.R. at 840a.
On July 28, 2014, the trial court entertained arguments concerning two motions, the “first with the
defendant’s [Shelton’s] motion to strike the portion of

134a
the caption that identifies the plaintiff [Patterson] in
the capacity as the corporate trustee....” Trial Transcript, July 28, 2014, (7/28/14) at 3, R .R. at 847a. After
argument, the trial court ordered that “I will grant the
motion to strike the caption. The plaintiff [Patterson]
did not ask leave of court, and it could potentially
make a difference. However, I will grant leave to
amend the caption at this point.” T.T. 7/28/14 at 21;
R.R. at 852a. The trial court then addressed “the
motion for subject matter jurisdiction.” T.T. 7/28/14 at
22; R.R. at 852a. After argument, the trial court stated
“I’m going to defer my decision on this issue . . . [a]t this
point, I’m still struggling, and I think I’m struggling
because I don’t have that much evidence, at which
point I’ll let counsel know that I want to hear further
argument on this issue.” T.T. 7/28/14 at 55; R.R. at
860a.
On July 29, 2014, the trial court continued to hear
argument on whether it had subject matter jurisdiction. Patterson argued:
I think there’s more than enough here for you
to find that there’s a neutral principle, that
you can look at the bank records, that you can
look at what the title on the account is, and if
it says bus rally and you find that three or
four trustees personally went to the bank,
took it out as cash, whatever and however
they did it, and the records reflect that, then
you would have to, I think, come to the
decision that not only did Kenneth Shelton,
but those trustees serving under him were all
involved in misappropriation of church funds
during those years.
Trial Transcript, July 29, 2014, (T.T. 7/29/14) at 20;
R.R. at 891a.

135a
Banks responded:
I want to make sure also that the record is clear . . . .
It is Article 18, wherein the bylaws specifically say
. . . ‘[t]he tithes and offerings of whatever kind,
nature or collection by any elder, local minister, or
any officer or member is the property of the general
elder, who is the general overseer, and that all tithes
and love offerings are the personal property of the
general overseer .’. . . .
Here, Your Honor, even without the bylaws, the
Court wouldn’t have jurisdiction. With the bylaws
there can be no question, the Court has no jurisdiction. Under these bylaws, Bishop Shelton as the
general overseer is the church’s highest adjudicatory body. I submit to you that by denying the
allegations, he has spoken to them and that is the
end of this matter.
T.T. 7/29/14 at 27; R.R. at 893a. The trial court
concluded:
Based upon the arguments, based upon the
case, I am granting the motion to dismiss. I
do not have subject matter jurisdiction. In
order for me to make a determination in this
case, I would have to interpret religious
doctrine of [sic] this court and the First
Amendment prohibits me from doing so.
T.T. 7/29/14 at 40; R.R. at 896a.
V. Issues
Before this Court, Patterson essentially argues 13 :
1) that the trial court failed to follow this Court’s
13

This Court’s review is limited to a determination of whether
the trial court abused its discretion or erred as a matter of law.
Mid Valley Taxpayers v. Mid Valley School, 416 A.2d 590

136a
express directive and conduct a trial on the merits;
2) that the trial court erred as a matter of law when
it determined it lacked subject matter jurisdiction
to address Patterson’s claim of mismanagement and
diversion of Church assets and funds by Shelton;
3) that the trial court erred when it denied admission
of various financial records and documents as business
records under Pennsylvania Rules of Evidence 803
(Exception to the Rule against Hearsay); 4) that the
trial court erred when it denied Patterson’s motion in
limine “to deem [Patterson’s] request as admitted
based upon [Shelton’s] inadequate answers”; and
5) that the present matter should be remanded back
to the trial court. 14 Brief of Appellant, Statement of
Questions Presented at 5–6.

(Pa.Cmwlth.1980). Furthermore, the decision of the trial court
will stand “if there exists sufficient evidence to justify the findings and logically sound, reasonable inferences and conclusions
derived therefrom.” Groff v. Borough of Sellersville, 314 A.2d 328,
330 (Pa.Cmwlth.1984).
14

The trial court made the following rulings on the evidentiary
motions presented by both parties:
Evidentiary Motions
1.

The court denied the Plaintiff’s [Patterson’s] Motion in
Limine to Deem as Admitted Plaintiff’s Requests for
Admissions.

2.

The court granted the Defendant’s [Shelton’s] Motion in
Limine to preclude any evidence regarding expenditures beyond the time period of 1991–1994.

3.

The court granted Defendant’s [Shelton’s] Motion
in Limine to Preclude any Evidence Regarding the
Vacated Arbitration in this Matter.

4.

The court deferred until trial its decision in the
Defendant’s [Shelton’s] Motion in Limine to Preclude
the Presentation of Testimony by Plaintiff’s

137a
The issue of subject matter jurisdiction was raised
and argued before the trial court and ably disposed of
[Patterson’s] Expert. The court now dismisses without
prejudice the motion because it is moot.
5.

The court deferred until trial its decision in Defendant’s
[Shelton’s] Motion in Limine to Preclude Irrelevant
Witness Testimony. The court now dismisses without
prejudice the motion because it is moot.

6.

The court deferred until trial its decision in the
Plaintiff’s [Patterson’s] Motion in Limine Seeking an
Adverse Inference against Defendant’s [Shelton’s] Due
to Spoliation of Evidence. The court now dismisses
without prejudice the motion because it is moot.

7.

The court denies without prejudice the Plaintiff’s
[Patterson’s] Motion for Reconsideration it [sic] ruling
on the Records of Regularly Conducted Business
Exception to the Hearsay Rule as moot.

Motions Regarding The Caption
8.

The court granted Defendant’s [Shelton’s] Motion to
Strike the Plaintiff’s [Patterson’s] Unilateral Caption
Change and struck the portion of the Caption that
refers to the Defendant [Shelton] as the President of the
Board of trustees of the General Assembly of the
Church of the Lord Jesus Christ of the Apolistic [sic]
Faith, Inc.

9.

The court granted Plaintiff’s [Patterson’s] Motion for
Leave to Amend the Caption to include the Defendant
[Shelton] in his capacity as the President of the Board
of Trustees of the General Assembly of the Church of
the Lord Jesus Christ of the Apolistic [sic] Faith, Inc.

Motions Regarding Subpoenas
10. All subpoenas served for these proceedings and any
findings of contempt are hereby vacated.
11. The court dismisses without prejudice the Motion to
Quash the subpoena duces tecum of Nathaniel
Shelton–Bailey as moot.
Order of the Trial Court, July 31, 2014, at 1–2.

138a
in the opinion of the Honorable Alice Beck Dubow,
Judge of the Court of Common Pleas of Philadelphia
First District of Pennsylvania Civil Trial Division.
Therefore, this Court shall affirm on the basis of Judge
Dubow’s opinion. 15 Patterson v. Shelton, (July Term,
1995, No. 2945), filed November 10, 2014.
ORDER
AND NOW, this 18th day of December, 2015, the
order of the Court of Common Pleas of Philadelphia
County in the above-captioned matter is affirmed.

15

Because the trial court properly determined that it lacked
subject matter jurisdiction, Patterson’s remaining arguments are
moot.

139a
COURT OF COMMON PLEAS OF PHILADELPHIA
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
————
No. 2945
————
ANTHONEÉ PATTERSON
v.
KENNETH SHELTON
————
JULY TERM, 1995
————
CIVIL TRIAL DIVISION
————
OPINION
A. INTRODUCTION
On August 1, 2014 the trial court granted the
Motion to Dismiss of Appellee Kenneth Shelton
(“Appellee”) on the grounds that the trial court did not
have subject matter jurisdiction. The crux of the
allegations in the Complaint was that the Appellee,
the head of the Church of the Lord Jesus Christ of
the Apostolic Faith (“the Church”), misappropriated
church funds during the time period of 1991–1994.
This court, applying the Deference kule, determined
that it could not adjudicate this dispute without
interpreting church doctrine and concluded that the
court lacked subject matter jurisdiction, On August g,
2015 the Appellant Anthone6 Patterson (“Appellant”)
appealed this dispositive decision. (See Docket).

140a
In particular, the Appellant commenced the instant
case nineteen years ago. on July 17, 1995, and this
litigation has a long and complicated procedural history, including multiple reviews by the Commonwealth
Court of Pennsylvania (“Commonwealth Court”). (See
Docket). Likewise, during the nineteen year life of the
case, various courts, both state and federal have
decided a myriad of legal and factual issues.1 This
appeal. however. involves the singular issue of
whether the trial court properly held that the trial
court, under the Deference Rule, lacked subject matter
jurisdiction. This court decided no other issues that
are relevant to this appeal.
The parties presented few facts to trial court when
presenting their positions. In fact. the attorney for
the Appellant chose to present no facts to support
his position that the trial court had subject matter
jurisdiction. The attorney for the Appellee introduced
into evidence the Bylaws of the Church. Based on
this and the allegations in the Complaint, the trial
court concluded that it did not have subject matter
jurisdiction.
B. LEGAL DISCUSSION
1. The Appellant Failed to Present Any
Evidence to Establish Subject Matter
Jurisdiction.
It is well established that “a plaintiff bears the
unquestioned burden of establishing jurisdiction where
the question of the sufficiency of his jurisdictional
1

The most recent Commonwealth Court Opinion dealt primarily with the issue of whether the Appellant had standing to
proceed with this Complaint. The Commonwealth Court did nor
address whether the trial court had subject matter jurisdiction
over this dispute.

141a
allegations is before the court on a motion to dismiss”.
Itri v. Eauibank, N.A. 318 Pa.Super. 268. 278–79, 464
A.2d 1336, 1341 (1983) (internal citations omitted),
Further, the court can decide questions of subject matter jurisdiction at any time during the judicial proceedings. Encelewski v. Associated–E. Mortgage Co.,
262 Pa.Super. 205, 210. 396 A.2d 717, 719 (1978).
In the instant case. the Appellee raised the issue of
whether this court had subject matter jurisdiction in a
pre-trial motion, which was denied.2 and again during
the trial. in light of judicial economy, the trial court
decided that it should bifurcate this issue and hear the
factual and legal basis for the issue before proceeding
on the remaining issues in the trial.
The trial court gave the parties a full day to provide
evidence to support each party’s position regarding
subject matter jurisdiction. (N.T. 7/17/14 p. 28–32).
Despite being given this time to present evidence to
support the Appellant’s position. the Appellant chose
to present no evidence whatsoever, (N.T. 7/28/14 p.
32–33). The Appellee introduced the church’s Bylaws
into evidence to support the Appellee’s position that
the trial court lacked subject matter jurisdiction.
Since the Appellant failed to introduce any evidence
to meet his burden that the trial court had jurisdiction,
the trial court determined that the Appellant failed to
meet his burden of establishing that he had subject
matter jurisdiction.

2

The trial court did not find the denial of the Motion for
Summary Judgment to be dispositive of the issue of subject
matter jurisdiction because the trial court judge who denied the
motion did not issue art Opinion.

142a
2. Subject M.atfer Jurisdiction is Barred by the
Deference Rule
The other basis for dismissing the Complaint in this
matter is that the trial court could not adjudicate the
issues in this case by applying neutral principles of
law. Therefore. the Deference Rule precludes the trial
court from retaining subject matter jurisdiction.
Pennsylvania courts recognize the “the longstanding common-law precept known as the Deference
Rule which precludes civil courts from exercising
jurisdiction over cases that would require them to
decide ecclesiastical questions.” Connor v. Archdiocese
of Philadelphia, 601 Pa. 577. 579. 975 A.2d 1084. 1085
(2009). However, there is one exception called the
“neutral principles of law approach” which allows
“civil courts to exercise jurisdiction over cases involving religious institutions that can be decided based on
secular legal authority.” Id. at 585–586. In order to
apply the “neutral principals of law approach” there
must be an ability to resolve the legal issues without
delving into church matters. See Connor.
The Pennsylvania Supreme Court has recently laid
out a three prong approach to determining whether
the Deference Rule should apply:
“Therefore, we conclude that in determining
whether to apply the deference rule, the factending court must: (1) examine the elements
of each of the plaintiffs claims; (2) identify
any defenses forwarded by the defendant; and
(3) determine whether it is reasonably likely
that at trial, the fact-finder would ultimately
be able to consider whether the parties carried their respective burdens as to every element of each of the plaintiffs claims without

143a
‘intruding into the sacred precincts.’” Id. at
607–608 (internal citations omitted).
Various decisions from other jurisdictions lend guidance and support the trial court’s decision in the
instant matter. In Bible Way Church of Our Lord
Jesus Christ of Apostolic Faith of Washington, D.C. v.
Beards. 680 A.2d 419 (D.C.1996) the plaintiff brought
an action against a church asserting claims including
negligent accounting of church funds and reporting to
church members. The District of Columbia Court of
Appeals held that the trial court lacked subject matter
jurisdiction and stated, “a church’s financial regime
including any required reports to members, necessarily reflects an array of decisions about a member’s
obligation to pledge funds and about the leaders’
corresponding responsibility to account for those
funds, that a civil court cannot arbitrate without
entangling itself in doctrinal interpretations . . .
Accounting is an area riddled with major subjective
decisions. When the entity in question is a religious
society, those subjective decisions raise questions of
internal church governance which are often themselves based on the application of church doctrine.” Id.
at 429.
Similarly, in Harris v. Matthews. 361 N.C. 265, 273,
643 S.E .2d 566, 571 (2007), the plaintiff’s alleged
conversion of funds, breach of fiduciary duty and civil
conspiracy. The Supreme Court of North Carolina held
that the trial court lacked jurisdiction and that the
First Amendment of the United States Constitution
mandates that when a church’s dispute “cannot be
resolved using neutral principles of law the courts
must intrude no further.” Id. at 570.
Further, the court held that “determining whether
actions, including expenditures by a church’s pastor,

144a
secretary, and chairman of the Board of Trustees were
proper requires an examination of the church’s view of
the role of the pastor, staff, and church leaders. their
authority and compensation, and church management. Because a church’s religious doctrine and practice affect its understanding of each of these concepts,
seeking a court’s review of the matters presented here
is no different than asking a court to determine
whether a particular church’s grounds for membership
are spiritually or doctrinally correct or whether a
church’s charitable pursuits accord with the congregation’s beliefs. None of these issues can be addressed
using neutral principles of law.” Id. at 571.
In the instant case the Complaint alleges breach of
fiduciary duty and fraud in the form of misappropriation of church funds. (See Complaint). The duty
owed by an officer or director is set forth in 15
Pa.Cons.Stat.Ann. § 512. This provides that directors
and officers shall discharge the duties of their positions “in good faith and with the diligence, care and
Skill which ordinary prudent men would exercise
under similar circumstances in like positions.” Further. “the test of liability of breach of fiduciary duty is
whether the director or officer WaS unjustly enriched.”
Resolution Trust Corp. v. Lutz. 914 F.Supp. 1163. 1166
(E.D.Pa.1996) (citing In re Specialty Tape Corp.
132 B.R. 297, 301 (W.D.Pa.1991) (internal citations
omitted)). The measure of damages for breach of
fiduciary duty is the profits lost as a consequence of
the breach. Id.
To prove a civil fraud claim, the following elements
must be proven by clear and convincing evidence: (1) a
representation: (2) which is material to the transaction at hand: (3) made falsely, with knowledge of its
falsity or recklessness as to whether it is true or false:

145a
(4) with the intent of misleading another into relying
on it: (5) justifiable reliance on the misrepresentation:
and (6) the resulting injury was proximately caused by
the reliance. Weissberger v. Myers, 2014 PA Super
80.90 A.3d 730, 735 (2014) (citing Milliken v. Jacono,
60 A.3d 133, 140 (Pa.Super.2012)).
In the instant case, the Appellant alleges that the
Appellee “routinely and flagrantly violat[ed] the
Bylaws of the Corporation . . . [and] systematically
loot[ed] the corporation’s accounts and trusts as well
as the regular Church collections,” (Complaint ¶ 11).
Additionally. “as a result of the . . . . acts of the
[Appellee], the corporation has become the personal
instrument of the [Appellee], its assets have been
depleted, it has been disabled in its religious and
charitable missions, and its members have become
disenfranchised.” (Complaint ¶ 13).
The Rules and By–Laws of The General Assembly of
the Church of the Lord Jesus Christ of the Apostolic
Faith (“Bylaws”)3 make it clear that the Appellee as
the General Overseer of the Church, is the highest
spiritual leader in the church and has absolute
discretion to make decisions regarding the use of
Church funds (See Bylaws),
In particular, the Bylaws provide. “the General
Overseer . . . is given blanket authority to conduct all
negotiations and closings in the purchasing, selling,
leasing, renting, or mortgaging of any property real of
personal for [the Church] . . . The tithes and offering of
whatever kind, nature or collection by any elder, local
minister, any other officer or member, is the property
of the (Appellee).” (Bylaws. Article II: Article IXVII).
3

Both parties stipulated that the controlling Church Bylaws
were from l962.

146a
Therefore, the Bylaws provide that all Church
property is the personal property of the Appellee.
Consequently, the Appellee cannot embezzle his own
personal property.
In order to determine whether or not the Appellee
was unjustly enriched, the trial court would have to
examine the reasonableness of the church’s customs as
expressed in the Church’s Bylaws.
Likewise, in order to decide whether the Appellee
committed a fraud by misappropriating funds the trial
court would have to determine whether the Bylaws,
which state that all funds are the personal property of
the Appellee, are equitable. Once again, a question
that would require the trial court to interpret the
Church’s governance, custom and doctrines.
After examining the elements of the claims, considering the defenses put forth by the Appellee, and
weighing whether or not the trial court could evaluate
the evidence without ‘intruding into the sacred precincts’ of the Church the trial court properly determined that the trial court could not address any of the
claims asserted in the Complaint using neutral principles of law and correctly found that the trial court
lacked subject matter jurisdiction.
C. CONCLUSION
The Appellant failed to present any evidence on
subject matter jurisdiction, and therefore failed to
meet his burden of production. Additionally based on
the evidence that the Appellee presented and the
allegations in the Complaint, the trial court properly
found that the trial court lacked subject matter
jurisdiction.

147a
BY THE COURT:
/s/
ALICE BECK DUBOW, JUDGE
November 10, 2014
DATE

148a
APPENDIX Q
175 A.3d 442
COMMONWEALTH COURT OF PENNSYLVANIA
————
No. 1312 C.D. 2016
————
ANTHONEE PATTERSON,
Appellant
v.
KENNETH SHELTON, Individually, and President
of the Board of Trustees of the General Assembly
of the Church of the Lord Jesus Christ
of the Apostolic Faith, Inc.
————
Submitted on Briefs March 24, 2017
Decided November 29, 2017
Reargument Denied January 16, 2018
————
Attorneys and Law Firms
Anthonee Patterson, pro se.
Danielle Banks, Philadelphia, for Appellee.
BEFORE: HONORABLE MARY HANNAH LEAVITT,
President Judge, HONORABLE PATRICIA A.
McCULLOUGH, Judge, HONORABLE JAMES
GARDNER COLINS, Senior Judge
————
Opinion
OPINION BY JUDGE McCULLOUGH

149a
Anthonee Patterson (Patterson) appeals, pro se, from
the July 14, 2016 order of the Court of Common Pleas
of Philadelphia County (trial court) denying his
motion to declare certain orders void based upon the
lack of subject matter jurisdiction.
Facts and Procedural History
The extensive procedural and factual history of this
matter is recounted in this Court’s unreported memorandum opinion in the case of Patterson v. Shelton,
2013 WL 3961047 (Pa. Cmwlth., No. 2396 C.D. 2011,
filed March 6, 2013), appeal denied, 621 Pa. 705, 78
A.3d 1092 (2013), wherein we summarized the same
as follows:
The key players involved in the present offshoot of
the controversy are: (1) the Church of the Lord Jesus
Christ of the Apostolic Faith (the “Church”), an
unincorporated association, founded in 1919; (2) the
“Trustees of the General Assembly of the Church of
the Lord Jesus Christ of the Apostolic Faith, Inc.”,
(the “Corporate Trustee”), a Pennsylvania nonprofit
corporation formed in 1947 to act as the trustee and
hold property in trust for the Church; (3) Patterson,
a life-long member, elder, and minister of the
Church; and (4) Shelton, the current “Bishop” and/or
“Overseer” of the Church and “President” of the
Corporate Trustee.
The dispute began in 1991 when then-Bishop S.
McDowall Shelton, died, leaving vacancies in the
offices of “Overseer” of the Church and “President”
of the Corporate Trustee. Immediately upon Bishop
S. McDowall Shelton’s death, Shelton and his
“faction” took control of the accounts, trusts and
properties of the Church and Corporate Trustee.
After extensive litigation initiated by two other

150a
dissident factions of the Church congregation over
the leadership of the Church and Corporate Trustee,
the trial court ultimately determined, and this
Court later affirmed, that Shelton and his Board of
Trustees were in control.
...
On July 24, 1995, Patterson, as life-long member,
elder and minister of the Church, commenced an
action in equity against Shelton, in Shelton’s individual capacity and as the President of the Board
of Trustees of the Corporate Trustee. Patterson
alleged that since taking control of the Church and
Corporate Trustee in 1991, Shelton and his Board of
Trustees have misappropriated funds, “looted the
Church’s assets,” paid themselves salaries in contravention of Church By–Laws, and funded private
expenditures, lavish vacations, lingerie, cars, homes
and other personal incidentals with assets which
were donated and designated for Church religious
and charitable missions.
Patterson requested, inter alia: (1) the appointment
of a receiver to take control of the assets of the
Church held by the Corporate Trustee; (2) an order
requiring Shelton to issue annual financial reports
for the years 1991, 1992, 1993, and 1994; and (3) an
accounting.
The parties engaged in discovery. Patterson
retained James A. Stavros, CPA (Stavros), a forensic
financial investigator, to analyze the finances and
expenditures of the Church and the Corporate
Trustee. Stavros authored a report which detailed
his findings that Shelton and his Board of Trustees
withdrew hundreds of thousands of dollars from
Church accounts with no accounting of where the

151a
funds went and that they expended Church funds
on a significant amount of “personal” items and
expenditures that appeared to be outside the normal
course of business and outside Church laws and
customs. He concluded that Church accounts had
declined by nearly $1 million under Shelton’s
control.[1]
In January 2006, the parties agreed to submit to
binding arbitration. The Arbitrator concluded that
the credible evidence established that Shelton had
engaged in various acts of fraud, mismanagement,
conspiracy, breach of fiduciary responsibilities, violations of By-laws and the Articles of Incorporation
in seizing corporate funds and assets and depleting
bank accounts designated for Church-related
purposes. The Arbitrator concluded that Shelton
had diverted Church funds and assets to himself
and others for his and their benefit. The Arbitrator
appointed a receiver and directed Shelton to account
for all Church funds removed by him or those acting
with him.

[1]

Patterson’s original complaint was stricken by the trial court
in 1996 for unknown reasons and reinstated upon Patterson’s
motion in 2004. However, during the interim, the trial court
determined that Shelton was the rightful General Overseer of the
Church and President of the Corporation. By decision dated April
10, 2001, this Court affirmed the trial court’s determination and
our Supreme Court denied separate petitions for allowance of
appeal. See Church of the Lord Jesus Christ of the Apostolic Faith
v. Shelton, 773 A.2d 1290 (Pa. Cmwlth., Nos. 376, 559 C.D. 2000,
filed April 10, 2001), appeals denied, 567 Pa. 766, 790 A.2d 1019
(2001) and 571 Pa. 709, 812 A.2d 1231 (2001).

152a
Shelton filed a motion to vacate the award which the
trial court denied. [[2] On appeal, this Court overturned the arbitration award because the Arbitrator
went beyond the scope of his authority in fashioning
relief. See Shelton v. Patterson, 942 A.2d 967 (Pa.
Cmwlth. 2008). This Court remanded the matter to
the trial court to determine whether Patterson was
entitled to relief under the [Pennsylvania Nonprofit
Corporation Law (NCL), 15 Pa.C.S. §§ 5101–5997].
On remand, Shelton moved for summary judgment
on the ground that Patterson lacked “statutory
standing” under Section 5782 of the NCL, 15 Pa.C.S.
§ 5782. Shelton argued that only an officer, director,
or member of a nonprofit corporation has “statutory
standing” to enforce a right of a nonprofit corporation through a derivative action.
...
Shelton pointed to the Corporate Trustee’s Articles
of Incorporation which limited its membership in
the nonprofit corporation to its Board of Trustees.
Shelton asserted that because Patterson was never
a member of the Board of Trustees he was never a
“member” of the Corporate Trustee, and thus, he
had no “statutory standing” to bring claims that are
derivative of the Corporate Trustee’s rights.
The trial court agreed that under Section 5782 of the
NCL, Patterson could only bring suit if he was a
member of the Corporate Trustee at the time of the
alleged events outlined in the Complaint. The trial
court looked to Article IX of the Articles of Incor[[2]

By order dated July 10, 2006, the trial court confirmed the
Arbitrator’s award in favor of Patterson and against Shelton
and entered judgment in conformity therewith.

153a
poration which states: “membership in the corporation [Corporate Trustee] shall consist of those
persons serving as members of the Board of
Trustees.” The trial court concluded that because
Patterson had never been a member of the Board of
Trustees he was not a member of the Corporate
Trustee. The trial court reasoned that because the
NCL created the cause of action and designated who
may sue; standing was a jurisdictional prerequisite
to any action. Grom v. Burgoon, 448 Pa.Super. 616,
672 A.2d 823 (Pa. Super. 1996). The trial court
“finding no possible way to affirm that [Patterson]
has standing” granted the motion for summary
judgment and dismissed the case.
Id., slip op. at 1–6 (emphasis in original). On appeal,
this Court reversed the order of the trial court, concluding that Patterson, as a member of the Church
congregation, was “part of the beneficiary class for
which the Corporate Trustee held the Church’s assets
in trust,” and, as such, had “standing to bring this
action to enforce his own rights and the rights commonly held by all beneficiaries to obtain restoration to
the Church of its full losses.” Id., slip op. at 16–17. We
remanded the matter to the trial court to conduct a
trial on the remaining factual and legal issues raised
by Patterson in his complaint.
On July 15, 2014, the trial court commenced a nonjury trial. During the course of the trial, an issue arose
as to whether the trial court had subject matter
jurisdiction over this dispute. Following argument, the
trial court concluded that it lacked such jurisdiction
because the matter requires interpretation of religious
doctrine and the same was prohibited by the First
Amendment. Hence, the trial court issued an order
granting a motion to dismiss filed by Shelton.

154a
Patterson appealed to this Court, but we affirmed the
trial court’s order, concluding that the trial court ably
disposed of the subject matter jurisdiction issue in its
opinion. Patterson thereafter sought allowance of
appeal with the Pennsylvania Supreme Court, but the
same was denied. Patterson subsequently filed a
petition for a writ of certiorari with the United States
Supreme Court, but the same was similarly denied.
Patterson’s Most Recent Motion
On May 27, 2016, Patterson filed a motion with the
trial court to determine certain orders void based on
the lack of subject matter jurisdiction. In his motion,
Patterson sought an order from the trial court “declaring that the January 31, 2008 Commonwealth Court
Order, and all other post-July 10, 2006 rulings/orders
not consistent with the judgments on the binding
common law arbitration award, are void . . . .” (Reproduced Record (R.R.) at 1015a.) Patterson alleged that
the trial court “finally determined what [he] has been
arguing all along–that there was no subject matter
jurisdiction as the parties had agreed to resolve all of
their disputes through binding, common law arbitration.” (R.R. at 1018a.) In sum, Patterson alleged that
only the 2006 binding arbitration award remained
valid and asked the trial court to declare as void all
post-July 10, 2006 rulings/orders that were inconsistent with that award because the courts lacked
subject matter jurisdiction to alter the same.
By order dated July 14, 2016, the trial court denied
Patterson’s motion.3 Patterson filed a notice of appeal
3

Shelton had filed a motion to strike Patterson’s motion as
moot, alleging that Patterson’s motion “defies logic and violates
bedrock principles of jurisdiction and substantive law.” (R.R.
at 1042a.) In this motion, Shelton also sought sanctions
for Patterson’s alleged bad-faith, frivolous motion. However, by

155a
with the trial court. The trial court thereafter issued
an opinion in support of its order explaining that
Patterson mischaracterizes its previous ruling regarding lack of subject matter jurisdiction. Contrary to
Patterson’s allegations, the trial court did not rule that
it lacked subject matter jurisdiction because of the
parties’ agreement to litigate through binding arbitration; but rather, the trial court ruled that it lacked
such jurisdiction due “to the Deference Rule, which
prohibits courts from exercising jurisdiction over cases
that would require them to decide ecclesiastical questions.” (R.R. at 1078a.) In other words, the trial court
explained that it had no ability “to decide religious
questions” and that its prior opinion “never mentions
the issue of jurisdiction as it relates to common law
arbitration.” (R.R. at 1079a.) Further, the trial court
explained that it was “without jurisdiction to strike
the Commonwealth Court’s January 2008 order vacating the Arbitration Award” and lacked the authority
to disturb an appellate court ruling. Id. For the same
reasons, the trial court noted that it had no power
to reinstate the arbitration award which had been
vacated on appeal.
On appeal to this Court,4 Patterson argues that
the trial court erred as a matter of law in denying
separate order of the same date, the trial court dismissed
Shelton’s motion to strike as moot in light of its order denying
Patterson’s motion.
4

This Court’s review is limited to a determination of whether
the trial court abused its discretion or erred as a matter of law.
Mid Valley Taxpayers v. Mid Valley School, 52 Pa.Cmwlth. 402,
416 A.2d 590, 592 (1980). Furthermore, the decision of the trial
court will stand “if there exists sufficient evidence to justify the
findings and logically sound, reasonable inferences and conclusions derived therefrom.” Groff v. Borough of Sellersville, 12
Pa.Cmwlth. 315, 314 A.2d 328, 330 (1984).

156a
his motion. More specifically, Patterson asserts that
because the courts of this Commonwealth lacked
subject matter jurisdiction over this dispute, all prior
decisions in this case are void ab initio and the
common law arbitration award that was improperly
vacated remains valid. Patterson also argues that his
due process rights have been violated by this Court
vacating the binding arbitration award and then
affirming the trial court’s determination that the
courts lacked subject matter jurisdiction over the dispute which purportedly implicates neutral principles
of law. Alternatively, Patterson requests that this
Court reinstate its previous order directing the trial
court to conduct a trial on the merits.
Discussion
Shelton’s Motion to Quash
Before we reach the merits of Patterson’s arguments, we must address a motion to quash filed by
Shelton.5 In this motion, Shelton alleges that
Patterson’s appeal is “not only improper, but is devoid
of any good faith legal basis and untethered to any
semblance of fact-based reality.” (Shelton’s Motion to
Quash at 11.) More specifically, Shelton alleges that
the matter is over as this Court invalidated the
arbitration award and affirmed the trial court’s order
dismissing Patterson’s complaint for lack of subject
matter jurisdiction, with our Pennsylvania Supreme
Court and United States Supreme Court rejecting any
further appeal of the latter. In other words, Shelton
describes our prior decisions as final and conclusive.
Shelton also states that our decision invalidating the
5

Shelton relies on Pa.R.A.P. 1972(3) and (7), which allow a
party to move to dismiss an appeal for want of jurisdiction or
for any other reason appearing on the record, respectively.

157a
arbitration award was based upon the well-established principle that an arbitrator cannot exceed the
scope of his authority and that no court can act without subject matter jurisdiction. Additionally, Shelton
alleges that the trial court has no authority to
invalidate an order of this Court.
However, Shelton’s allegations go directly to the
underlying merits of Patterson’s appeal, or, as
Patterson states in his response in opposition to the
motion to quash, constitute “an improper attempt to
litigate the merits of the appeal in a pre-trial motion.”
(Patterson’s Opposition to Appellee’s Motion to Quash
at 1.) Indeed, Shelton’s brief on the merits essentially
mirrors the arguments he raises in his motion to
quash. Therefore, we will deny Shelton’s motion to
quash.
Merits of Appeal
Turning back to the merits, Patterson contends
that this Court “rendered its own prior orders void,
by illegally interfering with the binding commonlaw arbitration and by recently ruling that the
Pennsylvania courts have no subject matter jurisdiction to address this matter.” (Appellant brief at 19.)
Patterson maintains that the last “valid judgment” is
the “confirmation of the [arbitration] [a]ward by the
[trial court].” Id. at 20. Alternatively, Patterson argues
that this Court must order a trial on the merits
because if the Pennsylvania courts had subject matter
jurisdiction to “interfere” with the arbitration award,
then the Pennsylvania courts are “obligated to resolve
the theft of the Church assets and funds.” Id. at 23
(emphasis in original). In the course of this argument,
Patterson reiterates his allegation that this Court
should never have reviewed the arbitration award
because the parties agreed that the arbitration was

158a
binding and non-appealable. Patterson suggests that
our decision with respect to the arbitration award
“altered the law of Pennsylvania concerning binding
common-law arbitration by turning that law upside
down in a non-precedential opinion applicable solely to
Patterson . . . .” Id. at 29. Ultimately, Patterson states
that the decision by the trial court that it lacked
subject matter jurisdiction, and our affirmance of that
decision, left him without a forum to resolve his
claims.
In response, Shelton first contends that the trial
court’s July 14, 2016 order was not a final order under
Pa.R.A.P. 341. Next, Shelton avers that any matters
relating to the arbitration award and any issue relating to subject matter jurisdiction have been finally
resolved and cannot be relitigated. Third, Shelton
states that the trial court has no authority to invalidate an order of this Court. Fourth, Shelton notes that
Patterson deliberately mischaracterizes the legal
basis for the trial court’s determination that it lacked
subject matter jurisdiction, i.e., it was completely
unrelated to the arbitration award. Shelton notes that
this Court relied on well-settled principles of law in
vacating said award. Finally, Shelton points to the
fundamental illogic of Patterson’s motion to the trial
court and subsequent appeal here, i.e., a court cannot
act without jurisdiction, yet he asks the trial court to
rule on his motion while implicitly asserting it was
without jurisdiction. In sum, Shelton contends that
Patterson’s current appeal to this Court is “not only
improper, but is devoid of any good faith legal basis
and unmoored to factual or legal reality.” (Shelton’s
brief at 10.)

159a
Pa.R.A.P. 341
We begin with Shelton’s contention that the trial
court’s July 14, 2016 order was not a final order under
Pa.R.A.P. 341. Pa. R.A.P. 341 provides, in relevant
part, as follows:
(a) General Rule.—Except as prescribed in paragraphs (d) and (e) of this rule, an appeal may be
taken as of right from any final order of a
government unit or trial court.
(b) Definition of Final Order.—A final order is any
order that:
(1) disposes of all claims and of all parties; or
(2) RESCINDED
(3) is entered as a final order pursuant to
paragraph (c) of this rule.
Shelton avers that the trial court’s order does not
satisfy any of the conditions above and that the final,
appealable order in this case was entered on August
1, 2014, when the trial court granted his motion to
dismiss for lack of subject matter jurisdiction and
effectively put Patterson out of court. Shelton notes
that Patterson had exhausted his appeals from that
order. We do not agree with Shelton.
Following the trial court’s dismissal of Patterson’s
complaint for lack of subject matter jurisdiction and
the exhaustion of his appeals therefrom, Patterson
filed the present motion with the trial court to
determine certain orders void based on the lack of such
jurisdiction. Patterson filed this motion under the
original 1995 docket number assigned by the trial
court. In essence, Patterson was seeking to follow-up
on the trial court’s holding that it lacked subject
matter jurisdiction. Shelton responded by filing a

160a
motion to strike Patterson’s motion and an accompanying brief. Patterson filed a response in opposition
to Shelton’s motion to strike and also filed a brief
in support of his motion. The trial court ultimately
denied Patterson’s motion in its July 14, 2016 order.
This order disposed of Patterson’s claim, effectively
putting him out of court. Hence, we conclude that said
order was a final, appealable order under Pa.R.A.P.
341.
Subject Matter Jurisdiction
Patterson argues that, because the trial court found
that it lacked subject matter jurisdiction over his
claims, a decision this Court affirmed, any orders
entered by this Court are void, thereby rendering the
Arbitrator’s award, as confirmed by the trial court, the
last valid judgment in this case. We agree.
In Hughes v. Pennsylvania State Police, 152
Pa.Cmwlth. 409, 619 A.2d 390, 393 (1992), appeal
denied, 536 Pa. 633, 637 A.2d 293 (1993), this Court
explained that “[i]t is hornbook law that subject
matter jurisdiction gives a court the power to decide a
controversy” and “whenever a court discovers that it
lacks jurisdiction over the subject matter or the cause
of action it is compelled to dismiss the matter under
all circumstances, even where we erroneously decided
the question in a prior ruling.” (Citations omitted)
(emphasis in original). Additionally, our Supreme
Court has held that a judgment by a court that lacks
subject matter jurisdiction constitutes a “void judgment” which “cannot be made valid through the passage of time.” M & P Management, L.P. v. Williams,
594 Pa. 489, 937 A.2d 398, 398 (2007).
In this case, Patterson’s original complaint filed
with the trial court sought relief under the NCL.

161a
The parties ultimately agreed to proceed to binding
arbitration in November 2005, with no right to appeal,
as memorialized in an order from the trial court dated
January 10, 2006. This order also dismissed the case
from the trial court per agreement of the parties.
Nevertheless, after the Arbitrator ruled in Patterson’s
favor, Shelton filed a petition to vacate the arbitration
award with the trial court. While the trial court
denied Shelton’s petition, this Court reversed the trial
court’s decision, vacated the arbitration award, and
remanded to the trial court for further proceedings
relating to these NCL claims. However, because this
Court affirmed the trial court’s decision concluding
that it lacked subject matter jurisdiction over his
remaining NCL claims on the basis that resolution of
the same would require the trial court to interpret
religious doctrine, something it was prohibited from
doing under the First Amendment,6 any prior decisions relating to the same are null and void. As a
result, the only valid, remaining determination in this
case is the binding arbitration award, as agreed to by
the parties in November 2005, and confirmed by the
trial court. As noted above, the trial court, by order
dated July 10, 2006, confirmed the Arbitrator’s award
and entered judgment in favor of Patterson and

6

Indeed, the law is well settled that “civil courts may
not decide purely religious matters.” Peters Creek United
Presbyterian Church v. Washington Presbytery, 90 A.3d 95, 104
(Pa. Cmwlth.), appeal denied, 628 Pa. 624, 102 A.3d 987 (2014)
(citing Jones v. Wolf, 443 U.S. 595, 99 S.Ct. 3020, 61 L.Ed.2d 775
(1979)). In Jones, the United State Supreme Court explained that
“the First Amendment prohibits civil courts from resolving
church property disputes on the basis of religious doctrine and
practice.” Jones, 443 U.S. at 602, 99 S.Ct. 3020.

162a
against Shelton in an order dated July 20, 2006.7 Thus,
Patterson’s remedy lies with enforcement of that
judgment.
Accordingly, the order of the trial court is reversed.
ORDER
AND NOW, this 29th day of November, 2017, the
motion of Kenneth Shelton to quash the appeal of
Anthonee Patterson is denied. The order of the Court
of Common Pleas of Philadelphia County, dated July
14, 2016, is hereby reversed, consistent with this
opinion.

7

A similar order was issued by the trial court on October 12,
2006, entering judgment in favor of Patterson. Additionally,
the final adjudication and decree of the Arbitrator was entered as
an order of the trial court on April 17, 2017. These orders, dated
July 10 and 20, 2006, October 12, 2006, and April 17, 2017,
collectively represent the last valid judgments in this case.

163a
APPENDIX R
DISTRICT OF COLUMBIA
COURT OF APPEALS
————
No. 16-CV-444
————
DR. MARCUS TURNER, SR., et al.,
v.

Appellants,

ALVA C. HINES, et al.,
————

Appellees.

Appeal from the Superior Court of the
District of Columbia
(CAB-1406-15)
————
(Hon. Robert D. Okun, Trial Judge)
————
(Argued May 10, 2017

Decided January 16, 2019)
————

Before GLICKMAN and EASTERLY, Associate Judges,
and FARRELL, Senior Judge.
————
MEMORANDUM OPINION AND JUDGMENT
PER CURIAM: Appellees, professed members of
Beulah Baptist Church of Deanwood Heights, sued
appellants – Dr. Marcus Turner, Sr., the Church’s
Pastor; Russell Moore, Jr., the former Chair of the
Church’s Trustee Board; and Beulah Community

164a
Improvement Corporation (BCIC), a non-profit secular
entity affiliated with the Church – in Superior Court
for breach of fiduciary duties, conversion, unjust
enrichment, and civil conspiracy. This appeal is from
the Superior Court’s denial of appellants’ motion to
dismiss the complaint on standing and First Amendment grounds.1 Appellants claim that (1) this court has
jurisdiction to review that denial in this interlocutory
appeal under the collateral order doctrine; (2) appellees
lack standing to maintain their suit because they are
not bona fide members of the Church; and (3) even
taking all the factual allegations of the complaint as
true, the suit must be dismissed at this juncture under
the First Amendment ecclesiastical abstention doctrine
as a matter of law. Appellees dispute each of those
claims.
We conclude that we have jurisdiction at this time
to review the Superior Court’s rejection of appellants’
First Amendment immunity claim, but not its rejection of their standing argument. We further conclude
that, at this early stage of the proceedings, the ecclesiastical abstention doctrine does not require dismissal
of the suit, because it appears that appellants’ liability
may be adjudicated under neutral principles of tort
law without infringing on appellants’ claimed First
Amendment immunity.
I. The Allegations of the Amended Complaint
The amended complaint is brought by eighteen individuals who allege that they are bona fide members
1

The court dismissed the claims against appellant Turner on
other grounds, namely res judicata, but it did not enter a separate
final judgment of dismissal for him and he remains a defendant
in the case. The dismissal of the complaint against Turner is not
the subject of the present appeal.

165a
in good standing of Beulah Baptist Church and
beneficiaries of the property held by the Church in
trust for its members.2 Their complaint charges that
appellant Turner, with the assistance of appellants
Moore and BCIC,3 abused that trust by engaging for
over a decade in a series of unauthorized, wasteful,
and improper transactions involving Church funds
and real property. The complaint alleges the following
as the main elements of this charge.
(1) Between 2003 and 2008, Turner and Moore,
purporting to act on behalf of the Church, purchased
at least seven properties in the Deanwood Heights
neighborhood and entered into at least five loan
agreements encumbering the Church’s real property.
The last of these loans enabled BCIC to borrow
$3.23 million in July 2008 (apparently to extinguish
the remaining accumulated debt on the previous
loans) with the Church as guarantor. This transaction
also involved an unauthorized and secret conveyance
of a valuable 3/4 -acre lot from the Church to BCIC for
no consideration in return. In violation of the 1997
Church Constitution then in effect, Turner and Moore
allegedly engineered these property and loan transac2

With their opposition to appellants’ motion to dismiss on
standing grounds, each appellee submitted a declaration under
penalty of perjury that he or she is on the Church’s membership
roll, has a membership number provided by the Church, and serves
(or has served) on Church ministries open only to Church members.
3

The complaint describes BCIC as a nonprofit corporation
“created to help raise funds and assist the Church in its work to
improve the Deanwood Heights community” in various ways.
Unlike the Church itself, BCIC can receive government funding
because it is a secular organization. The complaint further alleges
that (as shown in the allegations we summarize above) BCIC is
controlled by Turner and is “Turner’s alter ego even more than it
is the Church’s.”

166a
tions without the knowledge and approval of the
Church’s Trustee Board (or its membership in general).4
In fact, throughout the period, Turner falsely represented that the Church was debt-free and that the
property transactions did not encumber the Church’s
property. The truth was revealed in 2014 when a
notice appeared in The Washington Post that Church
property was to be auctioned off in a foreclosure sale.
To prevent this, Turner was forced to sell off certain
Church properties, including the lot the Church had
conveyed to BCIC for free.
(2) With the help of Moore and a few other confederates, Turner also secretly and repeatedly withdrew
funds from the Church operating account for his own
personal benefit. Turner allegedly
charged to the Church credit card meals, fuel
for his personal car, dry cleaning, vacations,
personal lawn care and exorbitant cell phone
bills, which included home Internet and cable
television services. He had the Church pay
for his own continuing education, his wife’s
4

The Church’s 1997 Constitution is incorporated in the complaint by reference. Under that Constitution, the duty “[t]o
review and/or sign all contracts and legal documents on behalf of
the Church” and “[t]o have responsibility for the acquisition . . .
of all church property” was assigned to the Trustee Board. The
Constitution did not assign similar duties or powers to the Pastor.
The Constitution also assigned financial oversight and similar
responsibilities to other boards, committees, and officers of the
Church. The Board of Deacons, for example, had the duty to “[k]now
at all times” the financial condition of the Church, and a separate
Budget-Finance Committee bore responsibility for preparing the
Church’s annual budget for submission to the entire membership.
The Constitution required the Church’s Pastor (Turner), among
other things, to “seek the advice of the official boards regarding
recommendations for policy and program changes.”

167a
education and his son’s tuition, including,
for example, $14,000 in tuition payments in
2008. He had the Church cover personal tax
liabilities, including $3,000 in 2008. Moreover,
he had the Church establish and pay premiums on life insurance policies for both him
and his wife, and had the Church pay his wife
$500 on at least two occasions for delivering
speeches at the Church.
All of these expenditures were unauthorized; the
Church Constitution vested responsibility for the
Church’s property and finances, including Turner’s
salary, in the Trustee Board and other Church bodies,
and they allegedly did not know of or approve Turner’s
use of Church funds to pay his personal expenses.5
(3) When Turner was having personal financial
difficulties in 2008, he arranged with Moore for two
secret payments from the Church to him in the total
amount of $75,000 out of its general reserve fund.
These payments were supposedly for services Turner
had performed as a real estate “consultant” to the
Church and BCIC and in securing government grants
to acquire property for BCIC. There had been no
contract or agreement to pay Turner for such services
and the amount of the payments was arbitrary. Again,
in violation of the Church Constitution, these payments were made without the knowledge and approval
of the Trustee Board (or the Church membership).

5

Under the Constitution, the Board of Deacons was charged
with “[i]nsur[ing] that the Pastor is paid a salary which is fair
to him and the Church,” and the Trustee Board with “pay[ing] all
salaries and debts incurred by the Church and such other disbursements as the Church deems necessary.”

168a
(4) In 2011, Turner, aided by Moore, arranged for
the Church to borrow $900,000, secured by Church
property, ostensibly to pay for renovations of Church
facilities (though the renovation contracts, had they
been fully performed, would have totaled only $380,000).
Much of that money is unaccounted for; the complaint
alleges on information and belief that Turner drew
down the funds and used them for “purposes unrelated
to the mission of the Church.” The Church paid only
$162,500 in total for the (partial) renovation work that
was performed, and Turner claimed to the contractor
that the Church could not pay the rest of what it owed
him, which amounted at the time to only $57,500.
Instead, Turner borrowed $105,000 from the contractor,
telling him that the Church and BCIC needed it to
help pay off the July 2008 loan. Turner thereafter
refused to repay the contractor and claimed that his
loan had been a donation. The contractor sued the
Church, BCIC, and Turner for the money he was owed;
the Church incurred legal fees and expended funds to
settle the lawsuit.
The complaint further alleges that as a result of
Turner’s financial mismanagement, self-dealing, continuing concealment of financial arrangements, and
refusal to disclose information about the Church’s
financial condition to its membership, the Church is
in financial distress and can no longer maintain its
facilities, fully fund positions and scholarships, or
carry on other basic activities as it had been doing.
Based primarily on the foregoing activities, the
complaint charges Turner and Moore with breach of
fiduciary duty, unlawful conversion of Church funds,
and unjust enrichment from the diversion of those
funds to pay Turner’s personal expenses. The complaint
also charges Turner, Moore, and BCIC with civil

169a
conspiracy to commit those torts. The relief sought
includes an accounting to determine how much Turner
owes the Church and an award of monetary damages.
II. Appellate Jurisdiction
The denial of a motion to dismiss a complaint
usually is not immediately appealable because it does
not finally dispose of the case.6 We have held, however,
that where the motion to dismiss asserts a claim of
absolute ecclesiastical immunity from suit under the
First Amendment, the denial of that claim is
appealable under the collateral order doctrine if the
immunity turns on an issue of law rather than on a
factual dispute.7 Therefore, we have jurisdiction to
review the ruling on appeal to the limited extent of
determining whether appellants “are entitled to the
First Amendment immunity based on the allegations
in the complaint,”8 or whether the litigation can proceed under the assumption that those allegations are
true.
We reach a different conclusion as to our jurisdiction
to review the Superior Court’s threshold ruling that
appellees have standing to maintain their suit based
on their declarations stating they are enrolled members of the Church in good standing.9 To be amenable
6

Heard v. Johnson, 810 A.2d 871, 876 (D.C. 2002).

7

Id. at 877; Bible Way Church of Our Lord Jesus Christ of
the Apostolic Faith of Washington, D.C. v. Beards, 680 A.2d 419,
426 (D.C. 1996); United Methodist Church v. White, 571 A.2d 790,
792-93 (D.C. 1990).
8
9

Brief of Appellants at 16.

“[A]s a general principle, bona fide members of a church have
standing to bring suits as trust beneficiaries when there is a dispute over the use or disposition of church property.” Mount Jezreel
Christians Without a Home v. Board of Trustees of Mt. Jezreel Baptist

170a
to immediate interlocutory review under the collateral
order doctrine, a trial court ruling must satisfy three
requirements: “(1) it must conclusively determine
a disputed question of law, (2) it must resolve an
important issue that is separate from the merits of the
case, and (3) it must be effectively unreviewable on
appeal from a final judgment.”10 The ruling on appellees’ standing did not satisfy either the first or the
third of these requirements. It was not a “conclusive”
determination because there remains a genuine factual
dispute over appellees’ standing.11 And unlike a ruling
denying a claim of immunity as a matter of law, a
ruling on standing is not “effectively unreviewable” on
appeal from a final judgment.12 Appellants argue that
this particular ruling is effectively unreviewable after
a final judgment has been rendered because litigating
the issue will impermissibly involve the court in
second-guessing the Church’s religious decisions conChurch, 582 A.2d 237, 239 (D.C. 1990). Bona fide membership
can be established based on the church’s membership roll and
financial records. Id. at 240-41. See also Williams v. Board of
Trustees of Mt. Jezreel Baptist Church, 589 A.2d 901, 908 (D.C. 1991).
10

McNair Builders, Inc. v. Taylor, 3 A.3d 1132, 1135 (D.C.
2010) (internal quotation marks omitted).
11

While appellees filed declarations stating they were on the
Church’s membership roll, had membership numbers, and were
in the Church’s ministries, Turner countered with a declaration
asserting the opposite. Ultimately, the Superior Court will need
to resolve this factual dispute, presumably after discovery in which
the membership roll and other pertinent documents are produced
(if they are available). See Grayson v. AT&T Corp., 15 A.3d 219,
245-46 (D.C. 2011) (en banc) (explaining that the standing inquiry
may be different depending on the stage of the litigation).
12

See, e.g., Summit Med. Assocs., P.C. v. Pryor, 180 F.3d 1326,
1334-35 (11th Cir. 1999) (citing cases). See also Freyre v. Chronister,
2018 U.S. App. LEXIS 35141 *1, *5-6 (11th Cir. Dec. 14, 2018).

171a
cerning its membership.13 We are not persuaded by
this assertion. The court may need to determine
whether and when the Church admitted or excluded
appellees from membership, but not, so far as now
appears, why the Church did so.14
III. Ecclesiastical Abstention
Appellants claim to be immune from suit because,
generally speaking, the First Amendment requires
civil courts to abstain from disputes over “matters of
church government as well as those of faith and
doctrine.”15 But this principle “does not mean . . . that
churches [or their ecclesiastical personnel, e.g., ministers] are above the law or that there can never be a
civil court review of a church action.”16 On the
contrary,

13

Appellants note that the Church Constitution makes “faith
in the Lord Jesus Christ” a qualification for membership.
14

See, e.g., Jackson v. George, 146 A.3d 405, 416-18 (D.C. 2016)
(holding that dispute over purported termination of church memberships was justiciable where the issue turned on the authority
of the decision makers without requiring resolution of any religious questions; “[c] ontrary to appellants’ assertions, Judge Nash
was not required to determine whether appellees . . . or anyone
else had ‘accepted Jesus Christ”).
15

Hosanna-Tabor Evangelical Lutheran Church & Sch. v.
EEOC, 565 U.S. 171, 186 (2012) (quoting Kedroff v. Saint Nicholas
Cathedral of Russian Orthodox Church in North America, 344
U.S. 94, 116 (1952)). See also, e.g., Meshel v. Ohev Shalom Talmud
Torah, 869 A.2d 343, 353-54 (D.C. 2005); Heard, 810 A.2d at 879.
In Hosanna-Tabor, the Court clarified that this doctrine of abstention “operates as an affirmative defense to an otherwise cognizable
claim, not [as] a jurisdictional bar.” 565 U.S. at 195 n.4.
16

Heard, 810 A.2d at 879 (brackets added). See also Family
Fed’n for World Peace v. Moon, 129 A.3d 234, 249 (D.C. 2015)
(“In sum, the mere fact that the issue before the court involves

172a
civil courts may resolve disputes involving
religious organizations as long as the courts
employ neutral principles of law and their
decisions are not premised upon their consideration of doctrinal matters, whether the
ritual and liturgy of worship or the tenets of
faith. . . . Even where the civil courts must
examine religious documents in reaching their
decisions, the “neutral principles” approach
avoids prohibited entanglement in questions
of religious doctrine, polity, and practice
by relying exclusively upon objective, wellestablished concepts of law that are familiar
to lawyers and judges.17
Disputes over church property are “especially”
amenable to resolution by civil courts employing neutral
principles of law applicable in all property disputes.18
“[I]n determining whether the adjudication of an
action would require a civil court to stray impermissibly into ecclesiastical matters, we look not at the
label placed on the action but at the actual issues the
court has been asked to decide.”19 As set forth in the
complaint, the main issues here appear to be entirely
secular and to be governed entirely by neutral principles of law. They are not issues of religious doctrine,
church governance, or the like; unlike in some past
cases this court has seen, they do not involve review of
a church or religious entity does not thereby bar access to our
courts.”).
17

Meshel, 869 A.2d at 354 (quoting Jones v. Wolf, 443 U.S. 595,
602, 603 (1979) (quotation marks omitted)).
18

Family Fed’n, 129 A.3d at 248. See also Heard, 810 A.2d at

880.
19

Meshel, 869 A.2d at 356.

173a
policy matters reserved to ecclesiastical judgment.
They are simply issues of the permissible use or
disposition of Church property; they primarily boil
down to whether Turner, with Moore’s and BCIC’s
assistance, misappropriated the Church’s money
for his own use and encumbered or disposed of the
Church’s real estate without the authorization required
by the Church Constitution. The resultant causes of
action – breach of fiduciary duty, conversion, unjust
enrichment, and civil conspiracy to commit those
torts – all “rely upon doctrines basic to our legal
system” and are resolved by applying familiar, welldeveloped, neutral principles of law.20
The causes of action in this case are justiciable
notwithstanding that they rely on provisions of the
Church’s Constitution specifying the allocation of
responsibility for and authority over Church property,
contracts, and financial matters.21 As we explained in
Bible Way Church, a civil court can enforce standards
of behavior that a church has formally adopted.22
20

Family Fed’n, 129 A.3d at 249. In contrast, in Bible Way
Church, supra, footnote 7, and Kelsey v. Ray, 719 A.2d 1248 (D.C.
1998), we held that the plaintiffs had failed to allege the
applicability of neutral accounting and reporting criteria that
were clear and objective enough to allow a court to examine a
church’s financial practices without involving itself in policy
determinations committed to ecclesiastical judgment. See Kelsey,
719 A.2d at 1249, 1252-53; Bible Way Church, 680 A.2d at 42829.
21
22

See footnotes 4 and 5, supra.

680 A.2d at 428 (“If the church has, in fact, adopted clear,
objective accounting and reporting standards that eliminate all
doctrinal decision-making in their enforcement, then arguably a
civil court can apply them – much as a court can resolve secular
disputes over church property – because the church itself has
obviated all First Amendment concerns.”).

174a
And a church’s constitution is a contractual agreement
that a court may construe using neutral principles of
law, such as “the ‘objective law’ of contracts, under
which the written language embodying the terms of an
agreement governs the rights and liabilities of the
parties.”23 In this case, for instance, the court may
have to construe and apply Article 5, Section 3 (c)(2)
of the Constitution, which specified that it was
the Trustee Board’s duty “No review and/or sign
all contracts and legal documents on behalf of the
Church . . . .” We see no reason why this task (or the
construction and application of any other provision
of the Constitution pertinent to this case) should
entangle the court in any questions of religious doctrine, polity, or practice. That some provisions of the
Constitution contain religious terminology should not
give rise to such impermissible entanglement in the
absence of a “material dispute between the parties”
over the meaning of the religious language.24 The

23
24

Meshel, 869 A.2d at 361.

Id. at 354. In Meshel, the court construed the corporate
bylaws of an Orthodox Jewish congregation to determine that the
parties had an enforceable agreement to arbitrate their dispute
by presenting it to a “Beth Din.” The court held that it could make
this determination applying neutral principles of contract interpretation because there was no material dispute between the
parties as to the meaning of that or other religious terms in the
bylaws. See also id. at 357 (“It is undeniable that ‘Beth Din,’ Din
Torah,’ Orthodox rabbi,’ and ‘Halacha’ are religious terms that
lend the case a certain surface feel of ecclesiastical content. When
we look beneath the surface, however, we see an action to compel
arbitration that turns not on ecclesiastical matters but on
questions of contract interpretation that can be answered exclusively through the objective application of well-established, neutral
principles of law.”).

175a
existence of such a material dispute in this case has
not been shown and is not apparent.25
Thus, at this early stage of the case, “it would appear
that this dispute is susceptible to resolution by
`neutral principles of law’ not requiring any forbidden
inquiry into matters barred by the First Amendment.”‘26
We therefore hold that the litigation may proceed,
with the understanding that “going forward, if it
becomes apparent to the trial court that this dispute
does in fact turn on matters of doctrinal interpretation
or church governance, the trial court may grant
summary judgment to avoid ‘excessive entanglement
with religion.’”27
Accordingly, we hereby affirm the Superior Court’s
denial of appellants’ motion to dismiss the amended
complaint on First Amendment and standing grounds
and remand the case for further proceedings.
ENTERED BY DIRECTION OF THE COURT:
/s/Julio A. Castillo
25

Appellants appear to rely on a provision of the 1997
Constitution, Article IV, Section 1, stating that the Pastor of the
Church “shall serve as overseer, leader, advisor, and teacher” (emphasis added). Assuming arguendo that “overseer” is a religious term
(as appellants contend it is), it is not clear that the parties
disagree over its meaning or that, if they do, the dispute is either
unresolvable by a court or material to the issues raised by the
complaint. Appellants do not seem to claim, for example, that
Turner’s status as “overseer” entitled him to misappropriate Church
funds for his own use (in fact, they disavow any such claim in
their appellate briefing) or override provisions of the Constitution
committing contractual and other matters to the Trustee Board.
26
27

Family Fed’n, 129 A.3d at 249.

Second Episcopal Dist. African Methodist Episcopal Church
v. Prioleau, 49 A.3d 812, 818 (D.C. 2012).

176a
JULIO A. CASTILLO
Clerk of the Court
Copies to:
Honorable Robert D. Okun
Director, Civil Division
Seth Rosenthal, Esquire
Calvin R. Nelson, Esquire
Venable LLP
575 7th Street, NW
Washington, DC 20004
Copies e-served to:
Joseph G. Cosby, Esquire
Bradford S. Bernstein, Esquire
James A. Sullivan, Esquire
Joshua Counts Cumby, Esquire

